<html>
<title> - OVERSIGHT OF THE TRUMP ADMINISTRATION'S FAMILY SEPARATION POLICY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




    OVERSIGHT OF THE TRUMP ADMINISTRATION'S FAMILY SEPARATION POLICY

=======================================================================


                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                           FEBRUARY 26, 2019

                               ----------                              

                            Serial No. 116-4

                               ----------                              

         Printed for the use of the Committee on the Judiciary
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]          
         


    Available on: http://www.judiciary.house.gov or www.govinfo.gov
    
    
    



    OVERSIGHT OF THE TRUMP ADMINISTRATION'S FAMILY SEPARATION POLICY
    
    
    

 
    OVERSIGHT OF THE TRUMP ADMINISTRATION'S FAMILY SEPARATION POLICY

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 26, 2019

                               __________

                            Serial No. 116-4

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]          



    Available on: http://www.judiciary.house.gov or www.govinfo.gov
    
    
    
                          ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
38-041             WASHINGTON : 2019   
    
    
                       COMMITTEE ON THE JUDICIARY

                   JERROLD NADLER, New York, Chairman
ZOE LOFGREN, California              DOUG COLLINS, Georgia,
SHEILA JACKSON LEE, Texas              Ranking Member
STEVE COHEN, Tennessee               F. JAMES SENSENBRENNER, Jr., 
HENRY C. ``HANK'' JOHNSON, Jr.,          Wisconsin
    Georgia                          STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          LOUIE GOHMERT, Texas
KAREN BASS, California               JIM JORDAN, Ohio
CEDRIC L. RICHMOND, Louisiana        KEN BUCK, Colorado
HAKEEM S. JEFFRIES, New York         JOHN RATCLIFFE, Texas
DAVID N. CICILLINE, Rhode Island     MARTHA ROBY, Alabama
ERIC SWALWELL, California            MATT GAETZ, Florida
TED LIEU, California                 MIKE JOHNSON, Louisiana
JAMIE RASKIN, Maryland               ANDY BIGGS, Arizona
PRAMILA JAYAPAL, Washington          TOM McCLINTOCK, California
VAL BUTLER DEMINGS, Florida          DEBBIE LESKO, Arizona
J. LUIS CORREA, California           GUY RESCHENTHALER, Pennsylvania
MARY GAY SCANLON, Pennsylvania,      BEN CLINE, Virginia
  Vice-Chair                         KELLY ARMSTRONG, North Dakota
SYLVIA R. GARCIA, Texas              W. GREGORY STEUBE, Florida
JOE NEGUSE, Colorado
LUCY McBATH, Georgia
GREG STANTON, Arizona
MADELEINE DEAN, Pennsylvania
DEBBIE MUCARSEL-POWELL, Florida
VERONICA ESCOBAR, Texas

        Perry Apelbaum, Majority Staff Director & Chief Counsel
                Brendan Belair, Minority Staff Director
                
                            C O N T E N T S

                              ----------                              

                           FEBRUARY 26, 2019

                           OPENING STATEMENTS

                                                                   Page
The Honorable Jerrold Nadler, New York, Chairman, House Committee 
  on the Judiciary...............................................     1
The Honorable Doug Collins, Georgia, Ranking Member, House 
  Committee on the Judiciary.....................................     3
The Honorable Zoe Lofgren, California, Chair, Subcommittee on 
  Immigration and Citizenship, House Committee on the Judiciary..     6
The Honorable Ken Buck, Colorado, Ranking Member, Subcommittee on 
  Immigration and Citizenship, House Committee on the Judiciary..     7

                               WITNESSES

Chief Carla Provost, Chief of Border Patrol, U.S. Customs and 
  Border Protection
  Oral Testimony.................................................    10
  Prepared Statement.............................................    13
Ms. Nathalie R. Asher, Acting Executive Associate Director, 
  Enforcement and Removal Operations, U.S. Immigration and 
  Customs Enforcement
  Oral Testimony.................................................    19
  Prepared Statement.............................................    21
Mr. Scott Lloyd, Senior Advisor, Center for Faith and Opportunity 
  Initiatives, U.S. Department of Health and Human Services
  Oral Testimony.................................................    27
  Prepared Statement.............................................    29
Commander Jonathan White, U.S. Public Health Service Commissioned 
  Corps, U.S. Department of Health and Human Services
  Oral Testimony.................................................    36
  Prepared Statement.............................................    39
Mr. James McHenry, Director, Executive Office for Immigration 
  Review, U.S. Department of Justice
  Oral Testimony.................................................    46
  Prepared Statement.............................................    48

          LETTERS, STATEMENTS, ETC. SUBMITTED FOR THE HEARING

Prepared Statements of Amnesty International, American College of 
  Physicians, the Center for Victims of Torture, the United 
  States Conference of Catholic Bishops, Church World Service, 
  the Episcopal Church, Sojourners, and the Friends Committee on 
  National Legislation; Submitted by the Honorable Sheila Jackson 
  Lee............................................................    61
Letter from Chairman Jerrold Nadler to the U.S. Department of 
  Health and Human Services, dated January 11, 2019; Submitted by 
  the Honorable Ted Deutch.......................................   104
Document produced to the Committee by the U.S. Department of 
  Health and Human Services regarding the Office of Refugee 
  Resettlement's policy on sexual abuse; Submitted by the 
  Honorable Ted Deutch...........................................   108
Document produced to the Committee by the U.S. Department of 
  Health and Human Services regarding allegations of sexual abuse 
  reported to the U.S. Department of Justice in fiscal years 2015 
  through 2018; Submitted by the Honorable Ted Deutch............   111
Document produced to the Committee by the U.S. Department of 
  Health and Human Services regarding incidents of sexual abuse 
  in the Office of Refugee Resettlement's Unaccompanied Alien 
  Children Program; Submitted by the Honorable Ted Deutch........   116
Document produced to the Committee by the U.S. Department of 
  Health and Human Services regarding incidents of sexual abuse 
  from fiscal years 2017 and 2018; Submitted by the Honorable Ted 
  Deutch.........................................................   119
New York Times article entitled, ``Why Are Parents Bringing Their 
  Children on Treacherous Treks to the U.S. Border?''; Submitted 
  by the Honorable Matt Gaetz....................................   125
Washington Post article entitled, ``For Central Americans, 
  children open a path to the U.S.--and bring a discount''; 
  Submitted by the Honorable Matt Gaetz..........................   135
Washington Times article entitled, ``Eye-popping surge of illegal 
  immigrants abducting children''; Submitted by the Honorable 
  Matt Gaetz.....................................................   143
ProPublica report entitled, ``Families Are Still Being Separated 
  at the Border, Months After `Zero Tolerance' Was Reversed''; 
  USA Today article entitled, ``Families still being separated at 
  border--months after Trump's `zero tolerance' policy 
  reversed''; Washington Post article entitled, ``7 questions 
  about the family-separation policy, answered''; Vox article 
  entitled, ``The Trump administration's separation of families 
  at the border, explained''; BuzzFeed News article entitled, 
  ``The Trump Administration Is Slowing The Asylum Process To 
  Discourage Applicants, An Official Told Congress''; NPR report 
  entitled, ``After Traveling 2,000 Miles for Asylum, This 
  Family's Journey Halts At A Bridge;'' NPR report entitled, 
  ``Trump Administration Begins `Remain In Mexico' Policy, 
  Sending Asylum-Seekers Back''; Project on Government Oversight 
  report entitled, ``Asylum Seekers Being Turned Away No Matter 
  Where They Cross the Border''; Submitted by the Honorable David 
  N. Cicilline...................................................   154
Vox article entitled, ``Hundreds of families are still being 
  separated at the border''; Submitted by the Honorable Mary Gay 
  Scanlon........................................................   227
Texas Civil Rights Project report entitled, ``The Real National 
  Emergency: Zero Tolerance & the Continuing Horrors of Family 
  Separation at the Border''; Submitted by the Honorable Veronica 
  Escobar........................................................   248
NBC News article entitled, ``Trump admin weighed targeting 
  migrant families, speeding up deportation of children''; 
  Submitted by the Honorable Veronica Escobar....................   275
Letters from the Honorable Lou Correa to Acting Inspector General 
  John Kelly, The Honorable Scott Perry, Department of Homeland 
  Security Secretary Kirstjen Nielsen, the Honorable Michael 
  McCaul, and Inspectors General John Kelly and Daniel Levinson; 
  Submitted by the Honorable Lou Correa..........................   290

                                APPENDIX

Statement of Tahirih Justice Center; Submitted by the Honorable 
  Zoe Lofgren....................................................   309
U.S. Immigration and Customs Enforcement Detention Management 
  information and Separated Families guidance; Submitted by the 
  Honorable Doug Collins.........................................   311
Questions for the Record for Chief Carla Provost, Ms. Nathalie 
  Asher, Mr. Scott Lloyd, Commander Jonathan White, and Mr. James 
  McHenry; Submitted by the Honorable Jerrold Nadler, the 
  Honorable Zoe Lofgren, the Honorable Sylvia Garcia, the 
  Honorable Veronica Escobar, and the Honorable Greg Stanton.....   314
Responses to Questions for the Record from Customs and Border 
  Protection.....................................................   317
Responses to Questions for the Record from Immigration and 
  Customs Enforcement............................................   331
Responses to Questions for the Record from the Department of 
  Health and Human Services......................................   338
Responses to Questions for the Record from the Department of 
  Justice........................................................   340


    OVERSIGHT OF THE TRUMP ADMINISTRATION'S FAMILY SEPARATION POLICY

                       TUESDAY, FEBRUARY 26, 2019

                        House of Representatives

                       Committee on the Judiciary

                             Washington, DC

    The committee met, pursuant to call, at 10:07 a.m., in Room 
2141, Rayburn House Office Building, Hon. Jerrold Nadler 
[chairman of the committee] presiding.
    Present: Representatives Nadler, Lofgren, Jackson Lee, 
Johnson of Georgia, Deutch, Bass, Jeffries, Cicilline, Lieu, 
Raskin, Jayapal, Demings, Correa, Scanlon, Garcia, Neguse, 
McBath, Stanton, Dean, Mucarsel-Powell, Escobar, Collins, 
Sensenbrenner, Chabot, Gohmert, Jordan, Buck, Roby, Gaetz, 
Johnson of Louisiana, Biggs, McClintock, Lesko, Reschenthaler, 
Cline, Armstrong, and Steube.
    Staff Present: Joshua Breisblatt, Counsel; Rachel Calanni, 
Professional Staff; Madeline Strasser, Chief Clerk; David 
Greengrass, Senior Counsel; Susan Jensen, Parliamentarian and 
Senior Counsel; Lisette Morton, Director of Policy, Planning, 
and Member Services; Andrea Loving, Minority Chief Counsel, 
Subcommittee on Immigration and Citizenship; Jon Ferro, 
Minority Parliamentarian; and Erica Barker, Minority Chief 
Legislative Clerk.
    Chairman Nadler. The Judiciary Committee will come to 
order.
    Without objection, the chair is authorized to declare 
recesses of the committee at any time.
    We welcome everyone to this morning's hearing on Oversight 
of the Trump Administration's Family Separation Policy. I will 
now recognize myself for an opening statement.
    Two years into the Trump administration's wide array of 
dramatic and damaging immigration policy changes, it is 
unbelievable that so much harm has occurred to so many people 
with so little congressional oversight. That ends with this new 
Congress.
    In our first immigration-related hearing this Congress, the 
Judiciary Committee will finally seek to hold the 
administration accountable for its indefensible and repugnant 
family separation policy and for the injuries it has inflicted 
on thousands of children and families. Even now, months after 
the height of the crisis created by the administration's 
implementation of its cruel and inhumane anti-immigrant 
policies, basic questions remain unanswered.
    In part, that is because the Department of Justice and the 
Department of Homeland Security until last night stonewalled 
the legitimate requests for information by this committee that 
were made over 6 weeks ago. Although we have received several 
document productions by the Department of Health and Human 
Services, we only received our first document productions of 
under 100 pages each last night from DOJ and DHS. That is 
absolutely inexcusable. These requests were made 6 weeks ago.
    I expect these agencies to comply with our requests in the 
future and I expect the witnesses to be prepared to answer all 
of our questions today, starting with four fundamental ones.
    First, why did the administration think that seizing 
children from the arms of their parents was acceptable policy? 
Second, who was responsible for developing and implementing the 
family separation policy? Third, what are you doing to reunify 
all of the families you separated? And fourth, what plans are 
in place to repair the traumatizing damage to children and 
families caused by their actions?
    As part of this policy, the Department of Homeland Security 
apprehended thousands of families crossing our Southern border, 
many of them fleeing for their lives, and tore children away 
from their parents seemingly for no reason other than to deter 
people from seeking the protection our country has historically 
provided to those seeking asylum. And the Department did so in 
such a reckless and callous way that it failed even to capture 
sufficient information to identify which child belonged to 
which parent.
    When a stranger rips a child from a parent's arms without 
any plan to reunify them, it is called kidnapping. This 
administration is responsible for the harm suffered by 
thousands of children and their parents, and it must be held 
accountable after, after all the children are reunified. That 
is why we must have a full accounting of which officials were 
responsible for directing and planning this shameful policy of 
kidnapping.
    Not only was the family separation policy abhorrent, the 
administration was either incompetent or grossly negligent in 
its implementation, which only compounded the trauma inflicted 
on these innocent children. It is now apparent that none of the 
agencies present here today were ready to implement this 
policy. According to reports from the DHS Inspector General, 
the Department of Health and Human Services Inspector General, 
and the Government Accountability Office, the agencies failed 
to take the basic and necessary steps to prepare for and 
implement the family separation policy.
    For example, the DHS Inspector General found that the 
Department ``struggled to identify, track, and reunite 
families'' and caused confusion by providing ``inconsistent 
information'' to separated families. The GAO reported that DHS 
and HHS frontline staff were not aware of their roles in family 
separation until then-Attorney General Sessions announced the 
policy in an April 2018 speech.
    This utter lack of preparation is indefensible on its own, 
but it is particularly appalling, given the fact that DHS and 
the Justice Department had already conducted a 5-month pilot 
program involving family separation in the El Paso sector.
    How is it remotely possible that after quietly conducting 
this family separation program for 5 months, the agencies at 
this hearing did not recognize the obvious need for critical 
officer training, for a system for tracking families, or a plan 
for eventual reunification? The failure to take these steps as 
the program was expanded demonstrates an utter indifference to 
human suffering that shocks the conscience.
    Lastly, I expect our witnesses to tell us what they are 
currently doing to repair the untold harm their agencies 
inflicted on these children and their parents--and their 
families. The American Association of Pediatrics has stated 
that, ``Highly stressful experiences like family separation can 
cause irreparable harm, disrupting a child's brain architecture 
and affecting his or her short- and long-term health and can 
carry lifelong consequences for the children.''
    So I must ask, who in your respective agencies are now 
monitoring and addressing the medical and psychological needs 
of separated children both during custody and after being 
reunified with their parents, with their families?
    Incredibly, the Human and Human Services Inspector General 
reported last January--that is to say last month--that 
thousands more children may have been forcibly separated from 
their parents or legal guardians than the administration had 
previously acknowledged. In fact, the actual number is still 
unknown. Even worse, the Government has neither attempted nor 
intends to reunify these unaccounted-for children with their 
parents because, they say, it would just be too complicated and 
burdensome.
    While there may be some logistical challenges and 
jurisdictional questions as to how that should happen, there is 
absolutely no justification to not even try to reunify a child 
with his or her parent. It is simply unacceptable to allow 
anyone who inflicted such traumatic damage to these families to 
sidestep responsibility for the consequences of their actions.
    We as a nation can and must do better. I expect that the 
witnesses will all be prepared to answer fully and clearly how 
this disastrous and unconscionable policy was developed and 
implemented, how their agencies intend to locate and reunify 
every child with every parent for every family that was 
separated, whether as part of the zero-tolerance policy or 
prior to the zero-tolerance policy being announced, including 
reunifying children with parents who were unconscionably 
deported without their children, if the parents want that, and 
how the agencies intend to repair the damage they caused.
    I look forward to discussing these issues and more with our 
panel, and I now yield to the distinguished ranking member of 
the committee, the gentleman from Georgia, Mr. Collins.
    Mr. Collins. Thank you, Mr. Chairman.
    And I appreciate the opportunity today to discuss the human 
cost of the current immigration law and what happens when for 
decades the law is ignored both by Republican and Democrat 
administrations and abused by those seeking to enter the United 
States at almost any cost. Together, these factors have 
undercut American sovereignty and the integrity of our generous 
immigration system.
    Unfortunately, actions can have damaging consequences, and 
now caravans of thousands of Central Americans are endangering 
themselves and others as they pursue entry, very often illegal 
entry to the U.S. Fraud and abuse now is rampant in our asylum 
system, which is supposed to protect the vulnerable from 
persecution. Adults are delivering children into the hands of 
human traffickers while gangs of aliens violently assault the 
Border Patrol agents simply trying to keep Americans and 
migrants safe.
    The President once noted we have seen a significant rise in 
apprehensions and processing of children and individuals from 
Central America who are crossing into the United States in the 
Rio Grande Valley areas of the Southwest border. These 
individuals who embark upon this journey are subject to violent 
crime, abuse, and extortion as they rely on dangerous human 
smuggling networks to transport them through Central America 
and Mexico.
    This was true when President Obama wrote this in a letter 
to Congress in June of 2014, and it remains true today. That 
summer, President Obama asked Congress for $3.7 billion in 
emergency supplemental appropriations to help address the 
border crisis, and the House Republicans passed such a bill.
    During that crisis, the Obama administration was doing the 
same things that is happening today. They were apprehending 
illegal border crossers in the same way the Trump 
administration does today. They were detaining and processing 
the illegal entrants in the same facilities, with the same 
chain link partitions where the Trump administration detains 
and processes them today. They were providing the same 
humanitarian relief--diapers, food, mylar blankets--as the 
Trump administration provides today.
    Of course, none of that stops illegal border crossings 
because the perverse incentives to come to the U.S. illegally 
and to falsely claim asylum remain strong. To make the 
situation worse, a 2015 Federal court ruling incorrectly 
interpreted the Flores settlement agreement. That ruling 
provided more incentive for aliens to come to the U.S. 
illegally since word got out that adults who bring a child with 
them across the border are guaranteed release into America's 
interior within a matter of days.
    The Obama administration rightly appealed the ruling but 
lost, leaving Congress with a duty to act on what should be a 
bipartisan humanitarian policy correcting the errant Flores 
ruling. So here we are 5 years later. Misguided policies, 
inconsistent enforcement, and limited resources have further 
fueled the humanitarian border crisis.
    Family unit apprehensions are up 280 percent over the same 
time last year, and overall apprehensions by Border Patrol are 
up 81 percent. Agents routinely see groups of 300 or more 
aliens entering together illegally as Central American caravans 
filled with family units, unaccompanied minors, and single 
adults have become the norm.
    My colleagues across the aisle have offered no solutions to 
secure the border and end the perverse incentives that cause 
children to be trafficked and abused on the journey north or 
honor legal immigrants by fighting the widespread abuse of the 
current system. Instead, we have seen advocation for mass 
legalization of illegal aliens, to abolish the entire law 
enforcement agency of ICE, and for legislation that would 
further hamstring any efforts to deter illegal entry and abuse 
of the immigration system and existing laws.
    Even today, hostility to the rule of law is on display. My 
colleagues had the opportunity to hold their first immigration-
related hearing on a topic that would curb incentives for 
illegal immigration and remove incentives for parents to 
endanger their own children by paying murderous cartels to 
smuggle children across the U.S.-Mexico border. Instead, we 
have decided that the first immigration-related hearing would 
ignore every opportunity to protect Americans and our neighbors 
in favor of a political spectacle.
    None of that is helpful, and none of it represents a 
serious attempt to protect our sovereign borders, our citizens, 
and our neighbors to the south, and the rule of law. When he 
took office, President Trump applied the current law in a good 
faith effort to deter illegal border crossings. His January 25, 
2017, immigration enforcement executive order directed the 
Attorney General to prioritize prosecution of offenses having a 
nexus to the Southern border.
    The Attorney General and the DHS Secretary then implemented 
the zero-tolerance policy under which DHS would refer any alien 
who entered the country illegally along our Southwest to DOJ 
for prosecution. Under the Code 1325(a), DOJ would prosecute 
those aliens. The children accompanying those aliens who were 
being prosecuted became, by law, unaccompanied alien children 
and were placed in the custody of the Office of Refugee 
Resettlement at the Department of HHS.
    Now I am going to say personally we must be fair. When we 
look back on this in hindsight, it is clear the system was not 
ready to handle the large number of children arriving at the 
border and separated from their parents. It was not handled in 
a way that could be fitting, and that was a mistake in the 
system.
    Agents involved here made some mistakes. The administration 
could have and should have done a better job reuniting families 
for adult prosecution. Today, we will hear from agencies 
involved in the zero-tolerance policy about what they have done 
to ensure going forward every child separated from their parent 
at the border is tracked and, if appropriate, reunited with 
that parent. But we should also talk about how Congress can 
stop incentivizing illegal entry. We should hear from the 
witnesses, especially Border Patrol and ICE, what resources and 
legislative changes they believe are necessary to end the 
humanitarian crisis at our Southern border and make interior 
safer for citizens and legal immigrants.
    We help no one here today by upholding the status quo. We 
cannot simply say and have a hearing on what is now without 
looking to the future, without saying what got us here, how do 
we get it fixed, and how do we have honest interpretations of 
who is held and who is not?
    When we do that, then we do a service to the American 
public, not only those who are seeking a better life as they 
come here, doing it legally, but also to make sure that our 
border is safe in those doings.
    Well, Mr. Chairman, before I yield back my time, I want to 
recognize some members of our audience here today. We are going 
to hear a lot about separation and other things, and those are 
things that we do need to hear about. But with us in this room 
today are Mary Ann Mendoza, a son, Police Sergeant Brandon 
Mendoza, who was killed by a criminal illegal alien who was 
driving while intoxicated. Steve Ronnebeck, whose son Grant 
Ronnebeck was killed by an illegal alien while working at a 
convenience store that the alien had decided to rob. And Marla 
Wolff, whose husband, FBI agent Carlos Wolff, was killed by a 
criminal illegal alien while he was standing next to his 
vehicle on the side of the road.
    Our immigration system, for those who have heard me speak 
before, is broken. It needs to be fixed. We cannot continue the 
perverse incentive to come illegally across our borders, and we 
need to fix the legal ways that we can make the country the 
greatest it is in the world with open doors to those who want 
to do and come here to participate legally.
    This is our problem. This is what we should be dealing with 
today, and that is my hope, Mr. Chairman, as I yield back.
    Chairman Nadler. Thank you, Mr. Collins.
    It is now my pleasure to recognize the chair of the 
Subcommittee on Immigration and Citizenship, the distinguished 
gentlewoman from California, Ms. Lofgren, for her opening 
statement.
    Ms. Lofgren. Thank you, Chairman Nadler.
    I have served in Congress for almost 25 years, and I have 
participated in hundreds of hearings, but I have rarely been 
confronted with overseeing policy choices so dreadful and grave 
that they fundamentally undermine our standing as a nation. We 
are here today to document and hold this administration 
accountable for using children, including babies and toddlers, 
as pawns in its ongoing war on immigrants.
    I take no pleasure in holding this hearing, and there will 
be no winners at the end of it. Family separation policy has 
stained the Nation and hurt our people, leaving families in 
pain and our Government in shame. But the hearing is critical 
because there are many questions that remain unanswered. Today, 
we expect the witnesses to be prepared to provide detailed, 
thorough, and concrete answers to those questions. At the 
outset, here is what we already know.
    We know that when Democrats criticized the proposal to 
separate families as a deterrent to unauthorized immigration in 
early 2017, former Secretary of DHS John Kelly publicly said he 
would abandon the idea, and that is what we originally thought 
had happened. But in the summer of 2017, we were hearing many 
reports from the field of family separations.
    Our staffs reached out to DHS, but the Department denied 
that family separations were taking place. We have since 
learned that despite these denials, the Department had quietly 
implemented a family separation pilot program in the El Paso 
sector. We know that despite the pilot program, DHS was 
entirely unprepared to expand that pilot across the Southern 
border.
    After announcing its zero-tolerance policy, DHS began to 
separate families without recording data that could be tracked 
through the detention system. So the Department effectively 
lost mothers and children. Think about that. DHS snatched 
screaming children from their parents' arms without bothering 
to make sure they captured sufficient data to reunite them in 
the future.
    Beside protestations to the contrary by Secretary Nielsen, 
we know that separating families was a specific intent of the 
zero-tolerance policy. At least 2,816 families, and maybe 
thousands more, were subjected to it. Leaked internal memos, 
including one signed by the Secretary herself, made clear that 
the goal was to create fear and chaos so that future asylum-
seeking families would be deterred from coming. It is a 
terrible irony that so many of these families undertook a 
perilous journey to protect their children only to see their 
children ripped from their arms by those who were supposed to 
provide refuge.
    Finally, responding to intense outrage within the Congress 
and really across the country, we know that President Trump 
ostensibly ordered the cessation of family separations on 
September 27, 2018. Yet we continue to receive reports that 
families are being torn apart at the border. That is what we 
know. Here is what we don't know.
    We don't know why the administration prioritized the 
separation of families as its go-to deterrence strategy. Every 
administration grapples with the challenge of unlawful border 
crosses, but not one has resorted to the cruelty of 
systematically separating children from their mothers and 
fathers.
    We even know that the Obama administration briefly studied 
the idea but quickly abandoned it as irreconcilable with 
American values. Why did this administration fervently pursue 
this heartless approach? We don't know what criteria DHS used 
to separate families, what information its officers gathered 
before shoving parents and kids in different directions, or 
what its plans were to reunite them. Indeed, reports conclude 
that the Department appears to have made no plans at all.
    We don't know why HHS received no forewarning that 
thousands of traumatized children would quickly be turned over 
to its custody or why so many children arrived without the 
vital data needed to facilitate eventual reunion. And we don't 
know if DHS is separating families now in violation of the 
President's order, or if it has dreamed up a new justification 
to accomplish the same result. We don't even know how many 
families were separated because apparently nobody kept count.
    Eight months after a Federal court ordered all families 
reunited, some remain apart, and thousands more families may be 
separated and entirely unaccounted for. We don't know when or 
if these families will ever see each other again.
    As a mother and grandmother, my heart aches for all of 
them. As a member of this committee, I have a duty to get to 
the bottom of what happened, and I intend to do that. And let 
me be clear. We will continue to bring the administration 
before this committee until every one of these children is home 
with their families.
    I yield back, Mr. Chairman.
    Chairman Nadler. I thank the gentlelady.
    I am now pleased to recognize the ranking member of the 
Immigration Subcommittee, the gentleman from Colorado, Mr. 
Buck, for his opening statement.
    Mr. Buck. Thank you, Mr. Chairman.
    No one on this committee wants to see families separated, 
but to avoid this, we need to take an honest look at the 
incentives that drive illegal immigration, the loopholes in our 
laws that encourage bad actors to exploit and expose children 
to the dangerous journey through Central America and Mexico to 
our Southern border and the crisis at our Southern border.
    Mr. Chairman, make no mistake, there is a crisis on our 
Southern border, one created by Congress' unwillingness to act 
and perpetrated by Democrats' open borders policy that allows 
drugs, guns, gangs, and human and child trafficking operations 
to spill across our border. Drug cartels and human traffickers 
that control the smuggling routes along the border are bringing 
unprecedented amounts of heroin and fentanyl into our country, 
which is driving the growing opioid crisis. In fact, we just 
saw the largest fentanyl bust in history just a few weeks ago, 
where authorities seized 254 pounds of fentanyl, enough to kill 
hundreds, if not thousands, of American citizens.
    On top of the drug crisis that these policies are 
perpetrating, these open border policies are exposing children 
to horrendous conditions. Coyotes and child smugglers expose 
children to drug trafficking, assaults, sexual abuse, and other 
criminal activity. In fact, one in three females who are 
trafficked are subject to sexual exploitation during the 
dangerous trip to the border.
    This is not to mention the spike in MS-13 and other gang 
activity in the country. In fact, in 2017, the U.S. Border 
Patrol Acting Chief Carla Provost testified before the Senate 
Judiciary Committee that MS-13 took full advantage of flows of 
foreign nationals into the United States by hiding in the 
populations of young individuals entering our country 
illegally.
    Many of these individuals came across the borders as 
unaccompanied alien children, or UACs, during President Obama's 
time and continue to enter our country now. As of last summer, 
Health and Human Services estimated that 83 percent of 
individuals crossing the border came as UACs. Law enforcement 
has been working hard to catch these criminals and curtail gang 
activity, but these open borders policies that Democrats have 
continued to push are forcing our domestic law enforcement 
officers to deal with a problem that should have stopped at the 
border.
    We are also seeing unprecedented numbers of family units 
with children crossing the border every month. Before 2011, 
more than 90 percent of illegal border crossers were single 
adult males. Not anymore. Now we are seeing record number of 
families and children making the dangerous journey here.
    In October, there were over 23,000 family apprehensions. In 
November, 25,000. In December, 27,000. These are historically 
high numbers.
    Unfortunately, years of ineffective enforcement and 
misguided laws created loopholes that incentivized people to 
break our laws, exploit children and families, and continue 
running drugs into our country. Simply put, many adults who 
illegally cross our border believe that if they come with a 
child, they will not be detained and will instead be released 
into the interior of the United States.
    We must work to address these loopholes and solve these 
problems. We cannot continue pushing our border policies and 
wondering why there is gang activity, drug running, gang 
violence, and illegal immigration in our interior. When 
President Trump signed an executive order on June 20, 2018, 
ending the zero-tolerance initiative that led to an increase in 
family separation, he aptly titled the order Affording Congress 
an Opportunity to Address Family Separation. It is time 
Congress do so.
    I look forward to hearing from the witnesses today about 
their work enforcing the law while protecting vulnerable 
populations on the border. I look forward to hearing how 
Congress can act to address the root causes of exploitation of 
children on our Southern border and how Congress can act to 
protect those truly seeking refuge while eliminating frivolous 
claims that clog our immigration courts.
    I yield back.
    Chairman Nadler. I thank the gentleman.
    I will now introduce today's witnesses. Carla Provost is 
the Chief of the U.S. Border Patrol at U.S. Customs and Border 
Protection in the Department of Homeland Security. She earned a 
Bachelor of Science degree in sociology and criminal justice 
from Kansas State University and a Master of Science degree in 
national resource strategy from the Industrial College of the 
Armed Forces at the National Defense University in Washington, 
D.C.
    Nathalie Asher is the Acting Executive Associate Director 
for Enforcement and Removal Operations at U.S. Immigration and 
Customs Enforcement in the Department of Homeland Security. She 
graduated from Cedarville University with a Bachelor of Arts in 
Spanish and business.
    Scott Lloyd is a senior adviser at the Center for Faith and 
Opportunity Initiatives in the Department of Health and Human 
Services and the former Director of the Office of Refugee 
Resettlement, also at HHS. He received his undergraduate 
education at James Madison University and earned his J.D. at 
Catholic University of America, Columbus School of Law.
    Jonathan White is a commander in the U.S. Public Health 
Service Commissioned Corps at the Department of Health and 
Human Services. He is currently a senior adviser in the Office 
of Emergency Management and Medical Operations, and he was the 
Federal health coordinating official for unaccompanied alien 
children reunification. He received a Bachelor of Arts in 
British and American literature at New College of Florida, a 
Ph.D. in American literature from George Washington University, 
and a Master of Social Work from Catholic University of 
America.
    James McHenry is Director of the Executive Office of 
Immigration Review at the Department of Justice. He earned a 
Bachelor of Science from Georgetown University School of 
Foreign Service, a Master of Arts in political science from 
Vanderbilt University Graduate School, and a Juris Doctorate 
from the Vanderbilt University Law School.
    We welcome all of our distinguished witnesses and thank 
them for participating in today's hearing.
    Now if you would please rise, I would begin by swearing you 
in. Raise your right hands, please.
    Do you swear or affirm under penalty of perjury that the 
testimony you are about to give is true and correct to the best 
of your knowledge, information, and belief, so help you God?
    [Response.]
    Chairman Nadler. Let the record show the witnesses answered 
in the affirmative. Thank you, and please be seated.
    Please note that each of your written statements will be 
entered into the entirety--I am sorry. Each of your written 
statements will be entered into the record in its entirety, not 
the other way around. Accordingly, I ask that you summarize 
your testimony in 5 minutes. To help you stay within that time, 
there is a timing light on your table. When the light switches 
from green to yellow, you have 1 minute to conclude your 
testimony. When the light turns red, it signals your 5 minutes 
have expired.
    Before I call on Chief Provost to begin, I want to make one 
comment, and that is that regardless of the intelligence or 
lack of intelligence of our immigration policy, regardless of 
the efficiency or lack of efficiency of our enforcement of that 
policy, regardless of anything else, deliberate separation of 
families is immoral and is not justified and cannot be 
justified by good or bad policies, good or bad intentions.
    There are no good intentions about dragging children away 
from their parents, and there are no excuses. And the purpose 
of this hearing is to find out why it happened and how we are 
going to set it right.
    I will now recognize our first witness. Chief Provost, you 
may begin.

TESTIMONY OF CARLA PROVOST, CHIEF, U.S. BORDER PATROL, CUSTOMS 
  AND BORDER PROTECTION; NATHALIE R. ASHER, ACTING EXECUTIVE 
    ASSOCIATE DIRECTOR, ENFORCEMENT AND REMOVAL OPERATIONS, 
   IMMIGRATION AND CUSTOMS ENFORCEMENT; SCOTT LLOYD, SENIOR 
    ADVISER, CENTER FOR FAITH AND OPPORTUNITY INITIATIVES, 
   DEPARTMENT OF HEALTH AND HUMAN SERVICES; JONATHAN WHITE, 
   COMMANDER, U.S. PUBLIC HEALTH SERVICE COMMISSIONED CORPS, 
  DEPARTMENT OF HEALTH AND HUMAN SERVICES; AND JAMES MCHENRY, 
 DIRECTOR, EXECUTIVE OFFICE FOR IMMIGRATION REVIEW, DEPARTMENT 
                           OF JUSTICE

                   TESTIMONY OF CARLA PROVOST

    Chief Provost. Good morning, Chairman Nadler, Ranking 
Member Collins, and members of the committee.
    It is my honor to appear before you today on behalf of U.S. 
Customs and Border Protection. As the Chief of the United 
States Border Patrol, I could not be more proud to represent 
the men and women who dedicate their lives to our border 
security mission. I am honored to work alongside these well-
trained, experienced, and compassionate law enforcement 
professionals.
    You have asked me to speak today about the zero-tolerance 
prosecution initiative. Since June 20, 2018, zero-tolerance has 
focused on single adults who violate the law by crossing the 
border illegally. It no longer applies to parents or legal 
guardians who cross the border with children.
    With no consequences to crossing the border illegally, the 
flow of family units across our Southwest border is 
unprecedented. In the first 4 months of fiscal year 2019, 
family unit apprehensions along the Southwest border are 290 
percent higher than the same period last year. For the first 
time in our history, family units and unaccompanied alien 
children make up 60 percent of Southwest border apprehensions.
    We are also seeing a dangerous new trend. Families and 
unaccompanied children are crossing in large groups, ranging 
from 100 to nearly 350 people, 68 groups so far this year 
compared to only 13 last year and 2 the year before. The gaps 
created by layers of outdated laws and judicial rulings related 
to the treatment of minors are a significant pull factor for 
this population.
    Would-be border crossers know that under our current 
system, adults with children will neither be detained during 
their immigration proceedings nor prosecuted for illegal entry. 
As word of mouth and social media spread news of their release 
into the United States, more migrants are emboldened to make 
this dangerous journey. Unless Congress addresses Flores and 
TVPRA, we expect this influx to not only continue but escalate.
    Chairman Nadler. Sorry. Unless Congress adopts? You said 
two things.
    Chief Provost. I am sorry. Unless Congress addresses Flores 
and TVPRA, we expect this influx to not only continue but 
escalate. Every agency represented here today is affected by 
this phenomenon. Border Patrol is uniquely impacted, as we are 
the only part of the system with no ability to control who 
comes our way and when or where they do it.
    Ports of entry have hours of operation. ICE and HHS arrange 
placement before individuals enter their custody, and 
immigration courts schedule dockets. Not only are my agents 
apprehending over 2,000 people every day, but our ability to 
transfer people out of our custody is dependent upon the 
capacity of our partners.
    Our temporary holding facilities were simply not set up to 
process and care for a population of this size and demographic. 
This situation is unsustainable both for our operations and for 
those in our care and custody.
    Each day, nearly 25 percent of my agents are diverted away 
from our border security mission to care for, transport, and 
process family members and unaccompanied children. As more 
migrants arrive with medical needs, agents are transporting and 
escorting an average of 55 people a day to medical facilities.
    We are committed to addressing this humanitarian need, but 
we know that when agents are occupied, narcotics smugglers, 
criminal aliens, gang members, and others use the opportunity 
to violate our borders and our laws. There is an ongoing debate 
about whether this constitutes a border security crisis or a 
humanitarian crisis. Let me be clear. It is both.
    I have been asked many times how the current situation can 
be a crisis compared to years when we surpassed 1 million 
apprehensions. To understand the numbers, you have to look at 
what is happening on the ground. In the 1990s, a time when 
Mexican nationals represented up to 90 percent of 
apprehensions, an agent might have apprehended and returned the 
same individual multiple times within one shift. Today, nearly 
80 percent of those apprehended are from countries other than 
Mexico. The vast majority are Central American family units and 
unaccompanied children that require significant care in Border 
Patrol custody and then enter a backlogged immigration system.
    What the numbers don't show is how my men and women care 
for these vulnerable populations with the limited resources 
that they have. As I have said before, we do not leave our 
humanity behind when we report for duty.
    This humanitarian and border security crisis demands whole-
of-government solutions. Within Border Patrol's mission, we 
know that a combination of barriers, technology, and personnel 
will improve our operational control of the border. I thank 
Congress for the down payments on these investments and for 
addressing the humanitarian costs that have depleted our 
operational funds at the expense of fuel, gear, and equipment 
my agents need to do their jobs.
    However, to achieve lasting change, Congress must address 
vulnerabilities in our legal framework that encourage parents 
to bring or send their children on a very dangerous journey to 
our border. Reducing the humanitarian demands on our resources 
lets us focus on the critical border security mission the 
Nation has entrusted us to fulfill.
    Thank you for the opportunity to appear before you today, 
and I look forward to your questions.
    [The statement of Chief Provost follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

     
    Chairman Nadler. Thank you.
    Ms. Asher.

                 TESTIMONY OF NATHALIE R. ASHER

    Ms. Asher. Good morning, Chairman Nadler, Ranking Member 
Collins, and distinguished members of the committee.
    I am Nathalie Asher, Acting Executive Associate Director 
for U.S. Immigration and Customs Enforcement, Enforcement and 
Removal Operations. As a career law enforcement officer with 
more than two decades of experience, I appreciate the 
opportunity to appear before you today to discuss ICE's role in 
supporting the administration's family reunification efforts, 
as well as its critical mission of protecting the homeland and 
ensuring the integrity of our Nation's immigration system 
through the enforcement of our country's intricate immigration 
laws.
    When the zero-tolerance policy was announced, ICE was 
called upon to assist CBP by arranging transportation for 
children to HHS custody and providing adult detention beds for 
the parents. Subsequently, the dedicated men and women of ICE 
ERO tirelessly assisted with the effort to reunify families by 
identifying separated parents in its custody, establishing 
communication between parents and their children, transporting 
parents to designated ICE facilities to be reunified with their 
children, and housing a limited number of families together in 
its family residential centers, FRCs.
    As they already do on a daily basis, these law enforcement 
and support personnel of ERO carried out this unprecedented 
mission with the utmost professionalism and compassion, and I 
stand proud of their accomplishment in this endeavor.
    In February 2018, the ACLU filed a lawsuit, Ms. L. v. ICE, 
alleging the separation of parents and children violated the 
aliens' constitutional right to maintain family unity during 
immigration proceedings. The court later certified a class of 
plaintiffs consisting of parents in DHS custody whose children 
were separated from them at the border. The court excluded from 
the class parents with a criminal history or communicable 
diseases or those apprehended in the interior.
    Despite a host of logistical challenges, ICE and its 
partners have done everything possible to comply with these 
findings. These efforts have been praised by the court, which 
noted the Government deserved great credit for its efforts.
    To be clear, throughout the reunification process, the 
Government's primary goal has been the protection and care of 
the children involved, and ICE has carried out its supporting 
role with this goal in mind. During the reunification process, 
ICE's primary role consisted of ensuring that separated parents 
in ICE custody were identified, could communicate with their 
children in HHS custody, and could be transported to a 
designated center for reunification.
    Due to the volume of separations under the zero-tolerance 
policy, ICE developed a process for coordinating closely with 
partner agencies and for sharing relevant data in real time. 
ERO worked closely with Border Patrol and HHS to identify these 
parents, a challenging process, which involved manual 
comparison of information across agencies.
    Additionally, to ensure that parents could communicate with 
their children in HHS custody, ERO officers and HHS staff 
worked together to facilitate communications via telephone, 
Skype, and Facetime. ICE also displayed posters in multiple 
languages throughout the adult detention facilities to explain 
how parents could request an opportunity to communicate with 
their children who were in HHS custody.
    To streamline the reunification process, ERO San Antonio, 
El Paso, and Phoenix were designated as centers of 
reunification for children ages 5 to 17 whose parents were 
eligible to be reunified based on an HHS evaluation. ICE then 
transported parents to these designated locations for 
reunification while closely coordinating with local NGOs to 
ensure that necessary services such as food, shelter, clothing, 
and travel were available for the families as they continued to 
their intended final destination.
    Despite President Trump's June 20, 2018, executive order, 
which clarified that the administration would seek to enforce 
the law while maintaining family unity, our country still faces 
numerous challenges with regard to the ever-increasing numbers 
of family units and UACs who, since the initial surge seen in 
fiscal year 2014, continue to arrive at our Southwest border. 
In fact, since December 21, 2018, ICE has released over 72,000 
family members directly into the United States, as current laws 
and court rulings essentially mandate the immediate release of 
these family members, ostensibly never to be heard from again.
    These family units and UACs place unparalleled strain on 
our already overburdened immigration system and contribute to 
the growing immigration court backlog, which has now surpassed 
800,000 cases.
    In conclusion, our Nation continues to experience a 
staggering influx at our Southwest border that is driven by 
loopholes created by Federal law and various court decisions 
that prevent the detention of illegal alien minors and family 
units during the pendency of their removal proceedings and 
inhibit the removal of those who receive final orders from an 
immigration judge. As a result, legislative changes of outdated 
laws are needed to ensure that DHS and ICE have the necessary 
authorities to ensure the safe and successful repatriation of 
persons who have had their day in court and been ordered 
removed in accordance with our laws.
    Thank you again for the opportunity to appear before you 
today, and I would be pleased to answer your questions.
    [The statement of Ms. Asher follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Nadler. Thank you.
    Mr. Lloyd is recognized for 5 minutes.

                    TESTIMONY OF SCOTT LLOYD

    Mr. Lloyd. Chairman Nadler and Ranking Member Collins, 
thank you for the opportunity to speak to you today regarding 
my past efforts as Director of the Office of Refugee 
Resettlement. It is an honor to appear before you today.
    ORR is a program office within the Administration for 
Children and Families within the U.S. Department of Health and 
Human Services. While I was Director of ORR, I coordinated 
refugee resettlement efforts for HHS and oversaw the 
Unaccompanied Alien Children's Program.
    I left ORR in December of 2018 to take a position with the 
HHS Center for Faith and Opportunity Initiatives as a senior 
adviser. My testimony today focuses on how ORR cares for UAC 
and places them with sponsors, as well as how ORR reunifies 
children separated from their parents.
    The UAC program provides care, food, shelter, and services 
to alien children who are in ORR custody before release to a 
suitable sponsor, usually a parent or close relative. ORR does 
not enforce the immigration laws or apprehend families or 
children who cross the border illegally. Rather, ORR assumes 
care and custody of alien children who are referred to ORR care 
by other Federal agencies.
    HHS does not separate alien children from their adult 
parents. HHS makes no recommendations and is not consulted by 
DHS as it makes decisions to enforce the law. ORR did not under 
my direction separate a child from his or her adult parent for 
any purpose.
    ORR can receive referrals of alien children from DHS and 
other Federal agencies under a variety of circumstances, but 
most alien children referred to ORR were encountered by DHS 
when entering the country illegally without a parent. DHS may 
separate a child from a parent who is too ill to care for that 
child. DHS may also separate a parent and a child if the parent 
has criminal history, or if there is evidence that the parent 
is unfit or dangerous.
    A child who enters the United States illegally with an 
adult may be referred to ORR if DHS doubts that the adult is 
the parent. A child may also be referred to ORR care if the 
U.S. Department of Justice prosecutes the parent for violating 
immigration laws.
    In cases where an alien child is separated from his or her 
parent, knowing the identity of that parent may be important 
for case planning purposes, especially since the parent may be 
unavailable or unable to take custody. Moreover, the facts of 
the separation may be important factors in determining the 
child's individual needs, which are then incorporated into 
service planning for the child. In fact, the child's best 
interest in some cases is placement with another relative who 
is not the parent.
    DHS's Border Patrol and U.S. Immigration and Customs 
Enforcement are responsible for the majority of UAC referrals 
to ORR. In the summer of 2018, ORR added a checkbox to the 
referral page to indicate whether a child has been separated 
from his or her parent. This checkbox offers a consistent 
format for DHS to provide information on the status, separated 
or nonseparated, of each referral case.
    The referral page also has a ``notes'' section where Border 
Patrol and ICE can type in the name and other information of 
the separated family member, including their alien number. 
Additionally, Border Patrol and ICE can enter this information 
into the ``parent/relative information'' section of the 
referral. HHS can also learn of a parent's separation after the 
child's admission to an ORR care provider facility.
    Prior to the summer of 2018, there was no automated means 
for aggregating the indicators of separation records for the 
children through the ORR portal. This is not the same as saying 
there is no information about separations in UAC case files. 
This is just to say that, before the summer of 2018, in order 
to create a comprehensive record of cases where a separation 
occurred, it was necessary to go into each case file and 
retrieve that information case by case.
    ORR treats all alien children referred to its care, 
including children separated from their parents, in accordance 
with its policies and procedures. This includes placing a child 
in the least restrictive setting and finding a suitable sponsor 
to whom ORR could safely release the child.
    On April 6, 2018, DOJ announced a zero-tolerance policy for 
the crime of improper entry. At the direction of the Secretary 
of Homeland Security, the U.S. Border Patrol referred parents 
who entered the country illegally to DOJ for prosecution, and 
the parents were incarcerated during their criminal 
proceedings. DHS transferred their children to HHS.
    On June 20, 2018, President Trump issued an executive 
order, and that and the decision in the case of Ms. L. v. ICE 
changed the operational picture for HHS considerably. HHS 
Secretary Azar tasked the Incident Management Team from the 
Office of the Assistant Secretary for Preparedness and Response 
and ORR to focus on reunifying the children of Ms. L. class 
members.
    I supported the Incident Management Team while managing the 
rest of ORR's programs, including the more than 10,000 other 
alien children who were not separated from parents. ORR has now 
reunified nearly all of the children of potential Ms. L. class 
members.
    I am aware that ORR has taken additional steps to enhance 
this process, but I am no longer involved in ORR's operations, 
and so I am not able to discuss current ORR processes in 
further detail. However, I do have great confidence in the 
ability of Assistant Secretary Johnson, Acting ORR Director 
Jonathan Hayes, and the ORR career staff to serve the UAC 
population compassionately.
    Thank you for this opportunity to discuss the UAC program 
and for your commitment to the safety and well-being of alien 
children. I will be happy to answer any questions.
    [The statement of Mr. Lloyd follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Nadler. Thank you.
    Commander White is recognized for 5 minutes.

                  TESTIMONY OF JONATHAN WHITE

    Mr. White. Good morning. Chairman Nadler, Ranking Member 
Collins, and members of the committee, it is my honor to appear 
before you today on behalf of the U.S. Department of Health and 
Human Services.
    My name is Jonathan White. I am a career officer in the 
United States Public Health Service Commissioned Corps. I am a 
clinical social worker and an emergency manager. I am presently 
assigned to the Office of the Assistant Secretary for 
Preparedness and Response, and I previously served as the 
Deputy Director of the Office of Refugee Resettlement, the 
senior career official over the Unaccompanied Alien Children's 
Program.
    More recently, I served as the Federal health coordinating 
official, or that is HHS's operational lead, for the 
interagency mission to reunify children who were in ORR care on 
the 26th of June 2018, who had been separated from their 
parents at the border by the Department of Homeland Security, 
and that is what I will be talking about for the next couple 
moments.
    The President issued Executive Order 13841 on June 20th of 
2018, and on June 22nd, the Secretary of HHS directed the 
Office of the Assistant Secretary for Preparedness and Response 
to help ORR comply with that executive order. To execute this 
direction from the Secretary, we formed an Incident Management 
Team, an IMT, which at its largest included more than 60 staff 
working at the HHS headquarters in Washington and more than 250 
field response personnel from ACF and ASPR, including the 
National Disaster Medical System Disaster Medical Assistance 
Teams, the United States Public Health Service Commissioned 
Corps, and contractors. We were joined by partners from ICE, 
CBP, and the U.S. Coast Guard to assist us.
    The U.S. District Court for the Southern District of 
California in the Ms. L. v. ICE case issued its preliminary 
injunction and class certification orders 4 days later on June 
26, 2018, and the Secretary directed HHS, and those of us on 
the IMT in particular, to take all reasonable actions to comply 
with that injunction. The orders required the reunification of 
children in ORR care as of June 26th, who had parents who might 
potentially be Ms. L. class members.
    And as as a result, our first task was to identify and 
develop a list of the children in ORR care who were the 
possible children of Ms. L. class members. To do that, we 
worked closely with DHS, including both CBP and ICE, to try to 
identify all the parents of children in ORR care who 
potentially met the court's criteria for class membership. We 
formed an interagency data team that analyzed more than 60 sets 
of aggregated data from CBP and ICE, as well as the 
individualized case management records for children in our ORR 
UAC portal. That is our IT system of records.
    Collectively, hundreds of HHS personnel manually reviewed 
the case management records for every child in ORR care as of 
the 26th of June, looking for any indication anywhere in their 
record that they were possibly separated. And ORR also required 
every one of its more than approximately 110 residential 
shelter programs to provide a certified list, under penalty of 
perjury, of the children in that program's care that shelter 
staff believed were potentially separated.
    So going forward, ORR continued to amass new information 
about the children in ORR care through the case management 
process, and we recategorized children where appropriate based 
on that information. As a result, we have fully accounted for 
such children who were in ORR care on the 26th of June 2018. To 
be clear, as I have said before, the count of 2,816 children 
does not include children who were discharged by ORR before 
June 26th, and it doesn't include children referred to ORR care 
after that date.
    Working in close partnership with colleagues in ICE, DOJ, 
and the Department of State, we first worked to reunify 
children with parents in ICE custody. This was an unprecedented 
effort, requiring a novel process that we developed together 
and which the Ms. L. court approved.
    Under the compressed schedule required by court order of 15 
days for children under the age of 5 and 30 days for children 
between the ages of 5 and 17, we reunified 1,441 children with 
parents in ICE custody, all of the children of eligible and 
available Ms. L. class members in ICE custody. And absent 
specific doubts about parentage or about child safety, adults 
in ICE custody were transported to reunification locations run 
by ICE, where deployed field teams from HHS interviewed them. 
And during the interviews, we sought verbal confirmation of 
parentage and the desire to reunify. And after that, HHS 
transported the child to the parent in ICE custody.
    For children whose parents had been released to the 
interior of the United States, we implemented an expedited 
reunification process. For parents who had departed the United 
States, we developed a different operational plan, also 
approved by the Ms. L. court.
    First, HHS identified and resolved any doubts about 
parentage or child safety and well-being. ORR case managers 
established contact with the parents in their home countries 
and provided contact information for all the parents to the 
ACLU, which is legal counsel for the Ms. L. class. The ACLU 
counseled parents about their options and their rights and 
obtained from the parents their wishes, whether they wanted the 
child to come to them or to remain in ORR care.
    So of the 2,816 children reported to the Ms. L. court, as 
of this week, we have reunified 2,155 of them with the parent 
from whom they were separated. Another 580 children have left 
ORR care through other appropriate discharges, in most cases 
released to a family sponsor, such as the other parent, a 
sibling, an aunt or uncle, a grandparent, a more distant 
relative, or a family friend.
    There are 18 children still in ORR care who were separated, 
but we can't reunify them with their parent because we have 
made a final determination that doing so would be unsafe for 
the child based on the criminal history of the parent being 
dangerous to the child or credible allegations of abuse the 
child made against the parent.
    There are 39 children still in ORR care whose parents are 
outside the U.S., and they have waived reunification, conveying 
that to us through the ACLU. And their children are on a 
pathway to sponsorship in this country. There are 14 children 
still in ORR care of that 2,816 we later learned through 
investigation hadn't been separated after all.
    There are 5--there are 5 children of the 2,816 still in 
care where parents have waived reunification, and 5 who might 
one day still be reunified with a parent if there is a change 
in the status of the parent or the parent conveys their wishes 
to us through the ACLU. Those are the only five who might still 
be reunified. They are the only outstanding children.
    Our program's mission is a child welfare mission, and we 
seek to serve the best interests of each individual child. And 
that also guided us every day on the IMT and in ORR in our work 
to get each separated child back into his or her parent's arms 
or discharged safely to another sponsor where that was the 
parent's wish or where the parent posed a danger to the child.
    We, too, look forward to the day where every single 
separated child is back in their parent's arms. That is the 
focus of our effort in HHS.
    Thank you. I am glad to answer any questions you might have 
for me.
    [The statement of Mr. White follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Nadler. Thank you, Commander.
    Director McHenry is now recognized for 5 minutes.

                   TESTIMONY OF JAMES MCHENRY

    Mr. McHenry. Mr. Chairman, Ranking Member Collins, and 
other distinguished members of the committee, thank you for the 
opportunity to speak with you today regarding the Department of 
Justice's role in the zero-tolerance prosecution initiative. I 
welcome the opportunity to address this matter from the 
Department's perspective.
    The Department's mission is to enforce the law and defend 
the interests of the United States according to the law, to 
ensure public safety against threats foreign and domestic, to 
provide Federal leadership in preventing and controlling crime, 
to seek just punishment for those who commit crimes, and to 
ensure fair and impartial administration of justice for all 
Americans. In following this mission and in carrying out 
specific authorities defined by Congress, the Department plays 
a key role in enforcing this Nation's immigration laws.
    First and foremost, the Department enforces the criminal 
laws enacted by Congress and seeks punishment for those guilty 
of unlawful behavior. The Department's law enforcement role 
applies no less to immigration crimes than it does to other 
categories of crimes, and it is clear that Congress passed 
criminal immigration laws with the expectation that they would 
be enforced.
    Section 13 of the President's Executive Order 13767 
directed the Attorney General to establish guidelines and 
allocate resources to ensure that Federal prosecutors accord a 
high priority to prosecutions of offenses having a nexus to the 
Southern border. In fulfillment of that order, on April 11, 
2017, then-Attorney General Sessions issued a memorandum to all 
Federal prosecutors outlining certain immigration-related 
offenses as high priorities for prosecution, including improper 
entry under 8 U.S.C. Section 1325.
    On April 6, 2018, Attorney General Sessions issued a 
memorandum entitled Zero Tolerance for Offenses under 8 U.S.C. 
Section 1325(a). That memo directed Federal prosecutors along 
the Southern border to adopt a zero-tolerance policy for all 
offenses referred for prosecution by the Department of Homeland 
Security under Section 1325(a).
    That memorandum remains in force today. An illegal or 
improper entry, among other criminal immigration offenses, 
remains a prosecution priority for the Department. Furthermore, 
the President restated the prioritization of prosecuting 
illegal entry crimes in Executive Order 13841, which also 
reiterated that the current policy is to enforce the 
immigration laws passed by Congress. Neither Executive Order 
13767 nor the April 2017 memorandum, nor the April 2018 
memorandum, created a policy of family separation. The zero-
tolerance prosecution initiative is simple. It makes clear that 
those who violate our criminal immigration laws are referred 
for prosecution by DHS should, in fact, be prosecuted, 
consistent with the will of Congress.
    The Department does not dictate which cases are referred by 
DHS for prosecution, nor does it maintain a general exemption 
from prosecution for criminal law violations committed by 
parents. The Department also has no operational or logistical 
role in the apprehension, care, or processing of aliens for 
removal, regardless of whether they are adults or minors.
    Criminal proceedings are separate from administrative 
immigration proceedings, and prosecution for illegal entry does 
not foreclose an alien's ability to seek asylum or other 
protection in the United States. Consequently, depending on the 
particular circumstances of the adult, he or she may seek 
protection or relief from removal or, alternatively, may not 
contest removal from or voluntarily depart the United States.
    If an adult alien seeks protection in the United States, 
that claim generally is considered by DHS in the first 
instance. If the claim progresses, it may eventually be 
reviewed by an immigration judge. As applicable law and the 
facts of the case warrant, an immigration judge will determine 
an alien's removability and adjudicate any claim to remain in 
the United States. Unaccompanied alien children placed in 
immigration proceedings will also have their cases heard by an 
immigration judge.
    As the issues of family separation and reunification have 
reached the Federal courts, the Department continues to provide 
representation to those agencies that do provide care for 
aliens subject to removal. Consequently, I may be limited in my 
ability to speak to certain issues today, either because they 
are currently in litigation or because they are more properly 
directed to another agency. Nevertheless, the Department 
recognizes the seriousness of the situation and is 
appropriately advising both DHS and the Department of Health 
and Human Services as they continue to abide by any orders 
issued by Federal courts on these matters.
    The current immigration system faces numerous legal and 
logistical challenges. Nationwide enforcement of immigration 
laws is being dictated by court orders rather than by sound 
policy choices or congressional action. Nevertheless, as the 
formal title of Executive Order 13841, which is Affording 
Congress an Opportunity to Address Family Separation, 
indicates, the Department stands ready to work with Congress to 
respond to these challenges and to improve existing laws to 
avoid a reoccurrence of the present situation.
    Thank you again for this opportunity to speak before you 
today, and I look forward to other discussions or additional 
discussion on these issues.
    Thank you.
    [The statement of Mr. McHenry follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Chairman Nadler. Thank you.
    We will now proceed under the 5-minute rule with questions. 
I will begin by recognizing myself for 5 minutes.
    Let us put aside all the issues of morality and legality 
for a second and just talk about the administration's zero-
tolerance policy.
    Chief Provost, I know you are a career civil servant and 
are implementing political decisions that are made above you.
    I'm also sure that most Border Patrol officers do not want 
to be ripping children away from their parents, but the issue I 
cannot get past is how the department moved forward without a 
system or process for adequately tracking which child belonged 
to which parent.
    We heard about ORR's efforts to reconstruct the information 
to match after the fact separated parents up with their 
children, but how did CBP not ensure it had an adequate system 
to track and reunify families before separating them?
    Chief Provost. Yes, Mr. Chairman. So as Commander White 
stated, we had the ability to track. We have always had the 
ability to track. We did not have a searchable field prior to 
that time frame focused on specifically separated members of 
families.
    Every separation, though, that we have done back at during 
that time and since has had alien registration numbers tied 
with the parent to the child, thus----
    Chairman Nadler. Why have they had trouble finding the 
kids?
    Chief Provost [continuing]. They have had searches. We had 
to do manual searches because we did not have a searchable 
field prior to that time.
    Since then, we have updated that, as Commander White 
stated, as well, with a searchable field to make it much easier 
to pull that information from our system.
    Chairman Nadler. So, in other words, you're saying the 
Border Patrol was not prepared to implement the zero-tolerance 
policy when it went into effect in April of 2018 because you 
didn't have a searchable field, among other things?
    Chief Provost. The prosecution initiative was exactly that. 
It was focused on prosecuting every amenable adult and we did 
have----
    Chairman Nadler. I understand that, but one of the----
    Chief Provost [continuing]. The ability to track those 
prosecutions.
    Chairman Nadler [continuing]. Effects of that was that you 
took kids away from their parents when you didn't have a 
searchable field and were not prepared to reunify them and to 
have the information to reunify them, is that correct?
    Chief Provost. We had the information. We had the ability 
to provide the information. It was--took a manual poll at that 
point in time for it.
    Since then, lessons learned, we have updated the system 
with a searchable field----
    Chairman Nadler. We have just found out in court that there 
were perhaps thousands of kids taken away from their parents 
prior to the initiation of the zero-tolerance policy.
    Do we know the names of the kids, the names of the parents, 
the location of both, so that they can be reunified quickly? If 
not, why not?
    Chief Provost. We have throughout my career always had 
cases where we have separated family members. That is something 
that has gone on throughout numerous administrations.
    Chairman Nadler. And when you did that, you had adequate 
information to reunify them quickly?
    Chief Provost. The information is within the system. It was 
not easily searchable.
    Chairman Nadler. So you separated thousands of kids under a 
system in which you could not readily reunify them if a court 
ordered or someone else ordered?
    Chief Provost. We provided--we provide the information 
within the Alien Registration Number of the child to any family 
member. It was with the numbers that we deal with not an 
easily-searchable as----
    Chairman Nadler. And therefore not----
    Chief Provost [continuing]. Since----
    Chairman Nadler. And therefore not easily reunifiable, is 
that correct?
    Chief Provost. Since then, we have updated the system to 
make----
    Chairman Nadler. I understand, but at that point, it 
wasn't--you weren't prepared, in effect?
    Chief Provost. I would not say we were not prepared. I 
would say it was not as easily searchable as----
    Chairman Nadler. The DHS Inspector General and the GAO 
concluded that DHS was inadequately prepared to implement this 
policy in an organized and efficient manner. The IG of DHS 
specifically noted, for example, that DHS was not fully 
prepared to implement the Administration's zero-tolerance 
policy or to deal with some of its after effects.
    Do you agree with the DHS IG and GAO assessments?
    Chief Provost. On whether or not we were prepared? I would 
say speak to Border Patrol and Border Patrol was prepared for a 
prosecution initiative.
    Chairman Nadler. Yes, you were prepared for prosecution. 
Were you prepared for the consequences of separating the kids? 
In other words, to reunify them quickly?
    Chief Provost. As I stated before, the information was 
present. We have had lessons learned since then and I----
    Chairman Nadler. So, in other words,----
    Chief Provost [continuing]. Think there's more for us to 
do.
    Chairman Nadler [continuing]. You were not prepared to 
reunify them quickly? The information was present but not 
easily accessible, correct?
    Chief Provost. Reunification is not something that Border 
Patrol handles. We handle the apprehension and the transfer. 
Since then,----
    Chairman Nadler. You were prepared to apprehend and 
transfer and separate without proper--without adequate ability 
to reunify quickly?
    Chief Provost. The reunification process is part of what 
ICE and HHS have done. That information has been provided to 
them, as Commander White stated. There was not a searchable 
field----
    Chairman Nadler. Okay.
    Chief Provost [continuing]. At the time----
    Chairman Nadler. What are you doing now to identify and 
track all separated children, including those separated before 
the zero-tolerance policy that we found out in court recently 
there may have been thousands of kids separated before the 
zero-tolerance policy was initiated? Do you have a number of 
such kids? Do you need more resources to enable the rapid 
reunification of these families?
    Chief Provost. We track, as we always have tracked, but now 
with the searchable fields, since zero-tolerance, we have 
tracked every separation that we have had in Border Patrol 
custody. We provide that information on the HHS referral form 
to our partners at HHS whenever we do do a separation.
    Chairman Nadler. Okay. Finally, what's even more 
confounding to me is that the agents appear to care quite a bit 
about tracking other things under zero-tolerance. According to 
documents recently obtained through FOIA by Democracy Forward, 
Border Patrol agents were instructed to meticulously track the 
number of cases referred for prosecution.
    We have various e-mails, for example, including e-mails in 
which you are copied, with a form to be used by agents to track 
prosecutions so that CBP could show ``progress toward hundred 
percent prosecutions and to acquire additional assets,'' 
including ICE detention beds.
    Based on these e-mails, you clearly spend time thinking 
about how to track prosecutions so you can please the President 
and justify additional--obtain additional resources, but you 
did not spend time thinking about tracking separated family 
members. Is that a correct conclusion?
    Chief Provost. As I stated before, it was a prosecution 
initiative and therefore focus was on tracking the prosecution 
numbers under that specific initiative.
    Chairman Nadler. So your focus was on tracking the 
prosecution numbers but not the separation of kids' numbers?
    Chief Provost. Our focus was on the prosecutions.
    Chairman Nadler. Thank you very much.
    I now recognize the Ranking Member, Mr. Collins.
    Mr. Collins. Thank you, Mr. Chairman.
    And I think in one of the statements, as I said in my 
opening statement, I think it's been said there was lessons, as 
you said, lessons learned. I think there's a lot of things that 
should have been handled, you know, I think differently. I 
think you're experiencing something along the border, 
especially from your side, that we've really not experienced 
before, thousands coming in caravans. They're a threat. That's 
not something you would have the equipment really to handle 
either. That's not a situation you have, correct?
    Chief Provost. Yes, sir. As I stated in my opening 
statement, we have a humanitarian and a border security crisis 
going on right now.
    Mr. Collins. Well, let's get into that because I think this 
is--and we're going to discuss a lot of this today as far as 
what had happened. Let's also look forward to what can we do to 
stop this in the future and how can we look at that and I think 
this could possibly be something we could definitely do 
bipartisanly.
    Can you explain how a low credible fear standard and the 
Flores Settlement Agreement interpretation and the, as you said 
earlier, Trafficking Victims Protection Act, all act as 
incentives for aliens to exploit children and take dangerous 
journey to the U.S.-Mexico border and what can we do to address 
that in legislation?
    Chief Provost. Well, specifically when it comes to Flores, 
it creates a pull factor since 2015 when a court decision made 
a determination to treat all children the same as unaccompanied 
alien children where they cannot be detained longer than 20 
days. That's the pull factor that comes with if you bring a 
child with you, the expectation of being released into the 
country.
    When it comes to TVPRA, it is the differences in how 
children are treated, whether they come from a contiguous 
country, Canada or Mexico, versus if they come from a non-
contiguous country, and those issues need to be addressed to 
stop those pull factors.
    Mr. Collins. And, Ms. Asher, I want you to answer this 
question, but I want to go back to this in general, but also 
isn't it in some ways, especially under the--I believe it's 
the--they're released into custody many times of a family 
member who is here probably illegal in many cases who possibly 
actually initiated the trip across the border with a coyote or 
something to get them across the border. In some ways because 
of the policy we have, we're finishing the contract in some 
ways. Would that be a fair statement?
    Chief Provost. Yes, sir, there are--all of those things are 
pushed toward pull factors. I guess I shouldn't say pushed. 
Create those pull factors for them to come.
    The smugglers take advantage of those individuals, as well. 
It's a dangerous journey for all of them to be coming. We don't 
want them making that dangerous trip, certainly don't want them 
crossing illegally between the ports of entry if they do make 
that journey because the smugglers take advantage of them, but 
there are several factors that play into the continued 
increased numbers and just to speak of those numbers, in June 
of 2018, we had 9,000 family units cross the border. This 
month, in February, the shortest month in the year, we are 
already over 30,000.
    Mr. Collins. Wow. Ms. Asher, to go back to the Flores, 
there is no question Flores and others have had an effect?
    Ms. Asher. Yes, sir. Thank you for the question. So to 
reiterate the Chief's point, you know, clearly without the 
ability to detain families and that is what the Flores Act does 
prevent us from doing, as you well know, we cannot detain 
families beyond 20 days. Clearly, we cannot get any proceedings 
started. We're lucky if we get the credible fear process done. 
It's essentially a throughput as current family residential 
centers exist today.
    So, again, the smuggling organizations play well to our 
vulnerabilities. It is highly marketable clearly for families, 
for individuals to make unlawful entry into the United States 
as a family unit versus a single adult, knowing that those--the 
opportunity to detain these individuals for the pendency of 
their immigration proceedings is virtually impossible.
    Mr. Collins. Look. In Congress, many times it is--I know 
it's amazing that we make blanket statements that cover 
everything, never this, never that, but one of the things that 
is often said is they talk about fraud and many times it's 
blown off as, well, it doesn't happen.
    Between April 19, 2018, and September 30, 2018, DHS 
identified 336 claimed family unit members who were separated 
due to a lack of family relationship. That's an interesting 
example from the Border Patrol side. It does show that there is 
what we just talked about, an issue of fraud and others that is 
happening because of the way the system is set up now. Would 
that be a fair statement?
    Ms. Asher. Yes, sir, that is correct. Majority of those 
identifiers of false familial relationships do come from our 
colleagues in CBP, but then there's that second layer of 
individuals who have since come to us, say in a family 
residential center, and on the occasion we learn in that 
setting that the familial relationship is a fraudulent claim.
    Mr. Collins. And I think this is--and my time is running 
out, but, look, this needs to, you know, going forward needs to 
be fixed. There's problems in the past. We're going to have 
plenty of hearing that today and I understand the concern. I 
have those same concerns about, you know, the process that was 
implemented with, as you said, searchable fields, things like 
that that happened.
    Also, as we go forward, though, we've got to put into play 
things that actually will help this, find a better way to do 
this for people who want to come here legally instead of using 
the incentives and as we've seen in some cases fraud but other 
things to fix this as we move forward.
    This needs to be both not only a hearing of what happened 
but it needs to be a proactive hearing on what we possibly can 
do to support what your efforts are, which is many times 
unthanked. I am thanking you.
    Thank you for what you do, and with that I yield back.
    Chairman Nadler. I now recognize the gentle lady from 
California, Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Commander White, you are a career professional. You didn't 
make the decision on whether children should be separated, but 
you had to deal with it once that decision was made.
    You recently testified before the Committee on Energy and 
Commerce that you raised concerns about the family separations 
multiple times, both before and during the zero policy, and you 
specifically identified then ORR Director Lloyd as one of the 
individuals you raised concerns to.
    When did you specifically raise these concerns to Mr. Lloyd 
and what were those concerns?
    Mr. White. I first raised concerns about an ongoing policy 
proposal discussion. This actually preceded Mr. Lloyd's arrival 
at the ORR. I raised it with HHS beginning in February of--
beginning on the 17th of February 2017, following the first 
meeting I attended at which a policy which would have the 
effect of resulting in family separation was discussed.
    I raised concerns about that both as regards the effect on 
children and also the effect on the capacity of the program to 
serve children and particularly very young children.
    I raised those issues on a number of occasions primarily 
prior to Mr. Lloyd's arrival and also at his arrival. 
Subsequently, the issues were resurfaced in late summer as we 
began to see indications that increased separations were 
occurring, although it was our understanding there was no 
policy to effect separation.
    I raised concerns with the Director of ORR and HHS 
leadership at that time, as well, and subsequently again over 
the ensuing months into January of 2018.
    Ms. Lofgren. Were those concerns in writing?
    Mr. White. I identified these concerns primarily in 
meetings, also in writing.
    Ms. Lofgren. If there are documents, would you please 
provide them to the committee?
    Mr. White. I'm confident that HHS will provide all of those 
documents.
    Ms. Lofgren. Very good. Now what response did you receive 
from ORR and Mr. Lloyd and others when you raised these 
concerns?
    Mr. White. From the Director of ORR and the Acting 
Assistant Secretary of ACF and the Secretary's Counselor for 
Human Services, I was advised that there was no policy which 
would result in family separation.
    Ms. Lofgren. All right. You know, I appreciate your 
comments as to the children in custody on a particular date, 
but we now have a report from the Office of the Inspector 
General that there were thousands of children that were, you 
know, not included in that, potentially thousands of additional 
separations, and I'm just looking at, you know, the OIG report.
    It says, ``Border Patrol agents do not appear to take 
measures to ensure that pre-verbal children separated from 
their parents can be correctly identified. For instance, based 
on OIG's observations, Border Patrol does not provide pre-
verbal children with wrist bracelets or other means of 
identification nor does the Border Patrol fingerprint or 
photograph most children during the processing to ensure that 
they can be linked with the proper file.''
    That looks like a recipe for catastrophe to me. I mean, if 
you've got, you know, a 10-month-old, they're not going to be 
able to speak up for themselves obviously.
    You know, recently, we went back into court, the DOJ, and 
the DOJ argued that reuniting these additional children would 
be too onerous and that these agencies would fight any ruling 
to force them to act.
    Commander White and Ms. Asher, is that the position of your 
agencies, that you would fight a ruling to identify and reunite 
these additional children? Commander?
    Mr. White. So as to what position we would take in court, I 
could not speak to that. I can certainly clarify anything I 
have said in declarations, which is that in ORR, our legal 
authority over children ends when we discharge them. Those 
children who were discharged to other family members are 
outside our sphere of----
    Ms. Lofgren. Right.
    Mr. White [continuing]. Control----
    Ms. Lofgren. I understand that.
    Mr. White [continuing]. And that is the fact.
    Ms. Lofgren. Ms. Asher.
    Ms. Asher. So, ma'am, as it relates specifically to ICE, if 
I'm understanding your question,----
    Ms. Lofgren. I'm just saying what was said in court, that 
it would be too onerous for the Government to go and try to 
reunite these children with their parents. Is that your 
position?
    Ms. Asher. While it's a challenge, there's evidence that we 
did accomplish under the Ms. L. in a timely fashion, granted it 
was deadlines that were given to us in the court, but we did 
accomplish that.
    We've all learned post the situation that crossing of our 
information is imperative so that we have better track so that 
we can respond in a more timely fashion in the event that we 
are to do something other differently than we currently do on 
ICE and that is, we reunify at time of removal.
    The difference for us in this process was that we had to 
reunify while the adults were still in process.
    Ms. Lofgren. Well, the Inspector General actually found 
contrary to that, that if children were separated and the 
parents went to court and they almost all got sentenced for 
time served, I mean, you know, it's a misdemeanor, that they 
could be reunited with their children back at CBP. So then ICE 
and the courts sent them to ICE to prevent the reunification. 
That's what the Inspector General found.
    There are many questions. My time expired, Mr. Chairman, 
and perhaps we can direct additional questions in writing to 
the witnesses later.
    Chairman Nadler. Thank you.
    Mr. Sensenbrenner is recognized for five minutes.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman.
    I think everything we have heard today, both in the 
testimony as well as in answers to the questions, boil down to 
two things.
    You know, Number 1, the agencies are overwhelmed by the 
vast increase in numbers and, Number 2, there is a real problem 
in delayed processing and one of the issues in the processing 
is to determine whether there are false claims of familial 
relationship.
    I'd like to ask a couple of questions to Commander White 
and Mr. Lloyd. In the last Congress, I authored the bipartisan/
bicamera Rapid DNA Act, which the President signed into law.
    The Rapid DNA Act allows law enforcement agencies under 
standards and guidelines established by the FBI to perform 
real-time DNA testing at the time of an arrest and with their 
own booking procedures. This technology is readily available, 
provides for rapid and accurate testing, and is already used by 
the Department of Homeland Security to confirm biological 
relationships of refugee applicants. These refugee applicants, 
these are not people who cross the border and claim asylum.
    Now my questions are what role, if any, do you see rapid 
DNA technology playing in family reunification efforts, 
particularly in answer to the concerns that I raised at the 
beginning, and the second, are there any statutory or other 
barriers that exist, such as privacy and security requirements, 
in implementing such a program? If so, what are they so that we 
can fix them and you can get a quick DNA answer to solve many 
of the questions that have been testified to this morning?
    So either Mr. Lloyd or Commander White, you choose who can 
be first.
    Mr. White. Yes, sir. So per the orders of the Ms. L. Court, 
in the context of the Ms. L. reunification matter, we are not 
permitted to use DNA unless we have very specific reason to 
doubt parentage. So let me set that one aside for a second and 
talk about in the steady state program.
    Among the things that in the vetting of family member 
sponsors is always required is verification of identity, 
verification of relationship. Our standard method for 
verification of family relationship is birth certificates for 
both the sponsor and the child that are verified by the 
government that issued them, so the consular authority of the 
home government.
    In cases where documents are unavailable, we do use DNA 
testing as a second line method. It is the program's position 
that the document method, which is sufficiently timely for our 
case management process, is the best because, first of all, it 
is cheapest to the American taxpayer and, second, because it is 
often a better indicator of actual family relationship than 
DNA, particularly given the number of sponsors that we have who 
are, for example, aunts, uncles, and grandparents.
    But as to the benefits of a particular DNA method, we'd 
need to get back to you about that, but I did want to 
contextualize those relatively limited circumstances where we 
use DNA to test.
    Mr. Sensenbrenner. Well, you know, let me ask the question. 
You know, I know the documents are real good if the person 
presenting the document is the person who is described in the 
document, but how are you able to sort out if somebody comes in 
and hands you a document and the child, for example, you know, 
is not the person who is described in the document?
    Children's pictures can change pretty quickly from the time 
the document is issued and the time it's handed over to be 
examined.
    Mr. White. So the case management process is fairly robust 
and has a number of ways that we work, our case managers work 
to verify identity and to verify relationship, and we follow up 
on red flags.
    At present, it is not our practice to use DNA in all cases 
nor do I believe that we're appropriated to do so. The cost 
differential between DNA testing, which currently costs $525 
per incident, and the much lower cost of documents on the 40 to 
60,000 children we receive each year makes consular-verified 
documents our preferred method, but we're very open to learning 
more about DNA testing.
    Mr. Sensenbrenner. When you do use DNA, do you ever use 
rapid DNA?
    Mr. White. The standard--the provider we use does not. We 
don't commonly use rapid DNA and the reason is because our time 
frame for all the other things that we have to check is longer 
than the time frame for the standard for one-week turnaround 
process, including mailing, on paternity/maternity verification 
by DNA.
    Mr. Sensenbrenner. Okay. And I think it would be a good 
idea to give it a try.
    Mr. White. We're certainly open to learning more. I just 
wanted to be responsive to your question.
    Mr. Sensenbrenner. Thank you.
    Chairman Nadler. Thank the gentleman.
    Let me just say that I hope you will take a look at it. The 
committee will take a hard look at that rapid DNA proposal from 
last year and with some others.
    Gentle lady from Texas, Ms. Jackson Lee, is recognized for 
five minutes.
    Ms. Jackson Lee. Chairman, I'd like to introduce into the 
record the following documents from Amnesty International, 
American College of Physicians, the Center for Victims of 
Torture, U.S. Conference of Catholic Bishops, Migration, and 
Refugee Services, Church World Services, the Episcopal Church, 
Sojourners, and the Friends Committee on National Legislation.
    I ask unanimous consent to submit these into the record.
    Chairman Nadler. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    Ms. Jackson Lee. Thank you so very much.
    Let me, first of all, thank each and every one of you for 
your service. As a member of the Homeland Security Committee 
since 9/11, I know the importance of the work you do, 
understand the importance of the work we do to try to improve 
systems and processes that reflect the values of this nation.
    Let me also indicate that anyone who does harm to any 
citizen killed or injured, I want everyone in this room to know 
that they should be immediately brought to justice. None of us 
on this panel, Democrats or Republicans, would deny that 
responsibility of bringing of people to justice.
    Let me comment and indicate that the April 6th, 2018, zero-
tolerance initiative of the Trump Administration was ill-timed, 
ill-considered, and inappropriate. According to the GAO report 
that was given, DHS, we interviewed agencies and they indicated 
that they did not plan for the potential increase in the number 
of children separated from their parents, legal guardian, or 
results of the Attorney General's April 28th zero policy. So 
they did not plan for the high numbers of those that were being 
separated from legal parents.
    And then, of course, the Inspector General said that the 
DHS was not fully prepared to implement the zero-tolerance 
policy or to deal with certain effects of the policy following 
implementation, which meant that we were going to--the 
Government was simply going to fail and they did fail in doing 
the job that should be done.
    So I have a series of questions that I'd like to indicate, 
but I'd also like to just reflect on these are children, none 
of whom I think in this particular picture under 12 maybe could 
be a threat to anybody here in the United States of America. 
None of these are a threat to anyone here in the United States, 
but they were children younger than this, and as a member of 
the Women's Working Group of Immigration, the United States 
Members of Congress Working Group on Immigration, I held Baby 
Roger in my hands. I'll always remember Roger because he was 
nine months old, snatched from his natural guardians. He had no 
ability to talk. He was not identified. He had no band, no ID, 
nothing, and so one wonders where Roger is today.
    I frankly believe that there are much more, Commander, than 
you have indicated. That is my fear and that is my concern.
    Let me quickly raise these questions. Mr. Lloyd, picking up 
on the lack of tracking, when HHS was made aware of the zero-
tolerance policy was going into effect, how long did it take 
for you and ORR to notice that there were no tracking of which 
parents were separated from what children?
    Mr. Lloyd. Congresswoman, the tracking that occurred, I 
wouldn't agree with your characterization that there was no 
tracking. The tracking that occurred, occurred within our 
normal case management system as part of----
    Ms. Jackson Lee. So how long was that, sir?
    Mr. Lloyd. I'm sorry?
    Ms. Jackson Lee. How long did it take for you and ORR to 
notice that there was no tracking of which parents were 
separated from their children?
    Mr. Lloyd. Sure. Again, I would disagree with your 
characterization. The tracking----
    Ms. Jackson Lee. Can you tell me when you decided to take 
note of that?
    Mr. Lloyd. The tracking that occurred was in our----
    Ms. Jackson Lee. How long after April 2018?
    Mr. Lloyd. Our tracking of the circumstances under which 
kids come into our care is ongoing. It never stopped and 
never----
    Ms. Jackson Lee. Did you approach CBP about tracking 
separated parents? If so, when did this occur?
    Mr. Lloyd. I missed the first part of your statement.
    Ms. Jackson Lee. Did you approach CBP about tracking 
separated parents? If so, when did this occur?
    Mr. Lloyd. We interact with CBP on a daily basis in our 
work at the field level.
    Ms. Jackson Lee. But I'm speaking specifically about 
tracking.
    Mr. Lloyd. Tracking of?
    Ms. Jackson Lee. When did you approach CBP about tracking 
separated parents?
    Mr. Lloyd. As part of the case management process, that 
would be one of the things that the case manager does on a----
    Ms. Jackson Lee. Can you affirm that, sir? You can document 
that that was going on? I listened to CBP. I've visited their 
facilities. I think they were doing the best that they could 
and they had no process for tracking.
    Are you telling me that you contacted them about tracking?
    Mr. Lloyd. The----
    Ms. Jackson Lee. Let me continue my question. It's been 
reported that you have little interest in reuniting children 
with their parents. In fact, it had been reported in the press 
that during an internal HHS review of the family separation 
policy, a top HHS official found that you instructed your staff 
to stop keeping a spreadsheet tracking separated families.
    Did you make this decision and, if so, why? Why in the 
world would you choose to make a decision like this? As a 
father yourself, can you explain to us how this possibly could 
have happened?
    Mr. Lloyd. Thank you, Congresswoman. That was incorrect 
reporting. I did not make that order.
    Ms. Jackson Lee. I have a facility in my district called 
Southwest Keys. It is under investigation by the Federal 
Government. I do not want that facility to open, and there is 
another facility by the name of Shiloh that has been accused of 
abusing children. I'd like to get a report from you about that, 
and I'd like a further report on your reunification efforts and 
whether you track. I need specific dates and times. I would 
appreciate that greatly.
    Chairman Nadler. The time of the gentle lady has expired.
    Ms. Jackson Lee. I yield back.
    Chairman Nadler. The gentleman may answer. The witness may 
answer the question.
    Mr. Lloyd. Thank you, Congressman. The last question?
    Chairman Nadler. Yes.
    Mr. Lloyd. And what was that?
    Ms. Jackson Lee. The last question, sir, was dealing with 
Southwest Keys in my district. I do not want it to open because 
its facilities are under investigation. They have about 12,000 
unaccompanied children. By the way, those separated from their 
families are not unaccompanied.
    Chairman Nadler. The witness may answer.
    Ms. Jackson Lee. Closing Shiloh, that has been accused of 
abusing children, these are immigrants, as well.
    Mr. Lloyd. We cooperate with any ongoing investigations. 
We're happy to cooperate with those investigations and provide 
any information that comes out of them.
    As far as new facilities, that's guided by the state 
licensing authorities and that's something----
    Ms. Jackson Lee. They get federal funds. Thank you.
    Chairman Nadler. The time of the gentle lady has expired.
    Mr. Chabot is recognized for five minutes.
    Mr. Chabot. Thank you, Mr. Chairman.
    First of all, I don't favor separating children from their 
families and I don't think most of the people in this room do, 
and it's my belief that, to the extent that such separations 
are required by existing law, it's our responsibility as 
representatives of the American people as the Congress of the 
United States to work on legislation to provide a fix to that 
situation because we ought not to be separating children from 
their parents.
    However, part of the problem, of course, is that there's a 
backlog of pending cases before the immigration courts 
nationwide. It's been reported that back in 2008, immigration 
courts had a backlog of some 200,000 cases.
    Ms. Asher, let me ask you this. In your written testimony, 
I believe you reported that the backlog has grown fourfold, so 
four times since back in 2008, to more than 800,000 cases 
today, is that correct?
    Ms. Asher. Yes, sir, that is correct.
    Mr. Chabot. Thank you.
    Mr. McHenry, let me ask you. One of your chief functions as 
Director of the Office of Immigration Review at the Department 
of Justice is to conduct immigration court proceedings. That's 
correct, isn't it?
    Mr. McHenry. Yes, Congressman, it is.
    Mr. Chabot. In the face of the immigration backlog 
described by Ms. Asher, what steps is your office taking to 
reduce the backlog of pending cases and what should we be 
providing for you to do a better job doing your job? Is it more 
money for immigration judges or what do you need?
    Mr. McHenry. Thank you for the question.
    Backlog, the growth of it has sort of been two phases. The 
first phase, from roughly 2008 until about 2016-2017, was 
driven by a combination of factors, one of which was reduced 
productivity, more continuances, lack of immigration judge 
hiring, things that we were largely responsible for.
    We've been able to solve a lot of those problems. We've 
hired more judges. We have approximately 430 right now onboard. 
We've been able to complete more cases than at any time since 
FY 2011 and we're on pace to complete more cases since FY 2006.
    But since about 2016-17, the backlog has increased for 
factors that sort of extend beyond us. There's been an 
increase, as some of the other witnesses have testified to, 
increased numbers of aliens coming to the United States that 
are leading to more cases. More cases have been filed. There's 
been an increased emphasis on enforcement over the last couple 
of years. That's caused the backlog to go up for those reasons.
    Mr. Chabot. You need additional resources and we need to 
provide them.
    Let me move on because I've got kind of limited time. Let 
me ask you this. Isn't it true that it is a federal crime under 
8 USC 1325(a) to illegally enter the United States, is that 
correct?
    Mr. McHenry. That's correct.
    Mr. Chabot. They didn't actually commit a crime. All they 
did was come into the United States illegally. That's illegal, 
right?
    Mr. McHenry. It is.
    Mr. Chabot. Okay. And isn't it also true that currently 
parents traveling with children are not being referred for 
prosecution for violating that law? So there's, in essence, an 
incentive to bring a child across the border. It's kind of get 
out of jail free card to some degree. Would you agree with 
that?
    Mr. McHenry. I'd defer a little bit to my operational 
colleagues, but it is my understanding that DHS is not 
referring any family units, any parents who are traveling with 
children right now, so they wouldn't be prosecuted.
    Mr. Chabot. Okay. Thank you.
    Chief Provost, let me ask you this. Let me make sure I have 
this straight.
    In the past, most of the people that were coming to our 
southern border and trying to enter illegally were males, 
principally from Mexico, and nowadays that's no longer the 
case. Now it's people coming from Central America with children 
who know that they cannot be separated now. They maybe were, 
now they can't be, and that we don't have the facilities 
available to house or take care of these folks.
    So instead of detaining them, for the most part they're now 
given a court date down the road and a court date for which the 
vast majority no longer show up and they essentially then 
disappear into the population and they then basically 
successfully cut in line in front of people from all over the 
world that are trying to do it the right way, who are trying to 
follow the law, become American citizens, bring their families 
here the correct way, which is far less dangerous than dragging 
your kids through the desert or hundreds of miles at the whim 
of these coyotes and drug cartels and all the rest. Is that 
about right?
    Chief Provost. Yes, sir. When it comes to the demographic 
shift, you are correct on the changes that have happened. I'm 
sure Ms. Asher wants to weigh in, as well, but this is where I 
stated before the Flores decision and the inability to detain 
these family units because of the children longer than 20 days 
to await an immigration hearing is causing that pull factor.
    Mr. Chabot. Thank you. Ms. Asher, for any time that I might 
have left.
    Ms. Asher. Yes, sir. Thank you.
    What I would like to add is even when individuals, 
particularly family units, do have their day in court, so to 
speak, we know through a recent exercise with EOIR, there were 
just over 2,600 cases heard before the immigration judge in a 
non-detained setting of family units. Of those 2,600 
approximate, there were just over 2,500 in absentia orders 
issued, meaning the individuals failed to appear for the 
hearing.
    So now you have the additional challenge as it relates to 
my resources in ICE that now we have individuals who are 
throughout the country with final orders of removal. I don't 
have the resources necessarily to prioritize to now go and find 
these family units to facilitate the removal.
    So this is an ongoing and growing problem that we continue 
to work collectively that proves great challenges.
    Mr. Chabot. Thank you.
    Chairman Nadler. The time of the gentleman has expired.
    Mr. Johnson of Georgia. Thank you, Mr. Chairman, and thank 
you all for being here today.
    This examination of President Trump's barbaric policy of 
separating families, tearing little children away from the arms 
of their parents is long overdue, and I'd like to get to the 
bottom of why anyone in this Administration thought that they 
could get away with this.
    Now this is what former Chief of Staff and Department of 
Homeland Security Director John Kelly said. ``Jeff Sessions was 
the one that instituted the zero-tolerance process on the 
border that resulted in both people being detained and the 
family separation. He surprised us.''
    Mr. McHenry, was the zero-tolerance policy just alluded to, 
was that a policy developed by the Justice Department?
    Mr. McHenry. Yes, sir, it was. It was issued by the 
Attorney General on April 6th, 2018, following a memorandum he 
issued in April 2017,----
    Mr. Johnson of Georgia. All right.
    Mr. McHenry. Following the Executive Order.
    Mr. Johnson of Georgia. Does the Department of Justice 
usually do initiatives without consulting the White House 
first?
    Mr. McHenry. I can't speak to what consultation is done.
    Mr. Johnson of Georgia. All right. On April 23rd, there was 
a memo signed by Department of Homeland Security Secretary 
Nielsen approving family separation mentions and that this was 
an analysis that has not been provided to this committee.
    Attorney General Jeff Sessions said on May 7th, 2018, as it 
relates to the family separation policy, ``If you cross the 
border unlawfully, then we will prosecute you. If you don't 
want your child separated, then don't bring them across the 
border illegally.''
    Subsequently, District Judge Dana Sabraw found that the way 
DHS carried out separations was not lawful.
    Did the Department of Justice provide any legal analysis 
and justification for the zero-tolerance policy, Director 
McHenry?
    Mr. McHenry. To the extent it's an issue in litigation, I 
couldn't speak to it. We also----
    Mr. Johnson of Georgia. The question is, did the Department 
of Justice provide a legal analysis, yes or no?
    Mr. McHenry. Again, any guidance or----
    Mr. Johnson of Georgia. So you refuse to answer the 
question. All right. Thank you.
    Was any legal research or analysis done by the Department 
of Justice on this policy?
    Mr. McHenry. I'm sorry. I don't follow the question.
    Mr. Johnson of Georgia. Was any legal research or analysis 
done by the Department of Justice on the zero-tolerance family 
separations policy?
    Mr. McHenry. I can't speak specifically to the 
deliberations.
    Mr. Johnson of Georgia. Why is that, sir? You are with the 
Department of Justice and you're here to testify this morning.
    Mr. McHenry. I am----
    Mr. Johnson of Georgia. Would you answer that question?
    Mr. McHenry. We don't typically discuss sort of internal 
policy deliberations.
    Mr. Johnson of Georgia. I'm not asking about internal 
policy deliberations. I'm simply asking whether or not your 
department did any legal research or analysis on this issue.
    Mr. McHenry. Well, any analysis or research would go toward 
those internal deliberations.
    Mr. Johnson of Georgia. All right. Let me move on to Chief 
Provost since you're just not going to answer my questions, 
Director McHenry.
    Chief Provost, you don't have enough Border Patrol agents, 
isn't that correct? You have a shortage?
    Chief Provost. That is correct, sir. I could use more 
agents.
    Mr. Johnson of Georgia. And in November, I believe it was, 
of 2017, Trump issued an Executive Order and it mandated that 
5,000 additional Border Patrol agents be hired, isn't that 
correct?
    Chief Provost. That is correct.
    Mr. Johnson of Georgia. And you were already down by about 
1,815 agents at that particular time, correct?
    Chief Provost. That sounds about correct.
    Mr. Johnson of Georgia. And so to address the Border 
Patrol's officer shortage, your agency signed a five-year 
contract, a $297 million contract with Accenture Federal 
Services to recruit and hire Border Patrol agents, correct?
    Chief Provost. I believe it goes up to that amount.
    Mr. Johnson of Georgia. Yes, ma'am, and the Office of 
Inspector General reported that as of October 1st of 2018, the 
first 10 months of the program, Accenture had received $13.6 
million of that contract but had only processed two accepted 
job offers, isn't that correct?
    Chief Provost. I do not know, sir.
    Mr. Johnson of Georgia. You don't know?
    Chief Provost. That's Human Resource Management's side of 
the house.
    Mr. Johnson of Georgia. You don't know about this gross 
mismanagement, fraud, waste, and abuse that's taken place in 
your agency that was found to be true by the Office of 
Inspector General?
    Chief Provost. I can't speak to----
    Chairman Nadler. The time of the gentleman has expired.
    Chief Provost [continuing]. That at this time, but I know 
that we have the contract.
    Mr. Johnson of Georgia. That is ridiculous that you, the 
head of the agency, don't know of this issue of waste, fraud, 
and abuse that is rampant within your agency.
    Chief Provost. That's a CBP contract, sir. I'm the head of 
the Border Patrol.
    Mr. Johnson of Georgia. Well, you're the Office of Border 
Patrol. It's the law enforcement arm of the Office of Border 
Protection, which you----
    Chief Provost. Within CBP, yes.
    Chairman Nadler. The time of the gentlemen has expired.
    The gentleman from Texas, Mr. Gohmert.
    Mr. Gohmert. Thank you. Thank you, Mr. Chairman. Appreciate 
the witnesses being here.
    Director McHenry, isn't it true that every day in cities 
all across America, every Administration going back to the 
beginning of the Department of Justice has separated parents 
suspected of committing crimes from their children?
    Mr. McHenry. What I can say is that any individual----
    Mr. Gohmert. You can say yes or no. It's not a hard 
question. If you don't know the answer, then you don't need to 
be in your position. It goes on every day. All of us that have 
been involved in the justice system know it goes on every day, 
is that correct or not, in your opinion?
    Mr. McHenry. Individuals who are parents who are prosecuted 
for crimes, there is the potential that they may be separated 
during----
    Mr. Gohmert. Oh, so you're saying there are chances where 
you may put children in jail with the parents that are suspects 
in a crime. No more questions for you. Obviously you're not 
aware. We don't put children in jail with suspects just because 
they're children of the adults.
    Chief Provost, you had mentioned before about this issue of 
separation and apparently, like under the Clinton 
Administration, the Bush Administration, the Obama 
Administration, children were being separated from parents that 
were illegally coming into the country, isn't that correct?
    Chief Provost. Yes, sir. I've worked throughout all four 
Administrations and I myself have experienced it in the field, 
on the ground,----
    Mr. Gohmert. And that's because we don't want to put 
children in detention with parents who are suspected of 
committing an offense, correct?
    Chief Provost. That is correct.
    Mr. Gohmert. It's not a mean-spirited idea. It's just a 
notion that's been true in this country that children should 
not have to pay for the sins of the parents and we don't hold 
the children accountable for coming in illegally because they 
are not of majority age and therefore they don't have the 
intent to violate the law. That is what our law has been, 
correct?
    Chief Provost. That is correct.
    Mr. Gohmert. Now you've talked about the system that was a 
manual system. You have a number for the parent, you have a 
number for the children, and you have said you manually have to 
go back and find those so you can match back the children with 
the parents, correct?
    Chief Provost. If I may clarify just briefly----
    Mr. Gohmert. Yes.
    Chief Provost [continuing]. The system is not manual. We 
have, within CBP, our system and the system did not speak 
automatically to the system at HHS.
    Actually, in April, before the May 5th date, was when we 
added the searchable field to help us be able to pull the data 
more easily--I guess easier.
    Mr. Gohmert. Okay. But would you say that the Clinton 
Administration, the Bush Administration, or the Obama 
Administration was callous and immoral because they didn't do 
something to make it an easier fix to match up the parents and 
the children?
    Chief Provost. No, sir.
    Mr. Gohmert. And so if we were going to be fair and we were 
not going to say that about the Clinton, Bush, or Obama 
Administration, really the only difference is that when the 
zero-tolerance policy was put in place, it accentuated the lack 
of the fix from those prior Administrations, correct?
    Chief Provost. Yes, sir, and there's always lessons learned 
and we always improve on our data integrity.
    Mr. Gohmert. Right. Now you've also--really, it's mind-
boggling but very critical. As my friend Mr. Chabot brought up, 
was it 90 percent at one time were males coming across from 
Mexico? That was who were illegally coming in?
    Chief Provost. 90 percent were Mexican Nationals and now 80 
percent of whom we apprehend are other than Mexican Nationals. 
The vast majority of those Mexican Nationals were adult single 
males. For the first time in our history, in October, family 
units surpassed single adult apprehensions.
    Mr. Gohmert. And that happens to have coincided with the 
outrage about parents being separated from children.
    Now you dealt with the drug cartels and their work as a 
result of what you do. You know, as Mr. Chabot and I were told, 
in Colombia, the reason they send most of the drugs across 
through Mexico and our U.S. southern border is because they're 
business people and when they see a way they can manipulate our 
system, that's what they do. Isn't that why you're seeing the 
huge increase of families and children coming into this 
country?
    Chief Provost. It is true that the transnational criminal 
organizations utilize them as a tactic when they know our 
resources are focused on the family units that it takes our 
resources away from the border security side of the house, and 
they do utilize that to their advantage.
    Mr. Gohmert. My time has expired. I appreciate you all 
being here.
    Chairman Nadler. Thank you.
    The gentleman from Florida, Mr. Deutch, is recognized.
    Mr. Deutch. Thank you, Mr. Chairman.
    Mr. Chairman, the Trump Administration's forced child 
separation policy will forever be a dark time in our nation's 
history. The policy undermines our country's moral standing in 
the world that generations of Americans have worked so hard and 
in some cases have given their lives to build.
    I am deeply concerned with documents that have been turned 
over by HHS that record a high number of sexual assaults on 
unaccompanied children in the custody of the Office of Refugee 
and Resettlements. Together, these documents detail an 
environment of systemic sexual assaults by staff on 
unaccompanied children.
    Mr. Chairman, I ask unanimous consent to submit for the 
record a document request submitted by the committee today to 
the Secretary of HHS on the development and execution of the 
administration's zero-tolerance policy.
    Chairman Nadler. Without objection
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Deutch. And untitled document that describes ORR's 
zero-tolerance policy for all forms of sexual abuse.
    Chairman Nadler. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Deutch. Charts for each fiscal year from FY 2015 
through FY 2018 on allegations of sexual abuse reported to DOJ.
    Chairman Nadler. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Deutch. Charts detailing incidents of sexual abuse 
reported to DOJ that occurred in ORR's Unaccompanied Alien 
Children Program.
    Chairman Nadler. And without objection.
    [The information follows:]
    https://docs.house.gov/meetings/JU/JU00/20190226/108872/
HHRG-116-JU00-20190226-SD003.pdf
    Mr. Deutch. And, finally, Mr. Chairman, charts from FY 2017 
and 2018 listing incidents of sexual abuse, dates when the 
incident was reported to ORR, the FBI, and the care provider.
    Chairman Nadler. Without objection, the documents will be 
entered into the record.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Deutch. Thank you, Mr. Chairman.
    Commander White, these documents demonstrate over the past 
three years there have been 154 staff-on-unaccompanied minor, 
let me repeat that, staff-on-unaccompanied minor allegations of 
sexual assault. This works out on average to one sexual assault 
by HHS staff on an unaccompanied minor per week. These 
documents tell us that there is a problem with adults, 
employees of HHS sexually abusing children.
    When you carried out the zero-tolerance policy, for you, 
Mr. Lloyd, when you carried out the policy, you knew that 
putting thousands of kids, you knew that putting thousands of 
kids into a situation where they were at risk of sexual abuse 
was going to be the result.
    Did you discuss this issue before going forward? Did you 
discuss the threat of sexual abuse to these kids among each 
other? Were there discussions with staff?
    Mr. White. Representative, let me first correct an error. 
Those are not HHS staff in any of those allegations. That 
statement is false. Those are--no, no.
    Mr. Deutch. Let me----
    Mr. White. Those are not HHS----
    Mr. Deutch. Commander White,----
    Mr. White. We're speaking of allegations----
    Mr. Deutch. Commander White, I'm going to reclaim my time, 
Commander White. I don't have a lot of time and you know what 
I've seen in these reports that were delivered to us buried in 
stacks of documents this thick without any notation? I saw 
thousands of cases of sexual abuse, if not by HHS staff, then 
by the people that HHS staff oversees. I will make that 
clarification. It doesn't make what happened anything less 
horrific, any less horrific.
    Let me just continue. Hold on one second, Mr. White, 
please, Commander White.
    The question is when you went forward with this policy, did 
anyone discuss this? Was this a hesitation, given that you had 
this history, did anyone worry about what was going to happen 
to these kids? Was the Secretary aware of the numbers in these 
charts?
    Mr. White. You're speaking of the numbers of our PREA 
reports and those 154 are allegations and this is a longer 
conversation.
    Mr. Deutch. Well, it is a longer conversation, Commander 
White.
    Mr. White. Every conversation that we had about separation, 
we opposed separation.
    Mr. Deutch. I appreciate that.
    Mr. White. That was based on actual----
    Mr. Deutch. And was the Secretary aware of these numbers? 
Was the Secretary aware that in moving forward and doing the 
work that you do--and for everyone on the panel, did people 
consider that when you went forward on the zero-tolerance 
policy, that we're moving forward on a policy that would put 
these kids at risk of sexual assaults? That's the question. And 
if the answer is you don't know, I would ask staff to deliver 
to you these two charts, in particular the one that, you're 
right, does contain the allegations.
    It also contains the results of investigations, those 
employees who were reassigned, those who were terminated, those 
who continued to be employed. There are a thousand questions 
that we have, but I would ask that you deliver these to the 
Secretary so that we can have a full exploration of them.
    The details of these sexual abuse allegations are shocking.
    Mr. Chairman and Chairperson Lofgren I know will join me in 
continuing to press the Administration on these issues. It was 
our obligation, the Administration's obligation to help keep 
these kids safe, the child's best interests, safety, and well-
being of alien children. That's what we heard this morning.
    Mr. Chairman, we failed and this is just the start of what 
I believe to be a very important series of questions that this 
Administration must answer, and I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. Gaetz.
    Mr. Gaetz. Thank you, Mr. Chairman.
    Commander White, are people more likely to be sexually 
abused on their way into our country through the cartel and 
human trafficking routes or are they more likely to be sexually 
abused--if every allegation made against every U.S. Government 
official were true, which would be the greater propensity of 
sexual violence?
    Mr. White. Obviously in transit but that's not the point. 
We are committed to keep an environment safe for children. We 
don't set ourselves the standard of just doing better than 
smugglers and traffickers.
    Mr. Gaetz. No, I understand and I hear that, but what's 
troubling to me is that we all on this committee, all human 
beings, want to decrease the frequency of family separation and 
decrease the frequency of anyone being the victim of sexual 
violence.
    The question we have to answer is whether or not the 
policies of open borders or the policies of a secure border 
would greater facilitate those policy objectives.
    I wanted to ask Ms. Asher. Ms. Asher, what impact does it 
have on your colleagues when members of Congress talk about 
abolishing ICE? Does it impact morale, recruitment, or 
operational capability?
    Ms. Asher. Thank you for the question, sir. There's no 
doubt that in the last year-year and a half, even up to two 
years, my 6,500 or so officers in the field who do interior 
enforcement, which we don't talk about that too much these 
days, are facing much scrutiny, unfair allegations made by 
media and various organizations. Assaults on my officers while 
conducting interior enforcement has gone up well over a 160 
percent.
    There's no question that it is a very chilling environment 
for my officers as they conduct their mission and promoting 
public safety and, quite frankly, upholding the laws that 
Congress has passed.
    Mr. Gaetz. And have any of the people you've worked with 
shared their views with you regarding the impact on their job 
performance when members of Congress demonize the work done by 
ICE?
    Ms. Asher. We have on a regular basis--my field office 
directors, our leaders in the field do regular town halls with 
our officers. Our first- and second-line supervisors take very 
seriously the repercussions of these allegations, etcetera, on 
our officers and so morale, yes, has gone down.
    Mr. Gaetz. Thank you for that. I have limited time.
    I wanted to recount the story of Guillermo Motee. This is 
the only way we know him. He's a 57-year-old construction 
worker and he would have come to the United States without a 
child but because we treat people differently if they bring 
kids, he brought his 16-year-old daughter to the country and he 
said this. I'm quoting. ``This is the reason I brought a minor 
child with me. She was my passport.''
    Chief Provost, is it becoming more and more typical that 
people who want to come to our country illegally are viewing 
children as their passport or their mechanism of entry?
    Chief Provost. As I stated before, our numbers of family 
units are increasing dramatically. Also, the increase that we 
are seeing is--just a couple of years ago, the ratio of male 
parent with child was a 1:5 ratio. It's now almost 50/50 with 
female parents that are coming here. This is a tactic that we 
have through interviews. It is something that is being 
utilized.
    Mr. Gaetz. And so it's not--as I hear your testimony, 
correct me if I'm wrong, it's not a function of a greater 
desire to have the children in the country for the sake of 
having the children in the country. At least with some of these 
individuals, the child is viewed as a mechanism of transit. Is 
that consistent with your understanding?
    Chief Provost. As I stated in my opening statement, that is 
a trend that we are seeing and as social media and other news 
spreads that that will impact your ability to be released into 
the country, I believe that it is part of the pull factor.
    Mr. Gaetz. And I appreciate and I take with all sincerity 
the concern my colleagues have about children being separated 
from their families once they reach the United States, but it's 
deeply troubling to me that I don't seem to be hearing any 
Democrats referencing the challenge that occurs when a family 
is separated south of our border to facilitate smuggling or 
transit or a child literally functioning as a passport.
    The Mayor of Chiquimula, Guatemala, Mayor Juan Jose Rivera, 
chronicled what he called illegitimate adoptions for cash where 
in his town, people would go and buy and sell kids like they 
would buy and sell passports, so that the kids could get people 
better treatment when they came to our country illegally. He 
said, and I quote, ``This is the most serious problem we 
have.''
    And so I'm wondering if you could share with us the 
feedback you've received from people in other countries about 
the impact of the United States' policies on family separation 
that occurs south of our border.
    Chief Provost. Well, what I can easily speak to is the fact 
that those numbers are increasing, the fraudulent cases. We've 
identified at least 1,700 cases so far since April of this past 
year, definite fraud cases. Those are the ones we've been able 
to identify of individuals that are coming with a child that 
they are not a parent or guardian to.
    Mr. Gaetz. Mr. Chairman, may I be recognized for unanimous 
consent, please?
    Chairman Nadler. The gentleman is recognized.
    Mr. Gaetz. Thank you, Mr. Chairman.
    I see my time has expired, but I seek unanimous consent to 
enter into the record a June 22nd, 2018, New York Times article 
entitled Why Are Parents Bringing Their Children on Treacherous 
Treks to the U.S. Border?
    Chairman Nadler. Without objection, the article from the 
New York Times, sometimes referred to as the ``fake news,'' is 
entered into the record.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Gaetz. Yes, or the ``failing New York Times.''
    Mr. Chairman, for further unanimous consent request, from 
the Washington Post, for Central Americans, Children Open a 
Path to the U.S. and Bring a Discount, November 23rd, 2018, 
seek unanimous consent to enter into the record.
    Chairman Nadler. Washington Post, too, without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Gaetz. And one final one, Mr. Chairman. From the 
Washington Times, from Tuesday, May 22nd, 2018, Eye-Popping 
Surge of Illegal Immigrants Abducting Children.
    Chairman Nadler. The document will be admitted to the 
record without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      
    Mr. Gaetz. Thank you, Mr. Chairman. I yield back.
    Chairman Nadler. The gentle lady from California, Ms. Bass, 
is recognized.
    Ms. Bass. Thank you, Mr. Chair.
    In the DOJ's filing last week of a joint status report to 
Judge Sabraw, 11 children were identified as having parents 
that were determined to be excluded from reunification under 
the Judge's Order due to criminality. A total of 18 children, 
as I understand, separated from their families could not be 
reunified because the parent was determined to be unfit or 
present a danger to the child.
    Mr. McHenry, is that accurate, to your knowledge?
    Mr. McHenry. Yes, ma'am. The filing represents our 
position.
    Ms. Bass. Thank you. So removing the child from their 
family in our domestic child welfare system requires trained 
child welfare agency staff and a determination by a judge that 
removal is in a child's best interest.
    It is a system that is designed to protect parents' rights 
and to protect the best interest of children.
    At the border, the decision to remove a child from their 
parent is made solely by U.S. Customs and Border Protection 
agents in the field.
    Ms. Asher, is that correct? Who makes the determination?
    Ms. Asher. No, ma'am. I am with ICE, so I will have to----
    Ms. Bass. Oh, I am sorry.
    Chief Provost. So, we make that determination. Of course, 
we do utilize our Office of Chief Counsel. We work with the 
consulates of the countries.
    Ms. Bass. So in medical or domestic child welfare settings, 
trained staff often use screening tools to identify abuse, 
neglect, and trafficking. I do not believe it is within your 
agency's purview to really make those decisions in the sense 
that you do not have the training. So I am not blaming you. I 
am just saying you guys are making the decisions without the 
proper training.
    So in the domestic child welfare setting, a determination 
of a child's best interest is made by a judge. What training do 
CBP agents have to inform a determination of a child's best 
interest?
    Chief Provost. My agents are trained starting at the Border 
Patrol Academy in dealing with children and the potential for 
fraudulent families or----
    Ms. Bass. Fraudulent families, but are they trained in a 
child that might be neglected or abused, like a social worker? 
So CBP officers are also social workers?
    Chief Provost. No, ma'am. We are trained, though, 
throughout our career. We also follow the law, TVPRA and 
various policies, when it comes to separation. It is a 
temporary separation----
    Ms. Bass. What are the protocols that the agents follow in 
determining that parents pose a danger to their children?
    Chief Provost. For one example and the one that they are 
separated most often are for serious criminal----
    Ms. Bass. Could you give me an example? When I went to the 
border, I was at McAllen and I talked to one of the CBP 
officers, and I asked could you give me an example of a crime, 
and the officer recounted a parent who had been convicted of 
DUI.
    So in our nation's child welfare system, if a parent is 
deemed to have neglected or abused their child, a whole process 
takes place. No one person decides right there on the spot you 
are ineligible to receive your child back. So that is what I am 
trying to get at here.
    My concern is that we have one system that is in place to 
protect children, and your agency--and again, this is an unfair 
burden on you, so I am not faulting you. But based on what 
would you make that determination?
    Chief Provost. We do an initial determination. We are not 
making a determination that they cannot be placed back 
together. But as an example, and I see this because I get the 
daily reports, quite often we have individuals that have 
convictions for domestic violence. If I may explain a little 
further as well?
    Ms. Bass. Yes, very quickly. I am only interrupting you 
because I am running out of time.
    Chief Provost. I turn them over to ICE. ICE is not going to 
put somebody with that type of criminal conviction in a family 
residential center. So we have to make that separation 
temporarily.
    Ms. Bass. Okay, so let me just finish. So tell me what 
happens to these children long term. So we have determined that 
a child cannot be reunited with their parent. What happens to 
that child long term if that child does not have family in the 
United States? Is that you, Commander White?
    Mr. White. Yes, ma'am. For those children where there has 
been a final determination by ORR that the child cannot safely 
be reunified, which is a child welfare decision, that is a 
different decision than the one that you were just discussing 
with Chief Provost.
    Ms. Bass. Okay.
    Mr. White. Very, very few children in the class within that 
situation.
    Ms. Bass. Right. But what happens----
    Mr. White. They have their cases reviewed by the ACLU and 
the judge. What happens is those children then become true 
UACs, and sponsors are sought for them, as they are for all----
    Ms. Bass. Are they eventually put up for adoption?
    Mr. White. The UAC program does not put children up for 
adoption.
    Ms. Bass. Okay. Let me ask you one more question. If a 
parent is deported and they know where their child is in the 
United States, how do they get their child back?
    Mr. White. We contact the parents. We provide their contact 
information to the ACLU. The ACLU----
    Ms. Bass. So I am in Guatemala; I know my child is in New 
York. How do I get my child back, and who incurs the expenses?
    Mr. White. The children who were separated?
    Ms. Bass. Right, and the parents were deported.
    Mr. White. We transport the child at our expense for 
reunification. It is a partnership of ICE and HHS and the ACLU 
and the government of the home country.
    Ms. Bass. So the parents do not have to pay?
    Mr. White. That is correct. Yes, ma'am.
    Ms. Bass. I yield back my time.
    Chairman Nadler. The gentle lady yields back.
    The gentleman from Arizona, Mr. Biggs, is recognized.
    Mr. Biggs. Thank you, Mr. Chairman. I appreciate you 
holding this hearing today, and I am grateful to the witnesses 
for being here.
    I have heard that the zero tolerance policy, I have heard 
it alleged today that it was designed to specifically separate 
children and use them as tools by this administration, and yet 
I have heard it rebutted by the witnesses today.
    I have heard that we are using children, toddlers, and 
infants. And yet I have talked to Border Patrol agents, I have 
been down to the border, and I think three times removed when I 
was down at the border, at that time I talked to agents. One 
described seeing a child dropped from the top of a fence into 
the United States, a child dropped from the top of a fence into 
the United States.
    I talked to another agent who found a toddler, young child, 
wandering on the U.S. side of the border with a note pinned to 
their shirt saying, ``My mom is in,'' then gave the phone 
number.
    I just received an email or a text exchanged recently where 
two young boys on a list in a facility with their parents named 
there, they inquired of the youngest, nine years old, is this 
your parent. He was confused because he had no parent there. He 
was unaccompanied. He was used, because that parent was going 
to be released, as well the child. In fact, the children there 
that were identified as brothers attached to that adult, one 
was from Honduras and the other was from Guatemala. They were 
not even brothers. There was not a family unit there.
    These are not anomalies. This is what is going on, on a 
regular basis. I have pictured behind me--oh, one last point to 
that. We see an increased use of children by human and drug 
traffickers because of our policies, specifically the Flores 
case really leads to this.
    When we talk about human separation and the tragedy of 
that, of families being torn asunder, someone even called it 
kidnapping today, which is kind of outrageous. It was not 
kidnapping. But what we have here behind me are victims of 
forced separation because of illegal aliens who were in the 
country who committed criminal conduct.
    We have Marianne Mendoza, who is in the gallery today. Her 
son was killed by an illegal alien.
    Steve Ronaback, his son was killed by an illegal alien.
    Marla Wolf, her husband, the father of her two children, 
was killed by an illegal alien.
    That is permanent separation, and that is in part due to 
policies that fail to control our border and prosecute. And 
when you have policies that allow 72,000 people last year alone 
to be let loose into the interior because of an antipathy 
toward family separation, or actually the antipathy is more 
toward the prosecution of these illegal aliens, then you see 
our communities receiving these people, large numbers of 
people.
    Ironically, the folks who want to keep families together 
passed a bill recently that eliminates 2,500 family beds. It 
reduces the funding for detention of those who are in this 
country illegally and are being detained for one reason or 
another.
    Well, as we proceed here and we see that our policies do 
not provide deterrent, they actually provide incentives to come 
into this country, which is why you are seeing the marked 
increase month over month, year over year, of unaccompanied 
minors and families coming into this country.
    So, this hearing is interesting. I appreciate the Chairman 
for holding it, but we need to do more than that. We need to 
enforce our laws, and I yield back.
    Ms. Scanlon [presiding]. I recognize the gentleman from 
Rhode Island.
    Mr. Cicilline. Thank you, Madam Chair.
    It is hard to put into words the practice of ripping 
innocent children, many of whom are arriving seeking protection 
and asylum from unspeakable violence, and ripping them from the 
arms of their parents. It is hard to describe in words how that 
practice does violence to our moral standing in the world and 
to our great history as a country.
    But the court in the Ms. L case maybe said it best when it 
described this practice of separating children from their 
parents and the way it was implemented as so egregious, so 
outrageous as to shock the conscience, and so brutal and 
offensive that it does not comport with traditional ideas of 
decency.
    So I am pleased that our Chairman is finally, because the 
Democrats took the majority, we are having a hearing so we can 
get to the bottom of how this happened.
    And I reject the notion that we have to make a choice 
between securing our borders and the hideous policy of 
separating children from their families. We can secure our 
borders and keep this country safe and do it in a way that is 
consistent with our values.
    So the first thing I want to ask you is I sent all of the 
witnesses a letter back on February 7th asking specific 
questions about how many children have been separated, how many 
have been united, whether the individuals can be identified, 
the parents of the children.
    Ms. Asher, can you answer the questions I put in that 
letter to you on February 7th?
    Ms. Asher. Thank you for the question, sir.
    Mr. Cicilline. By the way, you do not need to thank me for 
the question. I have really limited time, so I would ask you to 
just please answer, respectfully.
    Ms. Asher. The various questions that you have posed in 
there are in a consolidated report that is updated regularly, 
and that is the Joint Status Report from the----
    Mr. Cicilline. Okay. And will you send that in response to 
my letter? Will you forward that to me?
    Ms. Asher. We can have that sent to you.
    Mr. Cicilline. Thank you very much.
    So, it is very clear, Chief Provost, that at the time that 
this policy was announced, this zero-tolerance policy was 
announced, that CBP did not have in place a system for the 
tracking and identification of children being separated from 
their parents. Correct?
    Chief Provost. No, I would disagree with you.
    Mr. Cicilline. Okay. So----
    Chief Provost. We had the ability to track. We also had 
added a searchable field within our systems. Our systems were 
different than HHS', and we have been improving on that.
    Mr. Cicilline. Okay. I am going to read to you exactly from 
the Office of the Inspector General. I know criticism is tough.
    In June of 2018, and I quote, ``no centralized system 
existed to identify, track, or connect families separated by 
DHS.''
    The court order, the court decision similarly says, ``The 
practice of separating these families was implemented without 
any system or procedure for tracking the children after they 
were separated from their parents, enabling communication 
between the parents and their children after separation, and 
reuniting the parents and children after the parents are 
returned to immigration custody following completion of their 
sentence.''
    So the court, after listening to evidence, and the 
Inspector General said there was no system in place. And my 
question to you, Chief, is when that order of family separation 
or zero tolerance was announced, did you or anyone in your 
department say we do not have the system in place to keep track 
of these kids, we need to build a system before we can start 
separating children from their parents? That is a yes or a no.
    Chief Provost. I do not believe it is a yes or a no, and 
there is a system to track. It is not----
    Mr. Cicilline. I am asking at the time you began to 
separate children from their parents, when a system----
    Chief Provost. There was a system at that time.
    Mr. Cicilline. So you disagree with the court's finding and 
the Inspector General both?
    Chief Provost. I disagree with that finding.
    Mr. Cicilline. Okay. And in addition to that, are you 
aware, Chief, of a pilot program? The number that has been used 
at this hearing is 2,816 children separated. That was for a 
specific date in the litigation. Correct, Ms. Asher?
    Ms. Asher. If that is what it says in the report, yes.
    Mr. Cicilline. Well, do you know how many children have 
been separated from their parents, period, during the time you 
have been in charge of this policy?
    Ms. Asher. My agency is responsible for the adults through 
this process. You are asking about the exact number for the 
children?
    Mr. Cicilline. Yes.
    Ms. Asher. I am merely telling you that, right off the top 
of my head, I cannot tell you the exact number.
    Mr. Cicilline. Well, can you find out that number for us?
    Ms. Asher. The number is in the Joint Status Report that--
--
    Mr. Cicilline. Well, are you familiar with a pilot program 
that was started in July of 2017 and went up through November 
of 2017 that was not publicly announced where children were 
separated from their parents as part of an El Paso pilot 
program? Ms. Asher, are you familiar with that program?
    Chief Provost. I think that is a question for me.
    Mr. Cicilline. That is a question first for Ms. Asher, and 
then I will get to you, Chief.
    Are you familiar with that program?
    Ms. Asher. I am not familiar with that program, no.
    Mr. Cicilline. You never heard about it?
    Ms. Asher. I am not familiar with the program that you 
referenced.
    Mr. Cicilline. Okay.
    Chief, are you familiar with the program?
    Chief Provost. We had a prosecution initiative in El Paso 
where we worked with the Department of Justice. Within that, 
there were some subjects that were separated.
    Mr. Cicilline. So the truth is today, as you sit here 
before Congress, nobody on this panel can tell us how many 
children were actually separated from their parents before that 
date that the court decision came, or since it, and whether or 
not those young children can be reunited with their parents. We 
do not actually know.
    Chief Provost. We have numbers. I have numbers for Border 
Patrol. When it comes to tracking, we can provide you those 
numbers of who we have separated----
    Mr. Cicilline. From before that date that was used in the 
court order?
    Chief Provost. From the timeframe during zero tolerance and 
then since then----
    Mr. Cicilline. My question was about before zero tolerance 
was officially announced.
    Chief Provost. We would have to do a manual poll because--
--
    Mr. Cicilline. And you have not done that yet, have you?
    Mr. Collins. Order.
    Mr. Cicilline. I have a unanimous consent request. That is 
not out of order.
    Mr. Collins. You have been ordered. You have been going for 
over a minute----
    Mr. Cicilline. Well, you are not the Chairman of the 
committee.
    Mr. Collins. I can ask for order.
    Mr. Cicilline. No, you cannot.
    Mr. Collins. Yes, I can.
    Mr. Cicilline. No, you cannot. The person who presides over 
the hearing controls the hearing.
    Mr. Collins. I can ask for order.
    Mr. Cicilline. Well, I would ask for a unanimous consent--
--
    Ms. Scanlon. We have a unanimous consent request.
    Mr. Cicilline. Thank you. I would ask unanimous consent 
that the following articles be made a part of the record: a Pro 
Publica Report, ``Families Are Still Being Separated at the 
Border Months After Zero Tolerance was Reversed''; another 
article, ``Families Still Being Separated at the Border Months 
After Trump's Zero-Tolerance Policy Reversed''; a second 
article from the Washington Post, ``Seven Questions About the 
Family Separation Policy Answered''; a Vox article, ``The Trump 
Administration's Separation of Families at the Border 
Explained''; Buzzfeed News, ``The Trump Administration is 
Slowing the Asylum Process to Discourage Applicants, An 
Official Told Congress''; an NPR report, ``After Traveling 
2,000 Miles for Asylum, This Family's Journey Halts at a 
Bridge''; and an NPR report, ``Trump's Administration Begins 
Remain-in-Mexico Policy, Sending Asylum Seekers Back''; and 
finally, an article entitled, ``Asylum Seekers Being Turned 
Away No Matter Where They Cross the Border,'' dated November of 
2018.
    Ms. Scanlon. Okay. Without objection, they will be 
accepted.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Ms. Scanlon. The gentleman from Pennsylvania is recognized.
    Mr. Reschenthaler. Thank you, Madam Chairwoman.
    Thank you to all the witnesses who came here today. The 
work you do is absolutely critical for the safety and security 
of our nation, so thank you.
    There is definitely no question in my mind that we are 
dealing with a humanitarian crisis at the southern border. I 
just wanted to throw out some statistics.
    In April 2017, 1,118 family units, adults traveling with 
minors, were apprehended by Border Patrol. But by 2018, 
December 2018, that number was up to 27,518 family units. That 
is a 2,323 percent increase. So over a 2,000 percent increase 
in just over two years.
    In following the precedent of administrations that came 
before the current DHS, DHS has separated adults and children 
in certain situations, including when they believe a child has 
been trafficked. So rather than debate what I think is a non-
existent family separation policy, I would like to focus on 
something that poses a very real threat, and that is the 
despicable practice of human trafficking.
    The stats speak for themselves. During the Fiscal Year 
2018, ICE and Homeland Security investigations made 1,588 
trafficking arrests and identified 308 victims. So over the 
1,588 arrests, 1,543 were for sex trafficking violations. This 
is modern-day slavery.
    As a nation, we have a moral obligation to protect women 
and children from falling prey to this practice. I praise 
President Trump for the steps he has already taken to combat 
criminal organizations that engage in human trafficking, to 
strengthen programs supporting survivors, and also bring human 
traffickers to justice.
    I know several of you mentioned human trafficking in your 
testimony already, but can you please elaborate on how the 
current family reunification process and the current policy 
help combat human trafficking?
    Ms. Asher. So I can start from my point, sir, from ERO. As 
we have done as a longstanding process where our reunification 
primarily occurs at the time of removal, and that is a very 
well vetted process when the parent who happens to be in single 
adult custody at the time receives the removal, we are made 
aware that they have a child in the United States. We go 
through a process in asking if the individual would like to 
take their child back.
    As part of that vetting, we also look and ensure that the 
individual is essentially safe to return with their child. 
Probably one of the most important pieces to making that 
reunification specifically for removals is that we do have to 
have that removal cleared with consular officials from home 
country. So on a regular basis, on a daily basis, my officers 
work with consular officials to do those types of checks, as 
well as to confirm familial relationships and the like prior to 
issuing travel documents so that they can return to their home 
country.
    Mr. Reschenthaler. Is there anything that you think 
Congress can do that would help combat human trafficking?
    Ms. Asher. So I can certainly support that much more is 
needed in that realm. Under ICE, I am in Enforcement Removal 
Operations. My partners, HSI, Homeland Security, are the 
primaries in my agency conducting human trafficking, and 
undoubtedly they can always use more resources and stronger 
support from Congress to do the great work that they do in 
trafficking.
    I will defer to the Chief as well for her viewpoint.
    Chief Provost. I would just add to that we work closely 
with our partners at Homeland Security Investigations. This is 
an area focus for them, and any information that we have of 
suspected human trafficking we provide to HSI for 
investigation.
    Mr. Reschenthaler. Thank you. I appreciate it, and I yield 
back the remainder of my time.
    Ms. Scanlon. The gentleman from Maryland is recognized.
    Mr. Raskin. Thank you, Madam Chair.
    On June 20th, the President putatively ended his scandalous 
and dangerous family separation policy, but family separations 
are still happening at the border under a shadowy set of rules 
that apparently do not offer sufficient accountability or due 
process.
    The January Homeland Security OIG report found that at 
least 118 kids had been separated from their parents and placed 
in HHS care after the supposed end of the separation policy. 
The numbers may even be higher. In the ongoing lawsuit over 
family separation, the Federal Government just admitted that at 
least 245 families have been separated since late June.
    When the Texas civil rights group followed up on these 
cases, it found the parents often had no idea that they were 
being separated from their children or why. Dozens of other 
kids were also separated from adult siblings, cousins, 
grandparents, or other relatives.
    Now, there can be valid health or safety reasons to 
separate a child from a parent, such as where there are signs 
of child abuse or trafficking, but DHS does not appear to have 
a principled or consistent policy on family separations, and it 
does not give HHS enough information to know whether the 
separations are, in fact, justified.
    So, let me start with you, Chief Provost, if I may. Since 
the President's executive order, how many children have been 
separated from their parents who were apprehended by CBP either 
at ports of entry or between the ports?
    Chief Provost. I can speak to the numbers between the ports 
of entry, that area that I have. We have 304.
    Mr. Raskin. Okay. Who makes the determination to separate a 
child from his or her parents or legal guardian, and what are 
the criteria used in that process?
    Chief Provost. The criteria used are if they have a serious 
criminal conviction; if they have a medical condition, meaning 
the parent may have a medical condition and need to be 
hospitalized; if it is in the welfare of the child, if they 
present a danger to the child. Those are the instances in which 
we would separate them. As I stated----
    Mr. Raskin. Could I just ask you about that one? So what is 
the character of the inquiry or investigation about the welfare 
of the child? Are there social workers involved in that 
process?
    Chief Provost. As I said before, this is a temporary 
separation because we have to place into ICE custody. We work 
with the consulates as well, just like ICE does. We work with 
our counsel when it comes to the criminality issue in relation 
to them. ICE is not going to take somebody into their family 
residential centers where a parent has a serious criminal 
conviction, like I stated earlier. It is temporary.
    Mr. Raskin. So a criminal conviction, that seems like 
something that is definable. You can see it on paper. It 
exists. And if they have a medical condition, obviously if they 
are suffering a heart attack or something, they cannot take 
care of the kids. But welfare of the child, as we know, is a 
very big, slippery standard. So who is making that decision? 
The Customs agent?
    Chief Provost. My agents, working with our counsel or the 
consulates. We have an initial determination, and we err on the 
side of caution for the child based on laws on the books. We 
are following TVPRA. We are following for the concern of the 
child.
    Mr. Raskin. Do the parents have an opportunity to be heard 
during that process?
    Chief Provost. Of course. We interview them.
    Mr. Raskin. Is the decision to divide them from their 
children, is that an appealable decision?
    Chief Provost. HHS--yes. That is not--as I stated before, 
that is temporary. We give the parents information when we do 
the separation. We do track all of this. We provide the 
information to HHS----
    Mr. Raskin. Do you have written guidance for the agents?
    Chief Provost. We have guidance that has gone out since the 
executive order----
    Mr. Raskin. Can we see a copy of that? Can you show us the 
guidance? Do you have a copy of that guidance?
    Chief Provost. We can provide that.
    Mr. Raskin. So this goes out to every agent and says here 
are the steps that you follow?
    Chief Provost. We sent the guidance out once the executive 
order came out, and then, of course, Ms. L, we provided further 
guidance.
    Mr. Raskin. Okay. Do CBP officers receive training about 
how to make these determinations?
    Chief Provost. We receive training about dealing with 
family members from day one at the Border Patrol Academy. We 
are trained every year on TVPRA and on Flores. That is a 
recurring training for our agents on the law.
    Mr. Raskin. It has been reported that DHS may be separating 
U.S. citizen children from their parents at the border as well. 
Is that right?
    Chief Provost. I am not sure in relation to----
    Mr. Raskin. Well, if their parents are non-citizens but 
they are citizens, then there have been cases like that.
    Chief Provost. That would not be a reason for a separation 
from our perspective on it. It would have to be other 
circumstances that would revolve around it from Border Patrol.
    Mr. Raskin. Finally, does any Federal Government agency 
have the responsibility to track all of these children who have 
been separated from their kids today?
    Chief Provost. We provide that information to HHS. I do not 
know if the Commander wants to weigh in, Mr. Lloyd.
    Mr. Lloyd. Yes. So, any child referred to us, then we have 
responsibility to track those children.
    Mr. Raskin. Okay. So if someone is missing his or her child 
because they have been separated, you would be able to locate 
them today?
    Mr. Lloyd. Yes.
    Ms. Scanlon. The gentleman's time has expired.
    Mr. White. To clarify, ORR can identify at any given moment 
the location of every single child in care. We are also able, 
where appropriate, to say to whom we released a child. But we 
do not have any authority or oversight over a child who has 
been released from our care.
    Ms. Scanlon. Thank you.
    Mr. Raskin. Thank you.
    Ms. Scanlon. The gentleman from California is recognized.
    Mr. McClintock. Thank you, Madam Chairwoman.
    Commander White, I think you were the victim of a drive-by 
slander a few minutes ago. You and your colleagues were all but 
accused of being serial child molesters and were not given a 
chance to respond. Would you like to respond now?
    Mr. White. We share the concern that I think everyone in 
this room feels. Any time a child is abused in the care of ours 
is one time too many. We abide fully with the laws this 
Congress has passed in terms of PREA--I mean the Prison Rape 
Elimination Act and the Violence Against Women Act--and we are 
very proud of our outstanding track record of full compliance, 
including referring every allegation, every allegation for 
investigation. And the vast majority of allegations prove to be 
unfounded when they are investigated by state law enforcement 
and Federal law enforcement and the state licensure authorities 
to whom we refer them.
    It is important to note, I am not aware of a single 
instance anywhere of an allegation against a member of the ORR 
Federal staff for abuse of a child, and I apologize if I 
sounded forceful in refuting that statement. To be clear, 
however, that has not happened.
    Mr. McClintock. Under the circumstances, I think you were 
remarkably restrained, and I am embarrassed that such a 
question would be put to you in this committee. I think I speak 
for many of my colleagues.
    Chief Provost, I am still trying to get a grasp of the 
fundamental principles here. It is a misdemeanor to cross the 
border illegally. Correct?
    Chief Provost. That is correct.
    Mr. McClintock. And it is actually a felony to cross the 
border after being deported.
    Chief Provost. Yes, sir.
    Mr. McClintock. Now, any other crime for which we make an 
arrest, we arrest the perpetrator. Correct? We do not arrest 
the children of a perpetrator.
    Chief Provost. Yes, sir.
    Mr. McClintock. So, for example, if an American citizen is 
arrested for drunk driving with a toddler in the back seat, we 
arrest the perpetrator and we take the toddler into protective 
custody until we can reunite them with their family. Is that 
accurate?
    Chief Provost. Yes, sir.
    Mr. McClintock. Well, to Ms. Bass' point, then, who makes 
that immediate decision? Is it the arresting officer, or is it 
a judge or social worker?
    Chief Provost. I cannot speak to--well, when I was in local 
law enforcement before joining the Border Patrol, just like we 
work with HHS----
    Mr. McClintock. You made that decision when you took the 
perpetrator into custody. Correct?
    Chief Provost. They work with CPS to turn the child over, 
much like we turn them over to HHS.
    Mr. McClintock. So what we are calling family separation is 
exactly the same process as for any other arrest. We arrest the 
perpetrator, and then we take the child into protective custody 
and take care of the child until we can find a family member to 
put them back in custody with. Is that accurate?
    Chief Provost. I would say that is accurate, yes.
    Mr. McClintock. It seems to me that there are essentially 
just two alternatives to this particular practice. We can 
arrest and incarcerate the child for the crime of the parent, 
which to my ear sounds completely medieval, or do not arrest 
the perpetrator, do not enforce the law, in which case the law 
means precisely nothing. Is there any other alternative you can 
think of?
    Chief Provost. This comes back to the outdated laws that 
have an impact on our ability or on ICE's ability to detain 
families temporarily together until they can have, from the 
administrative side, an immigration proceeding.
    Mr. McClintock. So basically we arrest the perpetrator and 
take care of the child. That is our current policy. The two 
alternatives are arrest the child for the crime of the parent 
or do not enforce the law. Obviously, my colleagues on the left 
reject the first policy, so obviously they are arguing for one 
of the two others, and frankly I just do not understand that.
    But just to be clear, the zero-tolerance policy we keep 
hearing about, that simply means enforce the law in the same 
manner as we enforce any other law?
    Chief Provost. Yes, sir. It is a prosecution initiative. 
Actually, of the timeframe from May 5th through June 20th, when 
adults that had children with them were a part of that group, 
they made up 40 percent--family units made up 40 percent of our 
apprehensions. It was approximately 10 percent of the 
prosecutions were individuals that had children with them.
    Mr. McClintock. Let me ask you this. If we do not enforce 
our immigration law, then what exactly do our borders mean? Do 
they mean anything?
    Chief Provost. My experience in my 27 years in law 
enforcement is if we do not enforce the law and there is no 
consequence for violating the law, people continue to violate 
those laws.
    Mr. McClintock. Is there a legal way to enter our country?
    Chief Provost. Through a port of entry.
    Mr. McClintock. How many people legally enter our country 
every year?
    Chief Provost. Huge numbers.
    Mr. McClintock. So those who enter our country illegally, 
they do have a legal way to apply for entry; they simply choose 
not to do it. They simply choose to break the law.
    Chief Provost. Coming between the ports of entry is a 
violation of the law, yes.
    Mr. McClintock. Thank you for your earnest efforts to 
enforce the law and defend our country.
    Ms. Scanlon. The gentlewoman from Washington is recognized.
    Ms. Jayapal. Thank you, Madam Chair.
    And let me just remind anybody that might be watching, it 
is legal to seek asylum. It is, in fact, not just legal within 
our laws, it is legal within the human rights conventions that 
we are party to. So when the gentleman asks about whether 
people should come through legal ports of entry, let me also 
just remind people that the Trump Administration tried to ban 
asylum seeking and started the process of metering, which then 
prevented people from coming through legal ports of entry to 
actually take advantage of a process that is legal.
    Everybody knows that I have been haunted by what I heard 
from 176 women in a Federal prison. I was the first member of 
Congress to go and speak to these women who were asylum seekers 
who had been ripped apart from their children, and I am a 
parent and it haunts me to this day.
    Chief Provost, are you a parent?
    Chief Provost. Yes, I am.
    Ms. Jayapal. Ms. Asher.
    Ms. Asher. Yes, I am. And a grandmother.
    Ms. Jayapal. Thank you.
    Mr. Lloyd.
    Mr. Lloyd. Yes, Congresswoman.
    Ms. Jayapal. Commander White.
    Mr. White. Yes, ma'am.
    Ms. Jayapal. Director McHenry.
    Mr. McHenry. I am.
    Ms. Jayapal. I think it is critical that we ask that 
question because we are talking about children, and we are all 
parents who understand what that means. So as parents, I do not 
think anybody on this panel would argue that you would be not 
devastated if the government tried to forcibly separate you 
from your children, including, by the way, a breast-feeding 
baby that was taken.
    Commander White, you testified on February 7th in the House 
Energy and Commerce Committee that you as an expert on child 
welfare had expressed concerns to Mr. Lloyd specifically that 
family separation--and these are your words--``would be 
inconsistent with the Office of Refugee Resettlement's legal 
requirement to act in the best interest of the child and would 
expose children to unnecessary risk or harm.'' Is that correct?
    Mr. White. That is correct.
    Ms. Jayapal. And, in fact, Commander White, you testified 
that you warned three Trump appointees about the potential 
health risks of family separation more than a year in advance 
of this policy. Is that correct?
    Mr. White. Yes, ma'am.
    Ms. Jayapal. Commander White, I want to thank you for 
raising these concerns repeatedly and for having at least a 
sense of compassion and moral obligation that seems to be 
completely missing from anybody else.
    Mr. Lloyd, you were the head of ORR, the primary agency 
tasked with caring for these children. When Commander White, as 
a child welfare expert, warned you about the cruel consequences 
of family separation, were you concerned? Yes or no is fine.
    Mr. Lloyd. I accepted what he told me, yes.
    Ms. Jayapal. So you were concerned, or not? You obviously 
were not----
    Mr. Lloyd. He reported what the consequences would be, and 
I listened to what----
    Ms. Jayapal. So you heard his deep concerns, and you at 
that point, according to the October 2018 Government 
Accountability Office report on family separation--this is at a 
time when ORR officials noted to you that there was more than a 
10-fold increase in children separated from their parents in 
2017--did you take any actions whatsoever to address those 
concerns?
    Mr. Lloyd. Yes, we did. So in the----
    Ms. Jayapal. Make it brief, please.
    Mr. Lloyd. In the end of 2017, Commander White noted to me 
why we were seeing it in our field, and so we followed up on 
what had been anecdotal reports of these----
    Ms. Jayapal. Did you do anything to start tracking the 
children?
    Mr. Lloyd. Yes, absolutely.
    Ms. Jayapal. Did you ask DHS to make sure that your agency 
had what it needed to eventually reunite children with their 
parents?
    Mr. Lloyd. We did communicate with DHS regarding----
    Ms. Jayapal. I just want to remind you that your testimony 
here is under oath. According to GAO--this is a quote--``ORR 
officials noted that they considered planning for continued 
increases in separated children but did not do so because DHS 
officials told them that DHS did not have an official policy of 
separating parents and children.''
    Did you tell ORR officials not to engage in any planning, 
Mr. Lloyd?
    Mr. Lloyd. No, I did not.
    Ms. Jayapal. And your employees, many of whom are child----
    Mr. Lloyd. May I clarify that?
    Ms. Jayapal. Briefly.
    Mr. Lloyd. So planning is something that--so I never 
directed anybody to not plan. We----
    Ms. Jayapal. You did not direct anybody to not plan, and 
you did not direct anybody to plan to ensure----
    Mr. Lloyd. It is not true.
    Ms. Jayapal [continuing]. That we could actually address 
the serious concerns raised by Commander White, a child welfare 
expert, about the long-term consequences to these children.
    Commander White, when children are separated from their 
parents, even if they are reunited three months or six months 
later, can you tell me if the impact on those children for 
their entire life is potentially devastating to them?
    Mr. White. The best available evidence is that separation 
of children from parents entails very significant and 
potentially life-long risks of psychological and physical harm.
    Ms. Jayapal. Very significant and potentially life-long 
impacts.
    Mr. Lloyd, you were the head of this agency at the time of 
family separation, and you did not even allow your staff to 
continue to do a spreadsheet that tracked where people were. 
You did not put into place any policies that would pull this--I 
do not even have words for it--pull this horrendous policy 
back.
    Did you ever say to the Administration, ``This is a bad 
idea; here is what my child welfare experts have told us; we 
need to stop this policy''? Did you once say that to anybody 
above you?
    Ms. Scanlon. The gentle lady's time has expired, but you 
may answer the question.
    Mr. Lloyd. To answer your last question, I did not say 
those words.
    Ms. Jayapal. You never said that to anybody, you never told 
anybody that this was a deeply harmful policy.
    Madam Chair, I believe that this is just outrageous. I get 
worked up every time I see it because I see that nobody is 
actually taking this--I should not say nobody. Commander White 
has. People are not taking this seriously in terms of the deep, 
long-term effects on these children.
    Madam Chair, I yield back.
    Mr. Collins. I have a parliamentary inquiry. How many 
questions do you get past your 5 minutes? And how long do you 
get to enter into a diatribe? That is my parliamentary inquiry. 
Are we going by the 5-minute rule?
    So is there no response to my parliamentary inquiry?
    Ms. Scanlon. That is not a parliamentary inquiry, but the 
gentlewoman from Florida is recognized.
    Mrs. Demings. Thank you so much, Madam Chairwoman.
    Let me just thank our witnesses for being here.
    Look, it appears to me that you have been given an improper 
and unjust order, and the person who is ultimately responsible 
for the mess that has been created, the self-inflicted wounds, 
is not in this room.
    I served as a 27-year law enforcement officer as well, 
Chief. Thank you for your service. But before that I served as 
a social worker, working with foster care children. Children in 
America have a tough enough time, but when they are placed in 
foster care, separated from their parents, the emotional, 
psychological damage, as you have already said, can have 
lasting results, and we are talking about kids who many times 
have been physically abused or emotionally or sexually abused.
    But it was interesting with those children, no matter how 
difficult the home situation may have been, they yearned and 
longed to be reunited with their families.
    The mess that we have here today has been self-created and 
self-inflicted, and with all of America's challenges, it amazes 
me that we would create this mess at the border and then 
require the men and women of CBP and others to make it right.
    I had a zero-tolerance policy too as a police chief. You 
know who it was for? For murderers and rapists and robbers and 
other people who committed violent crime, not people trying to 
get across the border who had committed no violent offense, 
just trying to make a better life for their families.
    I am ashamed of my colleagues' statements across the aisle. 
We can do better than this.
    Chief, I would like to know, if we can begin with you, what 
is your zero--what does that mean, your zero policy? What is 
that? And I know it was not yours, but you are charged with 
carrying it out. So what do you believe it is?
    Chief Provost. So, the zero-tolerance policy, in 
conjunction with the Department of Justice, is to attempt to 
prosecute all violators of USC 1325, single adults at this 
point, who cross the border illegally----
    Mrs. Demings. Which is a misdemeanor.
    Chief Provost. The first time it is a misdemeanor, yes.
    Mrs. Demings. And we are prosecuting--you know what? As a 
police chief, I sure wish I could have prosecuted every person 
who shoplifted, but it was an undue burden on the resources, 
and that is why there is a mess at the border, because the 
resources have been strained trying to prosecute every person.
    I heard my colleague say that if a person crossed the 
border, is that not a misdemeanor and should we not enforce the 
laws? Well, let me tell you this: If a woman crossed the border 
who was being chased by a man with a knife trying to stab her, 
would you arrest her?
    Chief Provost. I still have an obligation to----
    Mrs. Demings. Would you arrest her?
    Chief Provost. I would arrest her for----
    Mrs. Demings. And ultimately, would you prosecute her?
    Chief Provost. I would not in that case, but we are not 
prosecuting everyone that comes across.
    Mrs. Demings. Let us talk about the two children who died 
in government custody, what we ought to be doing if we are 
going to stay in the family separation business, and Lord knows 
I hope we do not. We ought to make sure that what happened to 
those children--you know, as a police chief, yes, we arrested 
parents, but we took every effort to make sure that the 
children who were already traumatized were taken care of. They 
do not deserve what has happened to them. We have victimized 
them and victimized them over and over again.
    So, we had two children that died, an 8-year-old and a 10-
year-old. What policies have changed in your operations to 
prevent children in your custody--because if a child died in 
our custody as law enforcement, we took it very seriously. We 
took every step--something had to change. What policies have 
changed to make sure that children, who are not the violators, 
do not die in your custody?
    Commander White or Chief, who would like to answer that 
question?
    Mr. White. I am going to have to defer to CBP. Those 
children were not in ORR care. They were with CBP.
    Chief Provost. Those two tragic losses of life were in 
Border Patrol custody. As you mentioned, it is a tragedy. We do 
everything, my men and women do everything within their 
abilities to take care of----
    Mrs. Demings. What policies--I am sorry, but my time is 
running out. What policies have changed since the two children 
died to now to prevent that from happening?
    Chief Provost. We make a 100 percent medical screening on 
all juveniles that come into our custody. That is one----
    Mrs. Demings. And you were not doing that before?
    Chief Provost. That is correct.
    Mrs. Demings. Okay.
    Chief Provost. That is the main thing. Obviously, we 
provide--we have always provided medical care, emergent medical 
care to anyone. But since then, whether you are a contractor, 
our own EMTs, other support across the southwest border, every 
juvenile, every child under the age of 18 is medically screened 
upon apprehension.
    Mrs. Demings. Thank you.
    Thank you very much, Madam Chairwoman. My time has run out.
    Ms. Scanlon. Okay. Thank you.
    The gentleman from Virginia is recognized.
    Mr. Cline. Thank you, Madam Chair. Thank you for the time.
    I want to follow on the comments of my colleague. I would 
agree with her that there is a mess at the border. It is more 
than a mess, in my view. Some would say it is a crisis. Some 
would even say it is an emergency. I would call it an 
emergency.
    And I know that we have several types of emergencies. What 
we are hearing about today, the humanitarian emergency that we 
have at the border is real, and we must do all that we can to 
stop the humanitarian emergency at the border.
    We have an emergency, human trafficking emergency at the 
border. We have a sex trafficking emergency at the border. We 
have a drug trafficking emergency at the border. So in all 
these ways, I want to thank especially, Chief Provost, your men 
and women on the Border Patrol, working every day to address 
this emergency that we have at the border.
    And as you have said earlier, this is having a significant 
impact on your ability to recruit and retain officers to help 
address this crisis. Would you say that the events that you 
spoke of, the assaults, the treatment of your officers in the 
interior of the country, can you expand a little bit more on 
the ability of your agency to recruit to make sure that we 
address this emergency?
    Ms. Asher. So, sir, I am with ICE, and so I deal with the 
interior, as we had discussed before. And as far as it relates 
to their problems in recruiting, there is a challenge in 
getting the individuals who have law enforcement, military 
background to be interested or willing on the occasion to 
support in particular the interior enforcement mission of ICE. 
And sadly, it is because of a lot of negativity, the fact that 
we are compared to Gestapo, the Ku Klux Klan unfairly.
    Every one of my officers, as I have done in the last 20-
plus years in this capacity under several administrations, we 
take an oath to uphold the laws, and those are the laws that 
are passed by Congress. So with a combination of laws and 
policies and executive orders from administration to 
administration, I would argue that the enforcement of the 
immigration laws at the Federal level is by far one of the most 
challenging.
    Mr. Cline. We have a bill up on the floor this week dealing 
with the instant background checks for firearm purchases. One 
of the factors, one of the reasons for denial is illegal 
status, if you are in the country illegally. Would it help you 
all to enforce our immigration laws if you all received 
notification from NICS as to which individuals are actually 
trying to buy firearms in this country illegally because they 
are in the country illegally?
    Ms. Asher. Without question, yes. The more information that 
we have on an individual, negative or positive, allows us to 
make those case-by-case determinations.
    Mr. Cline. Thank you.
    I offered that amendment at Rules last night. 
Unfortunately, it was not allowed in order.
    Chief Provost, I know that Border Patrol agents conduct 
hundreds of rescues of people who are illegally crossing. Can 
you give us some examples of the good work that U.S. Border 
Patrol does in that area and give us an idea of the number of 
rescues your agency conducts in a given time period?
    Chief Provost. Yes, sir. I can tell you that last year, in 
fiscal year 2018, we rescued over 4,300 people. My agents have 
rescued over 1,000 people already this year. Just last week, I 
had agents in Eagle Pass jump into the river and extract a 12-
year-old boy who was not breathing. They performed CPR and 
revived him.
    Those are the things that don't get told. Those are the 
stories that don't get out, all of the amazing work that my men 
and women do, day in and day out, that make me so proud to be 
here representing them.
    Mr. Cline. We are grateful to you.
    Thank you all, and I yield back.
    Ms. Scanlon. Thank you.
    And I will recognize myself for 5 minutes.
    First of all, I want to enter without objection an article 
from Vox over this weekend, entitled Hundreds of Families Are 
Still Being Separated at the Border.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Ms. Scanlon. As I have been listening here, I have been 
struck a couple of times by the denial of humanity of many of 
these families and children. When the issue is framed as an 
invasion by aliens and when we refer to children as UACs, it is 
easier to pretend they are not human or worthy of compassion. 
When you say that the cause of migration is legal loopholes or 
bad judicial decisions rather than the dire conditions of 
violence and poverty in these people's home countries that is 
literally driving them from home, it gets easier to slam the 
door against these kids and these families.
    This hearing is a recognition and an insistence on that 
humanity, a recognition that the Flores decision also addressed 
and a recognition that just following orders is no more an 
excuse today than it was back in Germany.
    I have also been struck that the introductory testimony of 
the witnesses focused on efforts to reunify families after the 
border separations, the family separations were exposed and 
after a Federal court ordered it. But in our oversight 
capacity, we want to know how this un-American policy got put 
in place in the first place and prevent it from happening 
again.
    So, you know, there has been a claim the families are only 
being separated when there is just cause. During my visit to El 
Paso 3 weeks ago, we met with a family that had been separated 
when there had been no criminal conviction, there was no health 
issue, there was no allegation that the mom was unfit. So my 
question, I guess for Chief Provost, is what written guidance 
do Customs and Border Patrol agents have at this point in time 
for when to decide to do family separation?
    Chief Provost. We have the guidance that I mentioned 
earlier that has been sent out to the field in relation to 
criminal prosecutions, a danger to the child, a medical 
condition that would cause separation, if the parent had to be 
hospitalized, for example.
    Ms. Scanlon. Okay. I was a little unclear because you 
talked about different times when there were different 
policies. So is there a current written policy?
    Chief Provost. Since--since June 20th and the executive 
order, that is the guidance that has been placed out to the 
field when it comes to family separations.
    Ms. Scanlon. Is that one document?
    Chief Provost. I can't say for certain, but we can provide 
the document.
    Ms. Scanlon. Okay. If you could provide that document, I 
would appreciate it.
    How about before the executive order? Was there written 
guidance at that time?
    Chief Provost. The same type of guidance, following the 
laws set through whether it is TVPRA, the PREA. All of those 
laws impacted how we have worked. Those cases, prosecution was 
one of those, so the criminal activity. It has been the same 
guidance when it comes to reasons that we would have separated 
prior to zero tolerance.
    Ms. Scanlon. Okay. So the only change in the policy was 
during the zero-tolerance period?
    Chief Provost. It wasn't a change because it was still for 
a criminal prosecution, which would impact the separation.
    Ms. Scanlon. But that is when criminal prosecution was 
because you were going to criminally prosecute parents at that 
point?
    Chief Provost. We had criminally prosecuted parents 
previously as well. The numbers increased during that 
timeframe. As I stated before----
    Ms. Scanlon. Because there was a decision made to 
prioritize prosecution of parents during that period?
    Chief Provost. No, the decision was not made to prioritize 
prosecution of parents. The decision was made to prioritize 
prosecutions, as I stated earlier, during that timeframe from 
May 5th through June 20th when parents were included. Only 
about 10 percent of our prosecutions were family members, while 
at the time when 40 percent of our apprehensions were family 
units. I would not say it was a prioritization.
    Ms. Scanlon. Okay.
    Chief Provost. It was part of the group.
    Ms. Scanlon. Okay. So does Customs and Border Patrol ever 
review family separations?
    Chief Provost. We work with our Office of Chief Counsel. If 
there are any allegations, our Office of Professional 
Responsibility or DHS's Office of Inspector General does 
investigations into those allegations.
    Ms. Scanlon. Okay. One more quick question for Mr. Lloyd. 
There was a discussion about the concerns that have been raised 
by Commander White concerning family separations and the mental 
health impact that it could have. Did you ever consult with any 
mental health professionals or get any advice from them on how 
to implement family separation?
    Mr. Lloyd. The advice that Commander White would have 
imparted to us would be done in consultation with mental health 
experts whom we have on staff, and I would just add that there 
was nothing surprising about the determination that there could 
be mental health consequences through separation from a parent 
for any period of time. It is something we took under 
advisement.
    And once we started seeing changes in our referrals at the 
end of the summer----
    Ms. Scanlon. Okay. I see my time has expired. So I want 
to--if you could provide us with the credentials and any 
written communications regarding your consultations about 
mental health, we would appreciate it.
    Okay. At this point, I would recognize Ms. Garcia, the 
gentlewoman from Texas.
    Ms. Garcia. Thank you, Madam Chair.
    And I am so deeply troubled by a lot of what has been said 
today. It is almost hard to even begin because this is just 
such a, in my view, so inhumane and unconscionable that I just 
sometimes can't even deal with it. So I want to first start by 
thanking you, Commander White, for at least at some point 
objecting to the separation and bringing to light, at least to 
those that might listen, that this could have lasting effects.
    I wanted to ask all the other members of the panel, did you 
all ever object at any point in this process to your superiors 
or to someone that might listen that this was harmful and not a 
good idea? And I will start with you, Director McHenry.
    Mr. McHenry. Again, we don't usually typically comment on 
internal discussions. But this is a prosecution policy. It was 
vetted. It was discussed internally----
    Ms. Garcia. Well, I am not talking prosecution.
    Mr. McHenry [continuing]. With career prosecutors.
    Ms. Garcia. I am just talking, didn't you ever just think 
this really goes against humanity, we should not be doing this? 
I am not asking you to share a discussion with the Attorney 
General or anyone else. You, as a human being, did it ever 
strike you to just say, wait a minute, guys, I know I am a 
lawyer, but----
    Because I am a lawyer and I am a former judge, too. And 
sometimes I saw some things that I didn't like, and I would 
speak out. And you never did that?
    Mr. McHenry. No, we understand the concerns and the 
sensitivities. But again, the focus----
    Ms. Garcia. Sir, I have asked you a question. If you would 
please answer yes or no?
    Mr. McHenry. Did I? No.
    Ms. Garcia. Thank you.
    Mr. Lloyd.
    Mr. Lloyd. The effects----
    Ms. Garcia. It is real simple, sir. Did you ever just say 
this really goes against humanity, we should not be doing this 
to children?
    Mr. Lloyd. I did not say anything along those lines. As a 
parent and a fellow human being----
    Ms. Garcia. Did you ever think of your own child and what 
would happen if somebody took your child from you?
    Mr. Lloyd [continuing]. I did have concerns about the 
children. That is why we labored. I saw my role as managing the 
program that labored to give the children that were involved 
the best care that they possibly could have. I am proud of our 
record and the care that we gave to them.
    Ms. Garcia. But your answer is no. All right. Thank you.
    Ms. Asher.
    Ms. Asher. I did not voice in that exact term, no. However, 
I don't want it to be lost on anyone that we in law 
enforcement, you know, we--many of my officers are parents as 
well. And of course, it is a difficult situation----
    Ms. Garcia. Well, I could tell you that one of the--I have 
visited many facilities. I visited one in the valley when the 
unaccompanied minor issue first came to light, and I have 
visited ORR facilities. I have visited CBP, all these 
facilities. And I can tell you that some of your officers don't 
feel good about it and shared that with me.
    I am just wondering if you are just as human as them and 
ever said anything to anyone?
    Ms. Asher. As I said, I did not raise it to my superiors. 
But again, neither I nor my officers in ERO, I don't think it 
is fair to say that it doesn't bother those as well.
    Ms. Garcia. The answer is no, I get it. I am losing time 
here.
    And Chief?
    Chief Provost. As you stated, this is a difficult 
situation, and it is for any law enforcement professional, my 
men and women as well. But as law enforcement professionals, it 
is our job to enforce the law.
    Ms. Garcia. It is a job, and you just moved on? I thank 
you.
    Chief Provost. No.
    Ms. Garcia. Now I want to ask Mr. Lloyd a question. I 
wanted to follow up with my colleague Sheila Jackson Lee's 
question about the Southwest key facility in her district, 
which borders mine and impacts my district. So I thought your 
answer was sort of disingenuous. Did you tell her that it 
wasn't up to you to license that facility, or what exactly did 
you mean?
    Mr. Lloyd. I would preface this by saying I am not sure 
which exact facility you are referencing and----
    Ms. Garcia. It is one that wants to open. She doesn't want 
opened. I don't want it open. I don't know anybody that wants 
it open.
    Mr. Lloyd. Sure. So you are talking about one that is--yes, 
and so you are talking about one that is to open, and I am no 
longer involved in the day-to-day operations of----
    Ms. Garcia. No, I realize that.
    Mr. Lloyd. So, but our----
    Ms. Garcia. I sent you a letter earlier this month on 
February 14th asking some questions about this, and I have not 
gotten a response.
    Mr. Lloyd. And you can expect a reply to that, but the 
reference that you questioned about was our residential 
facilities are first licensed by the State before we open them. 
And that is part of our standard procedure----
    Ms. Garcia. All right. But you fund them. So unless they 
know that you are going to give them money to open, they don't 
go to the State to get a license. I think we need to put it on 
the record that you fund them----
    Mr. Lloyd. Our residential facilities----
    Ms. Garcia. Yes.
    Mr. Lloyd [continuing]. Must be licensed before they can 
open.
    Ms. Garcia. That is right. But they wouldn't bother 
opening, they wouldn't bother trying to operate unless they 
knew you had a contract or were going to give them the money. 
So you drive all this.
    Mr. Lloyd. Again, I can't speak to--I am not even sure 
which facility you are speaking to.
    Ms. Garcia. I am talking about any facility, sir. Somebody 
pays for them----
    Ms. Scanlon. The gentlelady's time has expired.
    Mr. Lloyd. Right. And so we fund the facility, and we get 
it licensed by the State, and then it operates.
    Ms. Garcia. It all works together?
    Mr. Lloyd. Yes.
    Ms. Scanlon. Okay. Thank you.
    The gentleman from Louisiana is recognized.
    Mr. Johnson of Louisiana. Thank you. And thank you all for 
being here. I know it has been a long day. We appreciate your 
patience.
    I have just a couple of questions for Director McHenry 
first. As the Director in charge of overseeing the DOJ's 
mission to review and adjudicate immigration cases, do you 
believe the unprecedented surge in family units crossing the 
Southern border has exposed faults in the credible fear 
standard under our asylum law?
    And if you have answered some of these questions already, I 
apologize. We are coming in and out because we have other 
meetings today, too. But----
    Mr. McHenry. It is clear that the increased number of 
credible fear cases is contributing to the increased backlog, 
particularly in the past couple of years.
    Mr. Johnson of Louisiana. I have found it a bit absurd 
since I got to Congress to look into all this, and to think as 
a result of the Flores agreement, we expect our immigration 
court system to interview an alien, usually for credible fear, 
and then subsequently have a hearing before a U.S. immigration 
judge and adjudicate their case within 20 days. I mean, I was a 
practicing attorney. It is just not a feasible timetable.
    And just last year alone, I know you reported 99,035 people 
applied for asylum in the U.S. And of that, over 74,000 were 
found to meet the criteria of credible fear on the front end, 
but then after appearing before an immigration judge, only 16 
percent of those cases were later confirmed to be truly 
legitimate.
    So we have got this current backlog of over 800,000 cases. 
It is just an untenable situation. So Ranking Member Collins 
and I have introduced legislation to try to fix some of these 
loopholes and address some of these frivolous claims.
    But do you think it is possible that under the current 
relaxed credible fear standard that that can act as a catalyst 
for Southern border crossings, and how exactly does it endanger 
families in the process? I mean, that is what we are trying to 
get to the nut of to try to fix.
    Mr. McHenry. I would defer a little bit to my colleagues 
from Department of Homeland Security, first, because they 
actually implement the credible fear process and, second, 
because they are more versed in terms of what factors would 
lead to increased border crossings. From our perspective at 
EOIR, as I said, it certainly caused an increase in the number 
of cases that we have seen, especially in the last 2 years.
    Based on the numbers that we see, out of about every 100 
credible fear claims, only about 8 to 10 will ultimately end up 
getting asylum. The rest go through the system. They take time. 
They take up resources. So it is definitely an area of concern. 
But again, on the operational side, I would defer to the 
Department of Homeland Security.
    Mr. Johnson of Louisiana. I want to get to them, but one 
more question for you before I move on. The EOIR statistics 
show that the vast majority of Central Americans are ultimately 
found not eligible for asylum, and some have said that those 
individuals could be eligible for some other form of protection 
like under the withholding of removal or protection under the 
U.N. Convention against Torture.
    Those aren't reflected in the asylum statistics, however, 
as I understand it. So do you know what percentage of Central 
Americans found not eligible for asylum are, in fact, granted 
withholding or relief under CAT?
    Mr. McHenry. I don't have the percentages with me, and I 
don't have all of Central America. But we do know for the 
Northern Triangle, the raw numbers for those who began as a 
credible fear claim, it is less than 160 that are granted 
withholding and less than 320 who are granted CAT, at least in 
the last fiscal year. So the numbers are relatively small.
    Mr. Johnson of Louisiana. I appreciate that. And on this 
issue of the credible fear problems with the implementation and 
asylum, what would DHS say about that, Homeland Security? 
Anybody want to weigh in on that?
    Chief Provost. From CBP's side of this, I can tell you that 
everyone who makes a credible fear claim is referred, whether 
prosecuted, not prosecuted. We have seen an increase, a 
dramatic increase in the last few years of credible fear claims 
from individuals that are crossing the border, but that 
ultimately lies with our partners at USCIS when it comes to the 
determinations and the initial determination.
    We provide that information. We ask questions of everyone 
to make a determination of whether or not they have a fear of 
returning to their country. That is logged in our system of 
record, and then that information is provided forward through 
ICE and on to CIS.
    Mr. Johnson of Louisiana. Do you know why that spike 
occurred a few years ago? I mean, it was under the Obama 
administration. Was it--our theory is that there was some 
directive that came down from on high that we should be easier 
on that determination, but what do you think?
    Ms. Asher. Well, I can't speak to specifically what is in 
CIS's lane that relates to, you know, constitutes the framework 
for credible fear. Another observation I can share is the rate 
in which individuals who come to our custody who have been 
processed as expedited removal that is at the time of encounter 
with our colleagues in Border Patrol, Chief Provost's agents 
ask them do you have a fear to return to your country? Many of 
them say, no, they do not.
    However, once these individuals have been transferred to my 
custody, as they are mandatory detention, it happens on a 
regular basis and it has been happening on an increasing basis 
that these individuals then change their claim and then say now 
they have a fear to return to their country. That then cancels 
out the expedited removal, and then my officers have to put the 
individual into the credible fear process.
    Mr. Johnson of Louisiana. I am out of time. I wish I could 
explore that further, but thank you.
    I yield back.
    Ms. Scanlon. Thank you.
    We recognize the gentleman from Colorado.
    Mr. Neguse. Thank you, Madam Vice Chair, and thank you to 
the witnesses for appearing before the committee this 
afternoon.
    As the son of African immigrants, this issue hits very 
close to home for me. Over 35 years ago, my parents came to 
America as refugees from a war-torn country in East Africa. So 
I can only begin to understand the plight that many of these 
families fleeing their home countries must feel.
    Also as a new father, my wife and I have a 6-month-old 
daughter, our first child, I cannot imagine to be forced to be 
separated from her. And so the thought that even one family 
separation could have been prevented outrages me, and it is 
this that I want to ask you about today.
    The Department of Homeland Security Inspector General 
report, which I believe the witnesses have with them at the 
table there, released in September 2018, found that CBP may 
have been able to avoid reuniting some families. Several 
parents separated from their children, prosecuted under the 
zero-tolerance policy, were quickly returned to CBP custody 
where their children may have still been waiting for them.
    However, instead of readmitting them and reuniting parents 
with their children, CBP chose to have adults transferred to 
ICE custody. The report reveals, and I will quote here, 
according to a senior official who was involved with this 
decision, ``CBP made this change in order to avoid doing the 
additional paperwork required to readmit the adults.''
    And so I want to give Chief Provost a chance to talk about 
this. Obviously, my view is it is absolutely astounding to hear 
that even a single case of family separation could have been 
avoided, let alone many.
    So, you know, first, Chief Provost, are you familiar with 
this particular finding in the IG's report?
    Chief Provost. I believe I am following what you are 
mentioning referenced in the report, yes.
    Mr. Neguse. And I guess, can you explain to the committee 
why some CBP officials thought excessive paperwork would be a 
sufficient reason to keep families separated, maybe even 
permanently?
    Chief Provost. I am not aware that anything to do with 
paperwork. I can tell you that, meaning from my perspective and 
anything that I have had access to information, I can tell you 
that we reunited 500 and some individuals that were in our 
custody when the executive order came down versus continuing 
with the process that we had. And I don't know if that caused 
part of the--or not.
    Mr. Neguse. I understand that with respect to after the 
executive order was issued. What I am referencing is this 
particular point, and again, I will quote directly from the 
Inspector General's report. ``CBP made this change in order to 
avoid doing the additional paperwork required to readmit the 
adults.''
    So, I mean, I want to give you a chance to respond to this 
IG's finding because it is a very concerning finding that 
paperwork would have been the driving factor behind not 
reuniting these parents with their children.
    Chief Provost. I am not aware of that and have never had 
that experience. We worked with HHS to reunite, and as I said, 
anybody within our custody, we reunited immediately, and 
everybody else, we worked directly with HHS and our partners at 
ICE to try to reunite--or to try to provide the information 
that they needed to help do the reunifications.
    Mr. Neguse. Well, I guess what I would say, Provost, is we 
will follow by letter because I think it is important to get to 
the bottom of precisely why. I mean, apparently, there were 
some folks within the agency that chose to not do that by 
virtue of this reason around the paperwork. But we will follow 
up.
    The last question I have is for Mr. Lloyd, and Mr. Lloyd, I 
want to give you an opportunity--I believe it came up before. 
So I apologize if I am re-referencing something you have 
already discussed. But I just want to make sure we have a 
chance to kind of clear the record.
    There is a Politico article, October 23, 2018. And the 
article references, and I will just quote from it, ``three 
individuals with knowledge of the operation,'' reference to the 
separation of children from their parents, said Mr. Lloyd made 
``decisions that complicated reunifications. For instance, 
Lloyd directed his staff to stop keeping a spreadsheet tracking 
separated families.''
    Is that true?
    Mr. Lloyd. No, it is not.
    Mr. Neguse. It is not true?
    Mr. Lloyd. It is not true.
    Mr. Neguse. All right. Thank you.
    And with that, I will yield back to the vice chairman.
    Ms. Scanlon. Thank you.
    Recognizing the gentleman from Arizona.
    Mr. Stanton. Thank you very much, Madam Chair.
    I want to thank the witnesses. It has been a long hearing 
and still more to go. This is a very, very important hearing on 
an issue that the American people are paying close attention 
to, the shock that we could have, as a government, separated 
children from their families.
    The questions I have will start out with when exactly this 
policy began. So my first question is to Mr. McHenry. You 
referred in your written testimony that on April 11, 2017, a 
full year before the zero-tolerance policy, for first-time 
entry, misdemeanor 1,325 cases are publicly acknowledged. On 
April 11th, then-Attorney General Sessions directed all U.S. 
attorney's offices along the Southwest border to work with DHS 
to develop new guidelines for prosecuting 1,325 cases.
    General Sessions directed that the new guidelines be 
submitted to the Deputy Attorney General by April 24, 2017. Did 
the U.S. attorney's office submit those guidelines as directed?
    Mr. McHenry. It is my understanding that the U.S. 
attorney's offices complied with the directive in 2017.
    Mr. Stanton. Can you provide those memos, as well as any 
other related documents, such as agreements between the U.S. 
attorney's office and Customs and Border Patrol, to this 
committee?
    Mr. McHenry. I will take that request back and discuss it 
with our Office of Legislative Affairs.
    Mr. Stanton. Okay. Madam Chair, maybe we can follow up 
through this committee in a more formal way to get that 
important information to me and particularly the people of 
Arizona.
    The April 2017 memo also directed the U.S. attorney's 
office to designate a border security coordinator to work with 
DHS to oversee the prosecution of these offenses, including 
misdemeanors and record and routinely report prosecution 
statistics. Is that correct?
    Mr. McHenry. Yes, that is what the memo directed.
    Mr. Stanton. Can you provide this committee with all of the 
prosecution statistics that were collected through this 
initiative?
    Mr. McHenry. We can take that request back as well. The 
Executive Office for U.S. Attorneys does typically provide 
statistics on a yearly basis. So they may have already been 
provided.
    Mr. Stanton. All right. I think we will be writing, asking 
for that in a more formal way. I believe that these guideline 
statistics may show the first chapter of this administration's 
family separation policy, and it is important that we see them, 
particularly as it relates to timeline.
    Now I am deeply troubled by some of the horror stories that 
I have heard about how children were literally ripped away from 
the arms of their parents. Stories from parents in which Border 
Patrol agents told them that their children were being taken 
for a bath or out to play and then never seeing their children 
again. Widely reported, obviously, in the media.
    These stories raise important questions. So the next--my 
next questions will be for Chief Provost. Chief Provost, during 
and prior to zero tolerance, what specific training were given 
to CBP, to agents on how to physically separate a child from 
their parent? Now I am not talking about who to separate. I am 
talking about the actual physical separation of parent and 
child.
    Chief Provost. Starting at the academy, the agents are 
trained how to deal with family units. And then beyond that 
timeframe, every year, we follow the law, and we have training 
on TVPRA, the Prison Rape Elimination Act, and Flores, which 
addresses care as well as the treatment of those in our 
custody.
    Mr. Stanton. Are those policies written down?
    Chief Provost. TVPRA, PREA, Flores, yes. We also have----
    Mr. Stanton. Okay. Are there written policies specifically 
about----
    Chief Provost [continuing]. Policy.
    Mr. Stanton. Are there written policies specifically about 
advising agents on the actual physical separation of parent and 
child?
    Chief Provost. Not that I am aware of. But I can tell you 
that any allegations--and I am not aware of what you stated 
earlier, but any allegations of such are taken very seriously 
by CBP, and the Department of--and DHS Office of Inspector 
General either investigates or the Office of Professional 
Responsibility on any and all allegations.
    Mr. Stanton. You indicated that these policies are not in 
written form but were still provided to----
    Chief Provost. The policies are in written form.
    Mr. Stanton. That the policies provided training to those 
agents as to how to physically separate. Are you aware of 
whether or not those policies were created in consultation with 
child welfare experts?
    Chief Provost. If I may be be clear, too, we are talking 
acts. So some of these were Prison Rape Elimination Act, the 
Trafficking Victims, these are laws. So I can't speak to the 
consultation in relation to those.
    Mr. Stanton. How about trauma experts? You have heard 
testimony here today, questions from members of this committee 
about how traumatic this event would be in a child's life to be 
taken away from a parent, even for a short period of time, how 
that could have a lifelong impact on that child. In preparation 
for your agents to engage in that activity, was there 
consultation with trauma experts on how to best implement this 
policy?
    Chief Provost. Not that I am aware of. Not that I am aware 
of.
    Mr. Stanton. Is there anything to prevent a Border Patrol 
agent from deceiving a parent when separating a child?
    Chief Provost. Once again, my----
    Ms. Scanlon. The gentleman's time has expired, but you may 
answer.
    Chief Provost. My agents are compassionate law enforcement 
professionals that are trying to deal, like any other law 
enforcement professional, with what is a very difficult 
situation. If that were to occur and an allegation were made or 
we were aware of it, it would be investigated.
    Mr. Stanton. Thank you.
    Ms. Scanlon. Mr. Jeffries is recognized.
    Mr. Jeffries. Thank you, Madam Chair, and I thank all the 
witnesses for their presence here today.
    The Trump administration's family separation policy and the 
practice of ripping children out of the hands of their parents 
was un-American, unacceptable, and unconscionable. It is not 
clear to me how any administration can come up with such a 
treacherous policy, but it appears, based on much of the 
information that has been provided, that this was a deliberate 
attempt to deter people who were fleeing incredible conditions 
of violence and disenfranchisement in the Central American 
Northern Triangle countries of Guatemala, Honduras, and El 
Salvador.
    Now the Homeland Security Secretary has denied that any 
family separation was being done to deter migrants. Is that 
correct, Commander White?
    Mr. White. I don't work for the Department of Homeland 
Security. I have only seen those statements in the media. 
Others would have to answer that.
    Mr. Jeffries. Okay. Now she indicated that she would find 
that notion offensive. Does anyone on the panel find the notion 
offensive that the Trump administration was engaging in family 
separation policy to deter?
    Chief Provost. If I may, sir? The prosecution--zero-
tolerance policy is a prosecution initiative, and the top--
there were prioritizations, but the focus was on, first and 
foremost, criminal aliens and then single adults and then those 
who had--I think it went from serious criminal aliens, meaning 
felonies, then misdemeanor convictions, then prior removals, 
single adults before any family unit whatsoever.
    It was not a family separation policy. It was a prosecution 
initiative for violating the law for 8 U.S.C. 1325.
    Mr. Jeffries. Okay. By criminal aliens, you mean human 
beings. Is that correct?
    Chief Provost. Yes, sir. ``Illegal alien'' is a term in 
law, but immigrants, yes.
    Mr. Jeffries. Okay. Undocumented immigrants. In March of 
2017, John Kelly, the DHS Secretary at the time, said he was 
considering separating immigrant children from their parents to 
deter immigration. Is that right?
    Chief Provost. I cannot speak to what he said. I am unaware 
of that.
    Mr. Jeffries. He reiterated the goal of the zero-tolerance 
policy in May of 2018 when he was Chief of Staff was ``a big 
name of the game being deterrence.'' Is that correct?
    Chief Provost. I am not aware, and I cannot speak for the 
Attorney General. I work for DHS.
    Mr. Jeffries. Okay. In June of 2018, when asked if the 
zero-tolerance policy would be deterring, then-Attorney General 
Jeff Sessions said, ``Yes, hopefully, people will get the 
message.'' Does anyone disagree with that statement on the 
panel?
    [No response.]
    Mr. Jeffries. Apparently not. Commander White, does that 
strike you as deterrence was the objective of family separation 
that was taking place at the border?
    Mr. White. I apologize. I can't speak to what the intention 
was. The effect on children is my area of concern, and that 
effect was negative.
    Mr. Jeffries. Now with respect to the Acting Assistant 
Secretary for Children and Families, Steven Wagner mentioned 
that the new zero-tolerance policy will result in a deterrent 
effect. Is that correct?
    Mr. White. I am aware that he made that statement.
    Mr. Jeffries. And you believe that that was the policy of 
the administration?
    Mr. White. I did not participate in the discussions around 
the formulation of the final zero-tolerance policy. The earlier 
discussions, which occurred in February and March of 2017, did 
discuss this as a deterrence intervention.
    Mr. Jeffries. And do you believe that the zero-tolerance 
policy is a policy consistent with the values of the American 
people, or is it an unconscionable effort to try to deter 
individuals who are fleeing violent conditions in Central 
America from trying to apply under law for refugee status? Sir, 
yes?
    Mr. White. As I previously testified, neither I nor any 
career staff person at ORR would have recommended or supported 
any policy which would have the effect of separating children 
from their parents as that would be inconsistent with the best 
interests of the child.
    Mr. Jeffries. Okay. I thank each and every one of you for 
your testimony.
    Ms. Scanlon. Thank you.
    Mr. Jeffries. I would just ask that you continue to make 
yourselves available as we try to come to some understanding as 
to how such a policy could ever have been implemented in the 
great United States of America.
    I yield back.
    Ms. Scanlon. Recognize my colleague from Pennsylvania.
    Ms. Dean. Thank you, Madam Chair.
    I, too, come at this as a mother and as a grandmother. I 
will not disguise in any way my belief that what has happened 
with the zero-tolerance policy and the family separation that 
took place before that and after that is inhumane and un-
American. I make no apologies for that, but I am happy that we 
are doing the important work of identifying what the heck 
happened and what we can do to repair the damage, if it is at 
all possible, and ultimately that we not let this ever, ever, 
ever happen again.
    I thank you, Commander White, for voicing your concerns for 
the children, for voicing your concerns about the policy. I 
wish others had as well.
    I want to examine the Office of Refugee Resettlement, and 
so, Mr. Lloyd, I am going to read to you from the website what 
we do. And this is what you did. ``The Office of Refugee 
Resettlement provides new populations with the opportunity to 
achieve their full potential in the United States. Our programs 
provide people in need with critical resources to assist them 
in becoming integrated members of the American society.''
    Would you agree that is the mission of ORR?
    Mr. Lloyd. I do agree, yes.
    Ms. Dean. And tell me, when were you brought on at ORR?
    Mr. Lloyd. My first official day was March 24, 2017.
    Ms. Dean. And your final day?
    Mr. Lloyd. December 1, 2018.
    Ms. Dean. Okay, March 2017 to December of 2018, roughly the 
entire period of time when we are now aware that children were 
being separated. How many children were in your custody at any 
one time?
    Mr. Lloyd. That would--that fluctuated during my tenure. I 
think at a low point, it was between 5,000 and 6,000. At a high 
point, it was over 15,000.
    Ms. Dean. And describe for us your expertise in working 
with children and displaced populations.
    Mr. Lloyd. I came to the Office of Refugee Resettlement 
after having spent time with the Knights of Columbus among 
displaced populations in Iraq and not physically, but also in 
Syria, to investigate the harms and the crimes that they had 
experienced at the hands of ISIS and to advocate on behalf of 
their interests and rights. I also have some experience as a 
teacher, which I think spoke to the Unaccompanied Alien 
Children's Program.
    Ms. Dean. And you told us that you did hear from Commander 
White his concerns. I don't think you have any degree in trauma 
to children or any medical degree. Is that correct?
    Mr. Lloyd. That is correct. I do not.
    Ms. Dean. It is too bad you didn't avail yourself of the 
greater expertise of Commander White.
    Mr. Lloyd. That is not true. I did listen very closely to 
my advisers, including child welfare experts, mental----
    Ms. Dean. And then did not speak up against the policy or 
speak up about the problems for the children. Something you did 
take an initiative on. Isn't it true that you tracked the 
menstrual cycles of young girls, young women in your custody?
    Mr. Lloyd. That is not an accurate characterization of what 
occurred. I am not sure what exactly you are referring to.
    Ms. Dean. I believe in a deposition you actually admitted 
to that. But you are now saying you did not track the menstrual 
cycles, or you did not have your staff track the menstrual 
cycles?
    Mr. Lloyd. The best----
    Ms. Dean. It is a yes or no. Did you track--did you create 
any kind of tracking mechanism----
    Mr. Lloyd. I don't have a yes or no answer for that 
question, but the best guess as to what you are referring to 
is, is a list that included that included pregnant women, and 
it would have mentioned their last menstrual period, which is a 
way of tracking the amount of time that they have been 
pregnant.
    Ms. Dean. So you are now denying that you tracked the 
menstrual cycles of young women in your custody? You are 
denying that?
    Mr. Lloyd. I am denying that I tracked menstrual cycles of 
women in my custody.
    Ms. Dean. We will be able to compare your deposition.
    Mr. Lloyd. Okay.
    Ms. Dean. Isn't it true that you personally visited 
pregnant minors to pressure them to continue their pregnancies?
    Mr. Lloyd. No, that is not true.
    Ms. Dean. That is not true?
    Mr. Lloyd. No.
    Ms. Dean. Okay. Isn't it true you instructed your staff to 
prevent minors seeking abortion from meeting with attorneys?
    Mr. Lloyd. Can you--I am sorry. Can you repeat the 
question?
    Ms. Dean. Certainly. Isn't it true you instructed your 
staff to prevent minors seeking abortion from meeting with 
attorneys, lawyers to get advice?
    Mr. Lloyd. Okay. So there was one instance where we said 
that there was----
    Ms. Dean. So it is a yes?
    Mr. Lloyd [continuing]. A brief period of--in one instance 
we said for a brief period of time, it would be not--it 
wouldn't be appropriate to meet with an attorney at that 
point----
    Ms. Dean. And you would determine whether or not it was 
appropriate, and you had the expertise, medical and otherwise, 
to determine that?
    Mr. Lloyd. Ma'am, all of the children in our----
    Ms. Dean. Isn't it true----
    Mr. Lloyd. All the children in our care received, they 
receive legal screening and access to an attorney. I never 
finally blocked access to an attorney for anybody, anybody.
    Ms. Dean. Not finally, but when a minor is pregnant, any 
blocking of legal advice might be critical to that person.
    Mr. Lloyd. It was--I did not----
    Ms. Dean. Isn't it true--I have very little time left.
    Mr. Lloyd. Okay.
    Ms. Dean. And I want to use the language that we have been 
told----
    Ms. Scanlon. The gentlewoman's time has expired. The 
witness may answer the final question there.
    Mr. Lloyd. I didn't hear the end of the question.
    Ms. Dean. My question is this. When you took the initiative 
to track menstrual cycles, which your deposition reveals----
    Mr. Lloyd. I did not do that.
    Ms. Dean [continuing]. And to try to guide young women or 
block them from getting legal advice, did you also take the 
initiative, and is this initiative underway, to assess the 
mental health of the children in your custody? Did you take 
that initiative?
    Mr. Lloyd. We do assess the mental health of every child in 
our custody within 24 hours of them coming into our custody, 
and they receive both group and individualized mental health 
care.
    Ms. Dean. Hopefully, my colleagues will ask the ongoing----
    Ms. Scanlon. Okay.
    Ms. Dean. The 24-hour first impression is one thing, but we 
are talking about the trauma created from separation----
    Mr. Lloyd. It is ongoing throughout their care in ORR.
    Ms. Scanlon. Okay. The chair recognizes the gentlewoman 
from Texas.
    Ms. Escobar. Thank you, Madam Chair, and thank you to the 
panel. Thank you for your service. Thank you for being here.
    I am from the safe, secure, and vibrant U.S.-Mexico border 
community of El Paso, Texas, where, unfortunately, we have the 
dubious distinction of being the testing ground for the Trump 
administration's family separation policy.
    Chief Provost, I have a couple questions for you as follow-
ups to what some of my colleagues asked you. You acknowledged 
earlier that you do not know how many children were separated, 
beginning with the time that the policy was implemented in El 
Paso in July 2017 and when the policy was officially announced 
on April 6, 2018. Is that correct?
    Chief Provost. I don't have that number with me. It is a 
number that I can get.
    Ms. Escobar. Okay. But okay, so then you do know how many 
children exactly were separated during that testing period?
    Chief Provost. Once again, it wasn't a family separation 
testing period. It was a prosecution initiative like many 
others we have done.
    Ms. Escobar. I understand that. I do understand----
    Chief Provost. But we can pull that information.
    Ms. Escobar. Okay. And I will tell you--so if we could have 
that, I would appreciate that.
    We do--in El Paso, we call it the child separation policy 
because that is exactly what happened. I know it is far more 
academic to call it by its governmental name, but those of us 
who have actually sat with the families who have been separated 
and then reunited, we have seen the trauma firsthand. It is 
painful, and we should call it for what it is.
    So what is the plan--how many--do you know how many of 
those families during that testing period, how many of them 
have been reunited?
    Chief Provost. I do not. That is something that, once 
again, anybody that we separate, for whatever reasons--and 
there are still reasons that we have to separate children from 
parents--that information we provide to HHS going forward, and 
I don't deal with the reunifications.
    Ms. Escobar. Okay. Who on the panel deals with the 
reunifications?
    Mr. White. That would be me, ma'am.
    Ms. Escobar. And can you tell me how many of those children 
have been reunited? Those who were separated during the testing 
period.
    Mr. White. If the child was still in ORR's care on the 26th 
of June 2018, regardless of when they were separated, whether 
they were separated during the declared period of zero 
tolerance or before, those are minors who in the Ms. L.--whose 
parents are in the Ms. L. class. And we can say of those which 
were reunified and which were not.
    What neither I nor anyone in HHS knows is which of the 
children who had already been discharged from our care before 
the 26th of June, which of them were separated and which 
weren't. Although if someone were to give us such a list, we 
could certainly tell you to whom we discharged every single one 
of those children.
    Ms. Escobar. Who can get you that list?
    Mr. White. We don't have it in HHS. I would assume that 
only DHS could provide such a list.
    Ms. Escobar. Okay. So we need to make sure--will you 
request that list from DHS? Wouldn't it be incumbent on us to 
make sure that every single child that was separated could be 
accounted for? Isn't that our obligation?
    Mr. White. That is a matter that Judge Sabraw is deciding 
right now.
    Ms. Escobar. But I am talking about the folks before--I am 
talking about the children and the families separated----
    Mr. White. But unless there is a--unless there is a court 
order, we are not going to go into the homes of families to 
take a child from their other parent or their aunt to bring 
them back----
    Ms. Escobar. All right. Thank you. I reclaim my time.
    Earlier in this hearing, Mr. Raskin referenced the work of 
the Texas Civil Rights Project. Because of their work, we know 
that family separation continues to this day, several months 
after an executive order should have stopped it.
    Madam Chair, I ask unanimous consent that a report by the 
Texas Civil Rights Project, entitled The Real National 
Emergency: Zero Tolerance and the Continuing Horrors of Family 
Separation at the Border, be entered into the record.
    Ms. Scanlon. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Ms. Escobar. Chief Provost, you stated earlier that 
children are currently being separated from their parents when 
the parent has a criminal conviction. Does that include illegal 
reentry?
    Chief Provost. It is not for standard entry. If they have a 
felony charge, it can include illegal reentry.
    Ms. Escobar. So they are being separated today because of 
illegal reentry?
    Chief Provost. That is a felony. If they have a conviction 
for it from previous or they have a felony conviction, they 
would be a felon. So then in that case.
    Ms. Escobar. That is shocking and horrifying.
    Chief Provost. Not for reentry at this point. It is if they 
have a felony conviction.
    Ms. Escobar. Madam Chair, I ask unanimous consent that a 
news report by Julia Ainsley, entitled ``Trump Administration 
Weighed Targeting Migrant Families, Speeding Up Deportation of 
Children,'' be inserted into the record.
    Ms. Scanlon. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
           
    Ms. Scanlon. And the gentlewoman's time has expired.
    Ms. Escobar. May I ask a final question just related to 
this article? The article details memos, one of which----
    Ms. Scanlon. I am sorry, you can't.
    Ms. Escobar. Okay.
    Ms. Scanlon. Recognize the gentlewoman from Florida.
    Ms. Mucarsel-Powell. Thank you, Madam Chair.
    And for everyone appearing here today, I understand the 
difficulty of being on the spot, but this is incredibly 
important. I represent the Florida's 26th Congressional 
District, where it is home apparently to the largest detention 
facility in the country.
    Just to tell you a little bit about myself, I am a proud 
immigrant. I came here when I was 14 with my mother. It was a 
very difficult experience to leave my home country, but this 
country welcomed me, and I was never separated from my family. 
And through their love and support and this incredible country, 
I am now a sitting Member of Congress.
    So when I went to this facility last week, I saw many kids 
that reminded me of myself. I am also a mother, and I have kids 
also of similar ages. So they reminded me of my own children. 
And it was a very troubling experience. I went in with an open 
mind, and I left with many, many questions and many concerns.
    It is highly regimented. The kids start at 6:30 a.m., and 
they don't go to bed until 10:00 p.m. There is high fencing all 
over the facility. It definitely feels like a prison. We were 
instructed not to really speak to the children, but I went 
ahead and spoke to them anyways.
    There are kids that are housed in an area, 144 kids in bunk 
beds with numbers next to the bunk bed. I believe we are 
committing a crime against humanity. This is not the country 
that I came to. It is an America that I do not recognize, and 
this is not to accuse any of you personally, but you have to 
understand the severity of the situation.
    So I want to start with Mr. Lloyd. Do you know how many 
children right now are being housed at the Homestead detention 
facility?
    Mr. Lloyd. I will preface my comments by saying that the 
notion that ORR is committing a crime against humanity by 
running a temporary shelter is absurd. It is one that I take 
personally. I take personally on behalf of the dedicated 
individuals who are caring for those children.
    Ms. Mucarsel-Powell. Mr. Lloyd, it is obvious that you do 
not think that this is a crime against humanity. It is obvious 
to me. You don't have to tell me that.
    Mr. Lloyd. So to get to your question----
    Ms. Mucarsel-Powell. I asked a question.
    Mr. Lloyd. So my question is----
    Ms. Mucarsel-Powell. You should know how many children 
right now are being housed in the Homestead detention facility?
    Mr. Lloyd. I do not have that information. I am not the----
    Ms. Mucarsel-Powell. You are overseeing that detention 
facility.
    Mr. Lloyd. I am not. I am not the Director of the Office of 
Refugee Resettlement anymore as of December 1st.
    Ms. Mucarsel-Powell. So who oversees the Homestead 
detention facility?
    Mr. Lloyd. That would--it is right now under the purview of 
the Acting Director Jonathan Hayes and the Assistant Secretary 
for Children and Families--oh, gosh, Lynn Johnson, sorry.
    Ms. Mucarsel-Powell. So can anyone in the panel answer to 
me? Because right now the center is being run by a for-profit 
private company. They are making about $750 per child. So it is 
no surprise that there is no rush to getting any of these 
children reunited with a family member or a sponsor, and last I 
heard was they were increasing the capacity.
    So my question here, and maybe I would love to know if 
anyone in the panel can answer this, is why was the decision 
made to use a for-profit company to oversee a detention center 
for the children being separated from their families?
    Mr. White. I will address that for you, ma'am. First of 
all, the Homestead facility is not a detention center. It is an 
influx shelter. We operate influx shelters. We operated 
Homestead in the last administration and in this one. And I am 
very proud of the work we have done at influx shelters.
    Let me explain why we do temporary influx, just so we are 
clear. We do it because Congress does not appropriate enough 
funds for us to have all the permanent beds we need for the 
high point of a fluctuation, and the fluctuations are 
extraordinary. But Homestead fully meets our national 
standards.
    But let us talk about this question. Why did the contractor 
who presently has the contract for the operation of Homestead 
receive it? Because we did a fair and open competitive process 
in which both for-profit and not-for-profit entities competed, 
and they had the winning proposal, which was selected by the 
contracting officer who is not Scott Lloyd or any person in 
ORR.
    Ms. Mucarsel-Powell. Now let me ask you, since you 
mentioned that it is a temporary influx center because I know 
that that means they don't have to be licensed by the State. So 
what is the average--since it is a temporary influx center, 
what is the average length of stay for a child that is being 
held at the detention center?
    Mr. White. We will have to get back to you on the current 
average for Homestead. However, typically, the standard for 
placement in the influx facility would be that we would 
anticipate the child would be in our care 60 or fewer days.
    Ms. Mucarsel-Powell. Okay. Because I understand that there 
are children being held there for over 9 months.
    And do you know how many that is----
    Ms. Scanlon. The gentlewoman's time has expired. But you 
can answer.
    Mr. White. We can get back to you with information on the 
average time and care of children in that facility. That 
facility, however, does meet the needs of children, and we have 
used it successfully in two different administrations.
    Ms. Scanlon. The gentlewoman from Georgia is recognized.
    Mrs. McBath. Thank you so much. Thanks so much, Chairwoman.
    Ms. Asher, we have heard a lot today about the DHS and HHS 
failed--that they actually failed to document family 
separations likely in violation of the Federal Records Act. 
When your agency was tasked with implementing the President's 
child preparation policy, did you receive instructions not to 
create and maintain records connecting these children with 
their parents or other accompanying adults? And if so, who 
provided those instructions, and what were they, if not 
instructions, were you given regarding creating or maintaining 
such records?
    Ms. Asher. We did not create. We did not receive such 
instructions. What we did do was already in a tried practice is 
we had to do manual checks of the various systems that were all 
involved. We essentially had three different agencies involved 
in tracking either child or parent, and that those systems are 
siloed from one another, we had to do manual crosschecks 
through a working group to ensure that we could continue to 
track the parents that I had in my custody with their children 
who were in HHS custody.
    Mrs. McBath. Okay. Thank you.
    I yield my time to my colleague Mr. Neguse.
    Mr. Neguse. Thank you, Congresswoman McBath.
    I want to follow up on a questioning, line of questioning 
from our distinguished caucus chairman, Mr. Jeffries. And 
Commander White, I think you answered a question that he had 
posed, and actually your answer essentially around whether--and 
I understand you can't speak to the comments made by former 
Secretary Kelly and so forth, but that you would find a policy 
of separating children, babies from their parents, based in 
whole or in part on trying to create a deterrent effect, you 
would find that offensive. Is that correct?
    Mr. White. I want to be very specific because deterrence of 
migration is a law enforcement matter, and that is not a 
concern in HHS. I will be very specific.
    I would be opposed to any process of separation for any 
cause other than the best interests of the child. It is within 
the power of Congress to set those limits, and you have not.
    Mr. Neguse. Understood. And I think that reconfirms what 
I--and so the question, I think, is probably more appropriately 
directed towards Chief Provost and Director Asher. Do you agree 
with Commander White that, ultimately, you would find a policy 
offensive to the extent that it would separate children from 
their parents for the purposes of creating a deterrent effect? 
And the question will go to Provost, Chief Provost.
    Chief Provost. I can tell you that, once again, this was a 
prosecution initiative focused on single adults, first and 
foremost. As a law enforcement professional, any time that we 
have to deal with families is very, very difficult for us to 
deal with.
    That being said, when adults violate the law--and I don't 
make the laws. You know that. It is my job to enforce the laws 
that are on the books. And it is a violation of law to enter 
this country illegally.
    I want these groups of individuals to go, present 
themselves at a port of entry legally, not put themselves, 
their children into the hands of smugglers who will harm them. 
The trip is dangerous. We don't want them putting themselves or 
their kids----
    Mr. Neguse. And I don't want to interrupt.
    Chief Provost [continuing]. In that place.
    Mr. Neguse. I wanted to give you the time to answer, Chief 
Provost. I don't want to interrupt your answer, but I think 
what I am hearing is that the answer is, no, that you would not 
find that policy offensive to the extent that it was designed, 
in whole or in part, to provide a deterrent for other folks to 
ultimately come to the country. That is what I guess I am 
getting at.
    Chief Provost. I see the policy as being designed to 
deliver a consequence for violating the law.
    Mr. Neguse. Which is essentially what I am--so just so we 
are clear. You would not find it offensive to implement a 
policy to separate children from their parents to the extent 
that that policy is motivating to create, in whole or in part, 
a deterrent effect, right? That is----
    Chief Provost. I am trying to--I am trying to answer you to 
the best of my ability. The policy was a prosecution initiative 
focused on violations of law, not focused on family separation. 
It was focused on violation of law, and delivery of 
consequences for violation of law is--I am a law enforcement 
professional.
    Mr. Neguse. Thank you to the witnesses for coming in.
    With that, I yield the rest of my time to the distinguished 
congresswoman from Texas, Ms. Escobar.
    Ms. Escobar. Thank you so much.
    Chief Provost, while you call it a prosecution initiative, 
it was clear that it was intended as a deterrent. And I entered 
earlier into the record an article that identifies 10 memos 
that were written by the administration and by staff in the 
administration. One of those memos made it into the hands of 
Senator Merkley, and the memos outlined the way to best deter 
via zero tolerance.
    Have any of you seen any of those 10 memos, and did you 
participate in either the writing of or the influencing of 
those memos? Yes or no.
    Chief Provost. Ma'am, I am not sure on the memo. So it is 
hard for me to without seeing the memo.
    Ms. Escobar. Okay. All right. So one last question. Was 
anyone at DHS held accountable for the botched rollout of this 
policy, the thousands and thousands of children who have been 
traumatized, and the fact that there are still families that 
have yet to be reunited? Was anyone held accountable? Yes or 
no.
    Chief Provost. No. I am not aware of that.
    Ms. Escobar. I yield my time.
    Chairman Nadler [Presiding]. The gentlelady's time has 
expired.
    The gentleman from California, Mr. Correa.
    Mr. Correa. Thank you, Mr. Chairman.
    First of all, I want to thank you and our ranking member 
for holding this most important hearing. My apologies for being 
late. I was actually chairing a Subcommittee on Homeland. It 
was a very important topic on cyber and other issues that are 
important and critical to our national security.
    As I was walking from there to here, I thought to myself 
Homeland Security, and a lot of you are under that umbrella, 
protection of the homeland against terrorists. And I am trying 
to figure out how family separation works into this whole 
picture of protection against terrorists.
    Ma'am, Ms. Provost, you say this is a law enforcement 
issue, but I have to tell you, as a dad, I have four kids. And 
I remember about 20 years ago, my 3-year-old got lost on me at 
Disneyland for about an hour and a half. That was the most 
horrible hour and a half of my life, could not find him among 
thousands and thousands of people. Very hard on me.
    And so thinking again of a policy of family separation, law 
enforcement, deterrence, whatever you want to call it, you 
know? And then sitting on Homeland Security, I like to go out 
and talk to members of your groups, the rank and file. And I 
have to tell you, a lot of your rank and file are not happy. 
They are demoralized.
    This is no way to run an operation. This is no way to 
protect the homeland, family separations. When the news broke 
out on this, I got active on this. One June 19th, I traveled to 
our Southern border to see the facilities firsthand. June 19th, 
I sent a letter to then-chairman of the Homeland Security 
Subcommittee on Oversight asking for a hearing on how DHS had 
produced such a horrific policy.
    Then June 20th, I sent a letter to Secretary Nielsen and 
DHS Inspector Kelly asking for answers. June 22nd, I led a 
letter, 123 Members joined me in demanding an immediate 
investigation of DHS and HHS, which eventually led to an HHS 
OIG report that was released in January.
    June 27th, I asked then-House Homeland Secretary chairman 
to hold a hearing on the issue, and on July 25th in a private 
meeting, I again asked Secretary Nielsen for answers. Haven't 
got any answers.
    I just want to know what is going on because you know what? 
These are very critical issues for our country. You know, it is 
like one of my colleagues said, family separation is not us.
    Yes, I get it. You have got to enforce the law. But 
separating kids from their families is not the way to do it. 
And I know you know that. And God knows who concocted up this 
idea, but it has really hurt us as a country.
    So I am going to ask you the questions that I have here, 
letters that I have sent to you all and I haven't gotten 
answers. I am going to ask them against right now, which is a 
question for Ms. Provost, Ms. Asher, and Commander White. Do 
DHS and HHS keep separate records, or is there one system to 
track parents and their children?
    Chief Provost. There are separate systems. That was part of 
the issue that we have talked about. We have worked diligently 
to get those systems working closer together. There are systems 
over at----
    Mr. Correa. Not there yet?
    Chief Provost. DHS and then HHS.
    Mr. Correa. Not there yet?
    Chief Provost. That is something that we are working on to 
continue to improve, but we----
    Mr. Correa. I know IT is a very painful area, but when do 
you think you will have this?
    Ms. Asher. So if I may answer that? That is the constant 
challenge, that when you have multi agencies involved in an 
issue, and you know, understanding that those systems do not 
talk to one another, if this is something that is going to be a 
more concrete expectation, then I would ask, on behalf of my 
colleagues here, that we do need funding.
    Mr. Correa. Isn't the liability issue just a human issue, 
ma'am?
    Ms. Asher. I am not denying that, sir.
    Mr. Correa. I think this should be a concrete goal. Get 
this done.
    Ms. Asher. Understood. It is a concrete goal with current 
systems that we have in place, an account with hours and 
modifications that we can almost band-aid our----
    Mr. Correa. I don't have much time. So let me ask is this 
an urgent issue? Is this not a top main thing to do?
    Ms. Asher. It is a critical issue that we manage to the 
best of our ability with the existing systems that we have. And 
until we get a system that is across the corporate, we will 
continue to do the best we can.
    Mr. Correa. What do you need to get that done?
    Ms. Asher. We actually need modernization----
    Mr. Correa. I sit on Homeland. What do you need to get that 
done?
    Ms. Asher. We need IT modernization so systems can talk to 
one another across the various agencies.
    Mr. Correa. Mr. Chairman, I am out of time. But I would 
like to submit for the record the letters that I asked these 
questions of these departments. And hopefully, if you can, I 
would like to have you answer the remainder of my questions.
    Chairman Nadler. Without objection, the documents will be 
entered into the record.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Nadler. The gentleman from California, Mr. Lieu.
    Mr. Lieu. Thank you, Mr. Chairman.
    Chief Provost, thank you for your public service. According 
to U.S. Customs and Border Patrol, border apprehensions 
declined 75 percent from 2000 to 2018. You have no reason to 
doubt the accuracy of your own agency's data on that, right?
    Chief Provost. The numbers have declined. I can't say the 
exact percent. But yes, they have declined from 2000 until 
2018.
    Mr. Lieu. Thank you.
    Also according to U.S. Customs and Border Patrol, and I am 
referencing this because in one of the opening statements, one 
of my colleagues on the other side of the aisle was talking 
about the flow of illegal drugs. According to Customs and 
Border Patrol in fiscal year 2018, 90 percent of heroin came 
through legal ports of entry, 87 percent of methamphetamine 
came through legal ports of entry, 80 percent of fentanyl came 
through legal ports of entry, and 88 percent cocaine came 
through legal ports of entry.
    You have no reason to doubt the U.S. Customs and Border 
Patrol's data on that either. Correct?
    Chief Provost. That data has to be put into perspective, 
and that is where the seizures are. As I stated in my opening 
statement, we have both a humanitarian crisis at the border and 
a border security crisis. My agents are being diverted away, 
and the demographic is very different, too, which I stated in 
my opening statement.
    Mr. Lieu. I heard the opening statement.
    Chief Provost. You cannot compare just number of 
apprehensions. You also cannot compare just seizures because it 
is the unknown. That is what keeps me up at night. What is 
crossing through our borders between the ports of entry----
    Mr. Lieu. No, I got that.
    Chief Provost [continuing]. Because it is not a controlled 
environment and are getting past us.
    Mr. Lieu. You are certainly entitled--you are certainly 
entitled to your opinion. I am just relating facts from your 
agency.
    Now I would like to go on and ask Ms. Asher, you are with 
ICE. Correct?
    Ms. Asher. Yes.
    Mr. Lieu. Okay. This is Juliette.
    [Playing video of crying baby.]
    Mr. Lieu. A 17-month-old baby that was ripped away from her 
parents. It took 2 months, 2 months to reunite her with her 
mother. And an article accompanying this story from the San 
Francisco Chronicle that says that ICE demanded a $4,000 credit 
card payment so that the mom could have Juliette back.
    So my question is why did ICE ask for $4,000 in that case?
    Ms. Asher. I have to absolutely dispute that allegation. We 
in no way have any sort of financial transactions that we use 
credit cards in exchange to have a service in reuniting a 
parent with a child.
    Mr. Lieu. Why did it take 2 months to do that?
    Ms. Asher. Without the specifics of that particular case 
that you mentioned, I am not able to give you a thorough 
response. It is the first I have heard of this.
    Mr. Lieu. Okay. So I just note that this was a public 
article in the San Francisco Chronicle. It is not as if it was 
hidden, and no one knew about it. We will send that article to 
your agency and would like a written response.
    So now I would like to follow up on the pilot program that 
was run, and the first thing I would like to do is request that 
the Department, the DHS department make available to the 
committee the unredacted version of the DHS Inspector General 
report as well as any other materials regarding the El Paso 
pilot program. Is that something we all could get?
    Chief Provost. The El Paso program was a prosecution 
initiative, like many others that we have done before. I am 
more than happy to provide you information on that.
    Mr. Lieu. Thank you. So according to the GAO, Border Patrol 
also conducted a report on this pilot program. Could you also 
turn over that report to the committee as well?
    Chief Provost. I would have to look into what report, but I 
will be glad to turn over any information that we have.
    Mr. Lieu. Thank you. Do you consider the pilot program a 
success?
    Chief Provost. Sir, once again, this was a prosecution 
initiative. We have done prosecution initiatives for years 
through multiple administrations. We did Operation Streamline. 
We do prosecution initiatives in the field. Our field 
leadership worked with the U.S. attorneys in those specific 
locations. There are certain numbers of prosecutions that are 
allowed. This was a similar program. We have done numerous ones 
over the years.
    Mr. Lieu. And from that program, according to the 2018 GAO 
report, 1,800 individuals are processed, resulting in 281 
individuals separated from their families. Why did either 
Border Patrol or the other agencies in the Trump administration 
not figure out there was no computer field for these kids?
    Chief Provost. There is a computer field. As we have stated 
before, our systems did not speak to one another. We have 
always had the information available. We added in April of 2018 
an ability to search and pull that info easier.
    Mr. Lieu. Thank you. Thank you.
    So if I could just conclude real quick? This pilot program 
that happened in El Paso, the Trump administration should have 
figured out from there that they were not able to track 
individuals very well who were separated. And the fact that 
they did not do that, and then when it launched this family 
separation policy nationwide was not just immoral and unjust, 
it was just simply mass incompetence, and the folks involved in 
that should just be ashamed of themselves.
    I yield back.
    Chairman Nadler. The gentleman yields back. That is our 
last Member to have questions.
    This concludes today's hearing. Thank you to our 
distinguished witnesses for attending.
    Without objection, all Members will have 5 legislative days 
to submit additional written questions for the witnesses or 
additional materials for the record.
    The hearing is adjourned.
    [Whereupon, at 2:04 p.m., the committee was adjourned.]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
</pre></body></html>
